<html>
<title> - NOMINATIONS TO THE EXECUTIVE OFFICE OF THE PRESIDENT, THE CONSUMER PRODUCT SAFETY COMMISSION, AND THE FEDERAL MARITIME COMMISSION</title>
<body><pre>[Senate Hearing 112-631]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 112-631

                           NOMINATIONS TO THE
                   EXECUTIVE OFFICE OF THE PRESIDENT,
                THE CONSUMER PRODUCT SAFETY COMMISSION,
                  AND THE FEDERAL MARITIME COMMISSION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 10, 2012

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]












                  U.S. GOVERNMENT PRINTING OFFICE

76-909 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
             Richard M. Russell, Republican Staff Director
            David Quinalty, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator



















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 10, 2012.....................................     1
Statement of Senator Rockefeller.................................     1
    Prepared statement...........................................     4
Statement of Senator Hutchison...................................     5
    Prepared statement...........................................     6
Statement of Senator Lautenberg..................................     6
Statement of Senator Udall.......................................     7
Statement of Senator Cantwell....................................     8
Statement of Senator Pryor.......................................    56
Statement of Senator Boozman.....................................    58

                               Witnesses

Hon. Carl Levin, U.S. Senator from Michigan......................     1
Hon. Barbara Mikulski, U.S. Senator from Maryland................     3
Patricia K. Falcone, Nominee for Associate Director, National 
  Security and International Affairs, Office of Science and 
  Technology, Executive Office of the President..................     9
    Prepared statement...........................................    11
    Biographical information.....................................    11
Marietta S. Robinson, Nominee to be a Member, U.S. Consumer 
  Product Safety Commission......................................    19
    Prepared statement...........................................    21
    Biographical information.....................................    22
Hon. Richard A. Lidinsky, Jr., Chairman, Federal Maritime 
  Commission.....................................................    30
    Prepared statement...........................................    32
    Biographical information.....................................    34
William P. Doyle, Nominee to be Commissioner, Federal Maritime 
  Commission.....................................................    40
    Prepared statement...........................................    42
    Biographical information.....................................    43

                                Appendix

Response to written questions submitted to Patricia K. Falcone 
  by:
    Hon. Tom Udall...............................................    61
    Hon. Kay Bailey Hutchison....................................    61
    Hon. John Thune..............................................    62
    Hon. Roger F. Wicker.........................................    63
Response to written questions to Marietta S. Robinson submitted 
  by:
    Hon. Kay Bailey Hutchison....................................    64
    Hon. John Thune..............................................    65
    Hon. Marco Rubio.............................................    67
Response to written questions submitted to Hon. Richard A. 
  Lidinsky, Jr. by:
    Hon. Frank R. Lautenberg.....................................    69
    Hon. Maria Cantwell..........................................    69
    Hon. Kay Bailey Hutchison....................................    71
    Hon. Roger F. Wicker.........................................    74
Response to written questions submitted to William P. Doyle by:
    Hon. Frank R. Lautenberg.....................................    74
    Hon. Maria Cantwell..........................................    75
    Hon. Kay Bailey Hutchison....................................    77
    Hon. Roger F. Wicker.........................................    78

 
                  NOMINATIONS TO THE EXECUTIVE OFFICE
                     OF THE PRESIDENT, THE CONSUMER
                   PRODUCT SAFETY COMMISSION, AND THE
                      FEDERAL MARITIME COMMISSION

                              ----------                              


                         THURSDAY, MAY 10, 2012

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:20 a.m., in 
room SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. I want to, I have to quote Queen Elizabeth, a 
morning horribilis. I don't know what the Latin word for 
morning is, so I can't complete it.
    I totally apologize to all of you. I'm ready to sue traffic 
in general in West Virginia. If Levin weren't here, I'd say I 
was ready to sue cars that make illegal left turns.
    I can go over this. I've kept you all waiting long enough. 
Senator Levin, Senator Mikulski, again, I apologize to you and 
to my colleagues.
    And why don't you go ahead and make the introduction that 
you want to make.

                 STATEMENT OF HON. CARL LEVIN, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Levin. Well, thank you very much.
    The Chairman. I was told that you were itchy. Both of you 
were itchy at my lateness.
    Senator Levin. You are, as usual, always are most gracious. 
Chairman Rockefeller and Senator Lautenberg, thank you. Thank 
you for holding these hearings.
    And I'm delighted to be here today to introduce Marietta 
Robinson, who's an old friend of mine and the family. She's 
been nominated by the President to the Consumer Product Safety 
Commission.
    She's here today with her son, and I'm going to let her 
introduce her son and the rest of her family, if that's all 
right.
    The Chairman. Of course.
    Senator Levin. Because she would take special pleasure in 
introducing her family to this committee. But I think we all 
know how important family is to those who seek to be in public 
service, and that's surely true with Marietta or Marti 
Robinson.
    As this committee knows, the important work of the Consumer 
Product Safety Commission requires people who are not only 
dedicated and knowledgeable, but they need to be fair minded.
    And Marietta Robinson is extraordinarily well-qualified to 
serve on the Commission for a lot of reasons, including 
character, which is very well known to all of us who know her 
which is a large number of people in Michigan who will attest 
to the wonderful character of Marti or Marietta Robinson.
    I won't go through her history in terms of her degrees. 
This committee can take a look at those, and I'm sure will. But 
what I want to just focus on for a minute is the fact that her 
experience as a litigator is on both sides of the cases.
    She's been a plaintiff's lawyer. She is a plaintiff's 
lawyer. She's a defendant's lawyer. She has sued companies on 
consumer product cases. She has defended companies on consumer 
product cases.
    And I think that's particularly important in this 
Commission is that you have people who are fair minded, and 
through their experience, if possible, have proven that they 
have the type of experience that makes them open minded, that 
makes them understand the arguments that can be made for or 
against the complaints and the claims of consumers.
    She is also, in addition to having that experience in 
litigation on both sides, she is a faculty member, an adjunct 
faculty member at the University of Detroit Mercy, Wayne State 
University Law Schools.
    She teaches trial practice. She's lectured extensively 
before professional audiences on complex litigation issues.
    She's also been, for 8 years, she's served as one of the 
federally appointed trustees overseeing the fund which 
compensated victims of the very tragic and complex Dalkon 
Shield litigation.
    She has a distinguished career serving her community. She's 
worked with women's leadership foundations. She's worked with 
organizations that help handicapped children.
    So I want to give her, and I know Senator Stabenow's strong 
recommendation to this committee. We are very grateful to the 
President for this nomination, and we're grateful to this 
committee and its members for holding this hearing today.
    And if it was okay with the Committee, I would ask that I 
be excused at this time, unless there are questions, in which 
case I will wait for Senator Mikulski so she can answer the 
questions.
    [Laughter.]
    The Chairman. You have the right to leave as quickly as 
possible.
    [Laughter.]
    Senator Levin. That sounded like an invitation. Thank you 
very much, as always, to my colleagues.
    The Chairman. I'm very thankful to you, Senator Levin. Once 
again, I do apologize, as I do to Senator Mikulski as I do to 
Kay Bailey Hutchison, as I do to the nominees, genuinely.

              STATEMENT OF HON. BARBARA MIKULSKI, 
                   U.S. SENATOR FROM MARYLAND

    Senator Mikulski. Good morning, Chairman Rockefeller and 
Senator Hutchison.
    I come here today on behalf of Mr. Richard Lidinsky, who is 
before the Committee for his renomination as a Chair to the 
Federal Maritime Commission.
    He has a proven track record. He has served on the 
Commission, and has been its chair for 2 years now. And during 
this time, he has received accolades from both business and 
labor, those in the American maritime community who depend upon 
this Commission to be the United States of America in 
representation.
    During his tenure, Mr. Lidinsky has supported our Nation's 
economic recovery, has worked hands on with the private sector 
to create jobs, and simultaneously, to look out for the 
consumer.
    Colleagues, I have known Mr. Lidinsky for more than 40 
years. If you were with my hometown of Baltimore, and you heard 
the name Lidinsky, it would bring an immediate smile because 
the family is beloved.
    His father, I worked with his father as Deputy Controller 
of the City of Baltimore. His father had a reputation for 
absolute integrity, skilled management, and an eye on the 
bottom line.
    Rick brings the same kind of commitment to public service 
that his father did. Public service is in his DNA, along with 
considerable management skill and that sense of the bottom 
line.
    I first met Rick when he was working at the Maryland Port 
Authority, and I was a brand new Member of Congress, a member 
of the Merchant Marine Committee. Remember when we had those? 
They were before your time, but not our time.
    And Senator Lautenberg, of course, was very active here. 
And have observed Rick's career where he's worked both in the 
public sector, for the maritime industry, Maryland Port 
Authority, and others.
    Then he went to the private sector in America's shipping 
community where he knew hands on how the business actually 
works, and what the business needed to be able to, maritime, to 
be competitive in the new world order.
    From 1995 to 2005, his CEO allowed Rick to work on a 
special committee with NATO. NATO had been enlarged. We were 
going to be shipping to countries like Poland and into the 
Baltic, and Rick helped lead how America would participate in 
that.
    And then, also, America's role as we went into 911, as we 
went into serving with our Merchant Marine to support our 
troops in Iraq and Afghanistan. So while he was on duty in the 
private sector, he was serving the Nation and representing the 
private sector in important NATO work.
    At that time, then, Rick returned to the private practice 
of law, and then, President Obama tapped him to come to the 
Commission.
    During that time, he's worked with importers, exporters to 
have reliable service. He's led the Commission in cutting out-
of-date rules and regulations. He will tell you about that.
    We have a tariff system that had to be tediously recorded 
by hand. Well, it was so out of date in a digital world, and 
Rick has transformed that. He actually led the fight within, 
well, within his own bureaucracy, to both deregulate and 
modernize through a digital economy.
    When Rick worked near the Federal Maritime Commission in 
the 1960s, there were over 300 employees. They're now 120. Rick 
has focused like a laser on American exports, and has worked 
his way to help exporters to have access to ships and to 
containers they need.
    He's promoted export growth, particularly in the 
agricultural area, and he's also protected first time movers as 
they've moved their household goods and cars overseas.
    He has paid particular attention to our military families 
as they've had to move around the world in order to support our 
war fighters.
    He's reinvigorated, reformed and modernized the Commission. 
I really hope the Committee moves his renomination in an 
affirmative way and expeditiously.
    Also, Mr. Chairman, you'll hear from Mr. Doyle today, a 
nominee before the Commission. He's a native of Pennsylvania. 
His business causes him to rent in Maryland, so, ordinarily, I 
would have brought him to your attention, but I am here today.
    This is a man who comes from our workers organizations, the 
MEBA organization, that represents the officer corps of our 
Merchant Marine.
    Remember who MEBA is. They're our guys that run those 
ships. They're the ones that were on the ship when the pirates 
attacked, and they're the ones that fought back. They're the 
ones that make sure their captain wasn't captured and held, 
kidnapped.
    MEBA brings a great deal of know-how, and it represents 
America's Merchant Marines who Roosevelt called our heroes in 
dungarees. He's here in a suit today. He wants to be on the 
Commission, and I hope you confirm him too.
    The Chairman. Senator Mikulski, we not only thank you for 
your introductions of people from a variety of states, but also 
the way that you did it. It was so heartfelt. You didn't look 
at a single piece of paper. You were just speaking out of 
knowledge and memory and your intuition, which is what you 
always do, which is why you're always so effective.
    Senator Hutchison. Ditto.
    The Chairman. Thank you very, very much.
    Senator Mikulski. Thank you very much, Mr. Chairman.
    The Chairman. OK. In the interests of trying to get myself 
back into a reasonable position where anybody on the Committee, 
or any nominee will speak to me now or in the future, I'm going 
to put my opening statement in the record.
    [The prepared statement of Senator Rockefeller follows:]

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    Our first nominee is Dr. Patricia Falcone. She has been nominated 
to be one of the President's key advisers on science and technology 
issues. As Associate Director for National Security and International 
Affairs at the Office of Science and Technology Policy (OSTP), she will 
coordinate science and technology research within the national security 
arena, including cybersecurity. Dr. Falcone's career includes more than 
30 years at Sandia National Laboratories, developing science-based 
technologies that support our national security.
    I can't talk about Dr. Falcone without mentioning her deep family 
ties to my state of West Virginia. Dr. Falcone's father grew up in 
Swiss, West Virginia, in Nicholas County, which her family helped 
establish in the 1880s. Her mother is a Morgantown native and her 
father and uncles worked in the coal mines.
    Next, is Ms. Marietta Robinson who has been nominated to be a 
Commissioner at the Consumer Product Safety Commission (CPSC). Each 
year, consumer products cause 28,000 deaths and 33 million injuries. 
The CPSC is the front line of defense protecting American consumers 
from dangerous products. The Consumer Product Safety Improvement Act of 
2008 provided the CPSC with more resources and authority to protect the 
public. As we are going to hear from Senator Levin in a few minutes, 
Ms. Robinson has more than 30 years experience as a lawyer and consumer 
advocate. I look forward to hearing her testimony.
    Finally, we have two nominations for commissioners to the Federal 
Maritime Commission (FMC). One of the nominees before us is the current 
Chairman of the FMC, Richard Lidinsky. Mr. Lidinsky has served 
admirably as Chairman for the past 3 years and has worked well with 
this Committee. Here's what Lloyd's List (the leading maritime 
newspaper) had to say recently about his tenure:
    Richard Lidinsky has transformed the Federal Maritime Commission 
since he took over as chairman in 2009, re-establishing the Washington 
agency's position in the shipping world after several rudderless years.
    That's high praise. Chairman Lidinsky, I look forward to hearing 
today what you plan to do with another term at the helm of the FMC.
    The other FMC nominee is Bill Doyle, who served as Chief of Staff 
for the Marine Engineers' Beneficial Association for the past 4 years. 
He is a well-qualified nominee with a deep background in maritime 
issues. Congratulations on your nomination, Mr. Doyle. I look forward 
to hearing from you about how we can strengthen our maritime commercial 
system.

    Because some of it was covered by Senator Levin and Senator 
Mikulski. A lot of it was covered by them, and I will be 
bringing the witnesses forward and questioning them. So I would 
call upon the Ranking Member, Senator Kay Bailey Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. I will abbreviate mine, but there were a 
couple of points that I wanted to make.
    First of all, I am very pleased to hear from all of the 
witnesses. I certainly think the ones from the Maritime 
Commission are very well qualified.
    I'm very interested in hearing from Dr. Falcone because her 
job is going to be so important at the National Security and 
International Affairs Office of OSTP, and that has become a 
very important arena for certainly the area that I'm interested 
in.
    And, I do want to just say this, and this is why it's a 
little different, that the Consumer Product Safety Commission 
has been a commission that has been very divided in the past.
    But, I just want to point out that there has been a much 
more congenial atmosphere lately in the Consumer Product Safety 
Commission, and I think it is a real step in the right 
direction. We've had several unanimous votes. It just appears 
that they're listening to each other and coming to some very 
good results.
    And I just want to say that I certainly want to hear from 
Ms. Robinson, but I hope that she agrees that this new 
atmosphere at the Commission is the kind that we should 
promote.
    So, with that, I will put the rest of my statement in the 
record, and thank you, Mr. Chairman.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Sen. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Thank you, Mr. Chairman, for holding this morning's hearing.
    I would like to compliment you for the success in getting our 
Committee's Federal Communication Commission members confirmed.
    It is wonderful that we will be able to include new Commissioners 
Ajit Pai and Jessica Rosenworcel at next week's FCC hearing.
    Today we have a number of individuals before us, and I look forward 
to hearing from them. I would first like to welcome Dr. Patricia 
Falcone who has been nominated to be Associate Director for National 
Security and International Affairs at the Office of Science and 
Technology Policy. More than ever, we must ensure that Federal 
investments in science and technology address today's global threats 
and strengthen U.S. economic competitiveness. Dr. Falcone has an 
impressive background and wealth of experience that is well suited to 
this position, and I look forward to hearing from her.
    I would also like to welcome Ms. Marietta Robinson, who has been 
nominated to the Consumer Product Safety Commission. CPSC is a small 
agency with a daunting task, and it has faced a number of challenges in 
implementing its new responsibilities under the Consumer Product Safety 
Improvement Act. Some observers have noted, however, the recent spirit 
of cooperation among the Commission's Commissioners who unanimously 
agreed, for instance, to include in the agency's operating plan an 
examination of cost-cutting measures related to the third-party testing 
and certification of children's products. This spirit is also evident 
in the CPSC's recent unanimous decision to grant exemptions from 
onerous lead requirements where safety was not impacted. I applaud the 
current collegiality. Everyone can agree that we want to protect 
consumers, and especially children, from harmful products. But when the 
safety risks to consumers are negligible, I believe the Commission 
should continue to work together to address industry concerns, such as 
reducing the regulatory costs on businesses where possible.
    It is my sincere hope that, if confirmed, Ms. Robinson would foster 
this spirit of collegiality and work to achieve common sense solutions 
to the challenges we face.
    I will note that in addition to the vacant Democratic seat that Ms. 
Robinson has been nominated to fill, a Republican seat on the 
Commission has expired and Commissioner Anne Northup--who is doing an 
excellent job--is currently serving in her one-year grace period.
    In addition, Mr. Richard Lidinsky and Mr. William Doyle, the 
nominees to be Commissioners at the Federal Maritime Commission, are 
before us today. Waterborne commerce is an important part of the 
American economy, encouraging American exports and spurring job 
creation. We have witnessed this firsthand in Texas, particularly at 
the Port of Houston, which is the fourth largest port in the United 
States. The Federal Maritime Commission ensures competitive and 
efficient ocean transportation, and contributes to the integrity and 
security of the U.S. supply chain. I look forward to discussing this 
mission with our two nominees.
    Mr. Chairman, three of these four nominees have been tapped to 
serve on commissions with term appointments. Such term appointments can 
often outlast the term of the President who puts forth the nomination. 
Therefore, we have an extra duty for thorough review of the candidates.
    I therefore expect that in addition to the questions asked here 
today, there will be other important questions submitted in writing to 
the nominees.
    Thank you again, Mr. Chairman and I look forwarded to hearing from 
the nominees.

    The Chairman. Thank you very much, Senator Hutchison.
    And I believe that both Senator Lautenberg and Senator 
Udall, you being part of the home of Sandia, would like to make 
opening statements, briefly. We welcome your comments.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. I appreciate the opportunity, Mr. 
Chairman. These are important positions. And while we have 
excellent candidates, I think it's fair to say, with all of 
those to be heard from today.
    I congratulate all of the nominees and thank them for 
committing to serve the American people.
    The Federal Maritime Commission makes sure that our 
Nation's ports remain competitive and can meet growing demands. 
This is vital in my state of New Jersey which is home to the 
largest port on the East Coast, supporting more than 270,000 
jobs, and $37 billion in business income.
    The Port of New York and New Jersey is the life blood of 
not just our region's economy but also our national economy. 
It's essential that we make sure that our ports remain safe and 
secure, strong.
    And Mr. Lidinsky and Mr. Doyle, I know you understand and 
appreciate this mission. Mr. Lidinsky, I look forward to 
hearing your views on FMC's accomplishments during your tenure 
as Chairman, and how you plan to further its mission in the 
future.
    And you, Mr. Doyle, we had a chance to chat, and I so much 
respect that you took to sea in your life's experience as well 
as a well-educated lawyer. I look forward to hearing your views 
on how the United States can expand exports and increase our 
economic competitiveness.
    And I'm also eager to hear from our other nominees, 
Marietta Robinson and Patricia Falcone.
    The Consumer Product Safety Commission overseas 15,000 
kinds of consumer products that cause approximately 36,000 
deaths and $38 million in injuries each year.
    It's essential for the Commission to have the resources to 
protect our children and families and the leadership to get the 
job done.
    And, Ms. Robinson, I look forward to hearing how you intend 
to help lead the Commission in its critically important 
mission.
    And, additionally, the Office of Science and Technology 
Policy at the White House plays a critical role in coordinating 
our science and technology programs.
    Dr. Falcone, I'm pleased to see a graduate of Princeton 
University. I understand you're the first to have taken a 
science and engineering degree, the first female at Princeton.
    You're nominated to serve within OSTP, and I look forward 
to hearing how you're going to further the Office's national 
security agenda.
    We need strong leadership at all these posts, and I look 
forward to hearing more from each nominee about your plans for 
meeting the critical challenges that we face.
    The Chairman. Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Rockefeller, and thank 
you for letting me just say a few words.
    And I want to thank all of the nominees today before us. I 
want to thank each of you for your commitment to public service 
and your willingness to serve the Nation.
    And I would like to particularly thank Dr. Patricia 
Falcone. She's a long-time public servant who has had a 
distinguished career at Sandia National Laboratory which is 
based in New Mexico, but also has a branch in California.
    Her parents instilled in her the value of public service. 
It may actually be an inherited trait. Her father served in the 
Air Force. Dr. Falcone is an engineer who describes engineering 
as a team sport. The goal is solving a problem together.
    That is a good model for the collaborative nature of the 
policy role that OSTP serves. This committee, the Science 
Committee, can be assured that President Obama has nominated a 
well-qualified person to be Associate Director for National 
Security and International Affairs.
    In fact, Dr. Falcone already has extensive experience 
working in this division at OSTP while on loan from Sandia. Dr. 
Falcone notes in her testimony that she has a long-standing 
commitment to inspiring students, and especially girls, to 
pursue STEM fields and science, technology, engineering and 
math.
    This committee knows how important greater public 
participation in STEM fields is for our Nation's long-term 
competitiveness. I again want to thank Dr. Falcone for her 
willingness to serve.
    And, in conclusion, I urge my colleagues to support her 
nomination and I hope that the Senate will confirm her as soon 
as possible.
    And I would also just say a brief word to our nominee for 
the Consumer Product Safety Commission.
    I know, in the past, it has been announced you're looking 
at product safety issues with regard to football helmets. You 
know there's a growing awareness in terms of concussions and 
the damage they can do to our young people, and also to many of 
our professional athletes.
    And I hope that we do everything we can to apply the very 
best science there, and I'll be submitting questions to the 
record for that nominee.
    So with that, Senator Rockefeller, thank you very much. 
Appreciate it. And thank you, Senator Hutchison.
    The Chairman. Thank you, Senator Udall, and thank you, as 
always, for a good statement and for being here.
    Senator Maria Cantwell would also like to make a few 
remarks.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I'll make a 
quick statement.
    I want to thank you, obviously, for holding this hearing, 
and I want to congratulate everyone for being nominated and, in 
the case of Mr. Lidinsky, renomination. And I know we all 
appreciate everyone's commitment to public service.
    Mr. Lidinsky, I want to thank you for agreeing with Senator 
Murray and myself's request, and several of our House 
colleagues, for the Federal Maritime Commission to study 
factors which may cause and contribute a shift of containerized 
cargo destined for U.S. and inland ports from U.S. to Canada.
    Obviously, with the Port of Seattle and Vancouver being so 
close together, and yet, very competitive, these are very 
important issues. So I think this is a long-standing concern 
that we think needs to be examined, and we're very interested 
in these findings in the coming months.
    So I'd like to just again thank all the nominees for 
attending. And, Dr. Falcone, I understand, you have a Udub 
Huskie soon coming with a computer science degree. We have a 
big shortage in the United States for computer science degrees. 
So thank you very much for that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell, very, very much.
    I would like to call the witnesses forward now, and that 
would be Dr. Patricia Falcone, who Senator Udall inadvertently 
forgot to mention has deep roots in West Virginia. Deep, deep 
roots.
    Senator Udall. I did neglect that.
    The Chairman. You did neglect that. And she is up for 
Associate Director of National Security and International 
Affairs, Designate, Office of Science and Technology Policy, 
which is increasingly a powerful office in the White House.
    Ms. Mariette Robinson, Commissioner Designate, Consumer 
Product Safety Commission; Mr. Richard A. Lidinsky, Jr., 
Chairman Designate, Federal Maritime Commission; Mr. William 
Doyle, Commissioner Designate, Federal Maritime Commission.
    I have in my opening statement comments about all of you, 
but I submitted that for the record. So we would start, Dr. 
Falcone, with you. But first, you have to confess your deep 
roots.

         STATEMENT OF PATRICIA K. FALCONE, NOMINEE FOR

           ASSOCIATE DIRECTOR, NATIONAL SECURITY AND

          INTERNATIONAL AFFAIRS, OFFICE OF SCIENCE AND

         TECHNOLOGY, EXECUTIVE OFFICE OF THE PRESIDENT

    Dr. Falcone. Absolutely, true. Both my parents are from 
West Virginia, and grew up there.
    The Chairman. County in Morgantown.
    Dr. Falcone. Yes, and then Nicholas County, my dad's from 
Nicholas County.
    The Chairman. Oh, you can forgive Senator Udall for his 
failing to bring that up.
    Dr. Falcone. I worked for Sandia for 30 years.
    Chairman Rockefeller, Ranking Member Hutchison, members of 
the Committee, I welcome this opportunity to meet with you 
today.
    First, I'd like to introduce my family right here. My 
husband of 35 years, Roger Falcone is here. He is a Professor 
of Physics at the University of California at Berkeley. We met 
in an engineering class our sophomore year in college at 
Princeton.
    Our daughter Elizabeth is also here. She has the privilege 
of working in the U.S. Senate as a Legislative Assistant for a 
member of this committee, Senator Warner.
    Our son Michael is unable to join us today. He is a senior 
at the University of Washington at Seattle where he is going to 
graduate next month with a degree in computer science, and he 
will be staying in Seattle working at a technology start-up 
firm.
    He has really loved his time at UW and has a girlfriend who 
grew up in Seattle. So maybe a longer-term commitment.
    With those important people introduced, I would like to 
turn to the business at hand. I am very honored to be here as 
the President's nominee for Associate Director for National 
Security and International Affairs in the Office of Science and 
Technology Policy.
    My professional experience is as an engineer at the Sandia 
National Laboratories where I have come to appreciate the very 
close relationship between national security and excellence in 
science and innovation.
    I became an engineer based on the accurate but imprecise 
guidance that engineering was for folks who liked math and 
science but wanted to do something with them.
    Also, I was told that I would have a better opportunity 
getting scholarships to support my college education were I to 
study engineering. And all of that came true.
    I received financial support for my undergraduate training 
in aerospace and mechanical engineering at Princeton 
University, in the very early days of co-education. And I was 
the first woman to complete the full engineering curriculum 
there, to start as an engineer, to finish as an engineer. And 
then I was honored to be able to complete my graduate work at 
Stanford University.
    My father was in the Air Force. He and my mother instilled 
the values of education and national service in my siblings and 
me. And like my dad, I've had the great satisfaction and 
pleasure to contribute to important national challenges, but in 
my case by working in a research laboratory, by serving as a 
technical manager and leader. I have worked in my career on the 
processes of pollutant formation, the development of solar 
thermal power plants, as well as on a range of national 
security topics, including technologies such as bio detectors 
for Homeland Security and assessments of our Nation's nuclear 
posture.
    Engineering is a team sport, and I have particularly 
enjoyed the process of developing frameworks for challenging 
problems, defining requirements for new technologies, 
understanding operational context for these technologies, and 
outlining recommendations for decisionmakers.
    For the past 3 years, I have had the great pleasure of 
working on loan from Sandia to OSTP under Dr. John Holdren on a 
range of topics, but particularly on the technical dimensions 
of the President's nuclear security agenda.
    My experience at OSTP has both deepened and broadened my 
understanding of the linkage between national security and 
excellence in science and innovation and engineering. And that 
excellence must combine a deep understanding of the specific 
policy or military challenge with the very best technical 
insights.
    I come before this committee offering what I believe to be 
is a balanced synthesis of both of these capabilities. If 
confirmed, I will work to ensure that policy development always 
benefits from the Nation's technical excellence and that we 
work to build policies and institutions that will continue to 
provide that excellence into the future.
    And, if confirmed, I also would value the opportunity to 
continue a long standing interest in and commitment to 
inspiring students, and, in particular, girls and minorities to 
pursue coursework and careers in engineering and other STEM 
related fields.
    Now, more than ever, our national security depends upon a 
solid grounding in science and technology. Thank you. And I 
would be pleased to answer any questions the Committee may 
have.
    [The prepared statement and biographical information of Dr. 
Falcone follow:]

   Prepared Statement of Patricia K. Falcone, Nominee for Associate 
   Director, National Security and International Affairs, Office of 
       Science and Technology, Executive Office of the President
    Chairman Rockefeller, Ranking Member Hutchison, members of the 
Committee, I welcome this opportunity to meet with you today.
    First, I would like to introduce my family. My husband of 35 years 
is here, Roger Falcone; he is a Professor of Physics at the University 
of California at Berkeley. We met in an engineering class during our 
sophomore year in college. Our daughter Elizabeth is also here. She has 
the privilege of working in the U.S. Senate as a legislative assistant 
for a member of this Committee, Senator Warner. Our son Michael is 
unable to join us today. He is a senior at the University of Washington 
in Seattle, where he will graduate next month with a bachelor's degree 
in computer science and soon thereafter begin work at a technology 
startup.
    With those important people introduced, I would like to turn to the 
business at hand. I am very honored to be here as the President's 
nominee for Associate Director for National Security and International 
Affairs in the Office of Science and Technology Policy (OSTP). My 
professional experience is as an engineer working at the Sandia 
National Laboratories where I have come to appreciate the close 
relationship between national security and excellence in science and 
innovation. I became an engineer based on the accurate but imprecise 
guidance that engineering was for folks who liked math and science and 
wanted to do something with them. Also, I was told that I would have a 
better opportunity getting scholarships to support my college education 
were I to study engineering. All of that came true--I received 
financial support for my undergraduate training in aerospace and 
mechanical engineering carried out in the early days of coeducation at 
Princeton University, where I was the first woman to complete the full 
engineering curriculum. I completed my graduate work in mechanical 
engineering at Stanford University.
    My father was in the Air Force; he and my mother instilled the 
values of education and national service in my siblings and me. Like my 
dad, I have had the great satisfaction and pleasure to contribute to 
important national challenges, in my case, by working in a research 
laboratory, working on mathematical models and computer simulations, 
and serving as a technical manager and leader. I have worked on the 
processes of pollutant formation, on the development of solar thermal 
power plants, as well as on a range of national security topics 
including studies and analyses related to new technologies such as 
biodetectors for homeland security, spectroscopy of high altitude 
rocket plumes, and assessments of our Nation's nuclear posture. 
Engineering is a team sport, and I have particularly enjoyed the 
process of developing frameworks for challenging problems, defining 
requirements for new technologies, understanding operational contexts, 
and outlining action recommendations for decisionmakers.
    For the past 3 years, I have had the pleasure of working on loan 
from Sandia at OSTP under Dr. John Holdren, on a range of topics 
especially the technical dimensions of the President's nuclear security 
agenda. My experience at OSTP has both deepened and broadened my 
understanding of the linkage between national security and excellence 
in science and innovation. That excellence must combine a deep 
understanding of the specific policy or military challenge with the 
very best technical insights. I come before this committee offering 
what I believe to be is a balanced synthesis of both of these 
capabilities. If confirmed, I will seek to ensure that policy 
development always benefits from the Nation's technical excellence, and 
that we work to build policies and institutions that will continue to 
provide that excellence into the future. If confirmed, I also would 
value the opportunity to continue a longstanding interest in and 
commitment to inspiring students and, in particular, girls and 
minorities, to pursue coursework and careers in engineering, and other 
STEM-(Science, Technology, Engineering and Mathematics) related fields. 
Now more than ever, our national security depends on a solid grounding 
in science and technology. Thank you, and I would be pleased to answer 
any questions the Committee may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Patricia Kuntz Falcone (maiden name (1952-1977) Patricia Ann 
        Kuntz).

    2. Position to which nominated: Associate Director, National 
Security and International Affairs, Office of Science and Technology 
Policy, Executive Office of the President.
    3. Date of Nomination: March 29, 2012.
    4. Address (List current place of residence and office addresses):

        Residence: information not released to the public.

        Office: Sandia National Laboratories, 7011 East Avenue, 
        Livermore, CA 94550.

        DC Office: Office of Science and Technology Policy, Executive 
        Office of the President, Eisenhower Executive Office Building, 
        1650 Pennsylvania Avenue, NW, Washington, DC 20504.

    5. Date and Place of Birth: December 28, 1952; Mobile, Alabama.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Roger W. Falcone, Professor of Physics, University of 
        California, Berkeley; Division Director, Lawrence Berkeley 
        National Laboratory, Berkeley, California. Children: Elizabeth 
        F. Falcone, age 28; Michael E. Falcone, age 22.

    7. List all college and graduate degrees. Provide year and school 
attended.

        B.S.E. Aerospace and Mechanical Sciences (1974).
        Princeton University; Princeton, New Jersey.

        M.S. Mechanical Engineering (1975) Ph.D.
        Mechanical Engineering (1981).
        Stanford University; Stanford, California.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Sandia National Laboratories (laboratory location in Livermore, 
        CA).

                Member of the Technical Staff* (1981-1989).

                Distinguished Member of the Technical Staff* (1989-
                1993).

                Technical Manager* (1993-2003).

                Senior Manager (Technical)* (2003 to present).

        Sandia IPA at the Office of Science and Technology Policy, 
        Executive Office of the President.

                Senior Policy Analyst* (2009-2011)

                Assistant Director, National Security* (2011 to 
                present).

        *Jobs related to the position for which I have been nominated.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: Member, Nuclear 
Deterrent Transformation Panel of the Department of Defense Threat 
Reduction Advisory Committee (2003-2009).
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Member, Board on Army Science and Technology of the National 
        Research Council (2007-2009).

        Member, Advisory Committee, Department of Mechanical and 
        Aerospace Engineering, Princeton University (2006 to present).

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Member, American Society of Mechanical Engineers (1981 to 
        present).

        Member, Commonwealth Club, San Francisco, CA (2007 to present).

        Sigma Xi (research honor society) (1981 to present).

        None of these organizations, to my knowledge, restrict 
        membership on the basis of sex, race, color, religion, national 
        origin, age, or handicap.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period: None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Member, Sigma Xi (research honor society).

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Publications
        P.K. Falcone, ed. Catastrophic Bioterrorism Scenarios: Response 
        Architectures and Technology Implications, prepared by Sandia 
        National Laboratories, Lawrence Livermore National Laboratory, 
        and the Washington Institute for the Department of Homeland 
        Security, March 2006.

        Defense of Cities against Biological Attack: Public Health 
        Consequence Management Strategies and Urban Defense and 
        Response Architectures, prepared by the Defense of Cities Study 
        Team: The Washington Institute, Inc. and Sandia National 
        Laboratories for the Department of Homeland Security, May 2003.

        A.B. Baker, et al., A Scalable Systems Approach for Critical 
        Infrastructure Security, Sandia National Laboratories Report 
        SAND2002-087, April 2002.

        S.P. Gordon, P.K. Falcone, eds., The Emerging Roles of Energy 
        Storage in a Competitive Power Market: Summary of a DOE 
        Workshop, Sandia National Laboratories Report SAND95-8247, June 
        1995.

        W.L. Flower, D.A. Stephenson, P.K. Falcon; D.W. Sweeney, Final 
        Report on the SDI Codes Reliability and Input Sensitivity 
        Characterization Study, Sandia National Laboratories Report 
        SAND93-8210, December 1992.

        D.A. Stephenson and P.K. Falcon; Final Report on the Assessment 
        of Contractor Algorithms for the Space Based Interceptor, 
        Sandia National Laboratories Report SAND91-8226, July 1991.

        W.L. Flower, D.A. Stephenson, P.K. Falcone, and D.W. Sweeney, 
        ``Feature Variability of Strategic Rocket Plume Signatures,'' 
        in Proceedings of the 19th JANNAF Exhaust Plume Technology 
        Subcommittee Meeting, Redstone Arsenal, Huntsville, AL, May 13-
        16, 1991.

        P.K. Falcone, ``Clouds and Obscurants Countermeasures,'' in 
        Proceedings of the Countermeasures Verification Program Review, 
        SandiaReport, December 1990.

        P.K. Falcone, et al., ``Sensitivity Analysis of High Altitude 
        Rocket Plumes Computed Using CHARM 1.2,'' in Proceedings of the 
        18th JANNAF Exhaust Plume Technology Subcommittee Meeting, 
        Naval Postgraduate School, Monterey, CA, November 14-16, 1989.

        Patricia K. Falcone, ``Sensitivity Analysis of Computed Rocket 
        Plume Signatures,'' in Sandia Technology, pp. 2-9, August 1989.
        P. K. Falcone, et al., Effect of Uncertainties in Vibrational 
        Excitation Rates on Plume Signatures, AIAA Paper No. 89-1768, 
        AIAA 24th Thermophysics Conference, Buffalo, NY, June 12-14, 
        1989.

        P.K. Falcone, et al., ``Effect of Uncertainties in Vibrational 
        Excitation Rates on Plume Signatures Computed Using CHARM,'' in 
        Proceedings of the IRIS Specialty Group on Targets, 
        Backgrounds, and Discrimination, Naval Training Center, 
        Orlando, FL, February 7-9, 1989.

        P.K. Falcone, R.S. Powers, and D.W. Sweeney, ``An Initial 
        Sensitivity Analysis of Plume Signatures Computed Using 
        CHARM,'' in Proceedings of the 17th JANNAF Exhaust Plume 
        Technology Subcommittee Meeting, NASA Langley, VA, April 26-28, 
        1988.

        P.K. Falcone, W.G. Houf, and D.W. Sweeney, ``Sensitivity 
        Analysis of Computed Rocket Plume Signatures,'' in Proceedings 
        of the IRIS Specialty Group on Targets, Backgrounds, and 
        Discrimination, Naval Postgraduate School, Monterey, CA, 
        February 9-10, 1988.

        Patricia Kuntz Falcone, A Handbook for Solar Central Receiver 
        Design, Sandia National Laboratories Report SAND86-8009, 
        December 1986.

        P.K. Falcone, et al., ``An Assessment of Central Receiver 
        Systems,'' in Proceedings of the 21st Intersociety Energy 
        Conversion Engineering Conference, San Diego, CA, August 25-29, 
        1986.

        P.K. Falcone, J.E. Noring, and J.M. Hruby, Assessment of a 
        Solid Particle Receiver for a High Temperature Solar Central 
        Receiver System, Sandia National Laboratories Report SAND85-
        8208, February 1985.

        J.M. Hruby and P.K. Falcone, ``Momentum and Energy Exchange in 
        a Solid Particle Solar Central Receiver,'' in Proceedings of 
        the AIChE Symposium Series: Heat Transfer, Denver 1985, Vo1. 
        81, No. 245, pp 197-203, 1985.

        P.K. Falcone, Technical Review of the Solid Particle Receiver 
        Program, Sandia National Laboratories Report. SAND84-
        8229,``July1.984.,

        Patricia K. Falcone, ``Recent Work on a Solid Particle Receiver 
        for High Temperature Central Receiver Applications,'' in 
        Proceedings of DFVLR Seminar on Solar Thermal Heat Production 
        and Solar Fuels and Chemicals, DFVLR Stuttgart, Germany, 
        October 13-14, 1983.

        P.K. Falcone, R.K. Hanson, and C.H. Kruger, ``Tunable Diode 
        Laser Absorption Measurements of Nitric Oxide in Combustion 
        Gases,'' Combustion, Science and Technology, Vol. 35, pp 81-99, 
        1983.

        P.K. Falcone, R.K. Hanson, and C.H. Kruger, ``Tunable Diode 
        Laser Measurements of the Band Strength and Collision 
        Halfwidths of Nitric Oxide,'' J. Quant. Spectrosc. Radiat. 
        Transfer, Vol. 29, No.3, pp 205-221, 1983.

        P.K. Falcone, J.E. Noring, and C.E. Hackett, ``Evaluation and 
        Application of Solid Thermal Energy Carriers in a High 
        Temperature Solar Central Receiver System,'' Proceedings of the 
        17th Intersociety Energy Conversion Engineering Conference, Los 
        Angeles, CA, August 8-12, 1982.

        P.K. Falcone, Convective Losses from Solar Central Receivers: 
        Proceedings of a DOE/SERI/SNLL Workshop, Sandia National 
        Laboratories Report SAND81-8014, October 1981.

        Patricia Kuntz Falcone, Absorption Spectroscopy of Combustion 
        Gases using a Tunable Diode Laser, HTGL Report No. 121, 
        Stanford University, March 1981.

        P.K. Falcone, R.K. Hanson, and C.H. Kruger, ``Measurement of 
        Nitric Oxide in Combustion Gases using a Tunable Diode Laser,'' 
        Paper 79-53, Western States Section/Combustion Institute, 
        Autumn 1979.

        R.K. Hanson, S.M. Schoenung, P.L. Varghese, and P.K. Falcone, 
        ``Absorption Spectroscopy of Combustion Gases Using a Tunable 
        Infrared Diode Laser,'' in ACS Symposium Series Laser Probes in 
        Combustion Chemistry, 1978.

        S.M. Schoenung, R.K. Hanson, and P.K. Falcone, ``CO 
        Measurements in Combustion Gases by Laser Absorption 
        Spectroscopy and Probe Sampling,'' Paper 78-46, Western States 
        Section/Combustion Institute, Laguna Beach, CA, October 1978.

        Ronald K. Hanson and Patricia Kuntz Falcone, ``Temperature 
        Measurement Technique for High-Temperature Gases Using a 
        Tunable Diode Laser,'' Applied Optics, Vol. 17, No. 16, pp. 
        2477-2480, August 15, 1978.

        R.K. Hanson, P.A. Kuntz, and C.H. Kruger, ``High-resolution 
        Spectroscopy of Combustion Gases Using a Tunable IR Diode 
        Laser,'' Applied Optics, Vol. 16, No. 8, pp. 2045-2048, August 
        1977.

        R.K. Hanson, P.A. Kuntz, and C.H. Kruger, Resonance Absorption 
        Spectroscopy of Combustion Gases Using Tunable Infrared Diode 
        Lasers, Paper 76-6, Eastern States Section/Combustion 
        Institute, Philadelphia, PA, November 1976.

        P.A. Kuntz, et al., Comprehensive Bibliography of Literature on 
        Non-Cryogenic Storage and Recovery of Hydrogen, Interim Report 
        AFLRL, No. 30, Southwest Research Institute, San Antonio, 
        Texas, September 1973.

        C.M. Hogan, P.A. Kuntz, et al., Environmental Impact of the 
        Proposed Widening of Edgewood Road, ET 41, ESL, Inc., 
        Sunnyvale, CA. September 1972.

        P.A. Kuntz, et al., Air, Traffic, and Noise Environmental 
        Impact Associated with the Replacement of the Dumbarton Bridge, 
        ET 39, ESL, Inc. Sunnyvale, CA. August 1972.
Relevant Public Speeches
    In my career at Sandia National Laboratories from 1981 through 
2009, my speeches and presentations were at technical conferences, 
program and project meetings, laboratory colloquia, and, occasionally, 
in university settings. They were not really in the public domain or, 
at least, not of significant public interest; further, I do not have a 
record of them. I have made the following remarks since being at OSTP:

        Remarks at Women: Innovation: NASA Event on March 8, 2012 at 
        the George Washington University.

        Science for Our Nation's Policies and Policies for Our Nation's 
        Science to the 2012 Northwest Conference for Undergraduate 
        Women in Physics held at the University of Washington on 
        January 14, 2012.

        Remarks to women science and engineering faculty members at the 
        University of Washnington as a part of the University's NSF 
        ADVANCE Center for institutional Change on January 13, 2012.

        Shaping Science and Technology Policy: The Role of the White 
        House in Science/Technology Policy to undergraduate women 
        students participating in the Public Leadership Education 
        Network in Washington, D.C. on January 4, 2012.

        Remarks to the Principal Investigators of the National Science 
        Foundation's ADVANCE Program that works to increase the numbers 
        of women faculty in science and engineering in Alexandria, VA 
        on November 14, 2011.

        Tying the Ribbon: Science, Technology, Engineering, Mathematics 
        (STEM) and the Future of the Defense Industrial Base at the 
        Women in Defense National Annual Fall Conference in Washington, 
        D.C. on October 19, 2011.

        Remarks to Chattanooga, TN STEM Workforce Roundtable via SKYPE 
        on July 20, 2011.

        Panelist on Case Studies in Science Policy: A Panel Discussion 
        for the 2011 National Youth Science Camp, an AAAS event on July 
        19, 2011.

        Panel Chair for High Performance Computing for Decision-making: 
        Utility, Credibility, Cost Effectiveness at the workshop on 
        High Performance Computing for Policy Formulation--The Benefits 
        and Risks in Washington, D.C. on June 1, 2011.

        Remarks to the Knoxville, TN STEM Workforce Roundtable via 
        SKYPE on April 21, 2011.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    The mission of the National Security and International Affairs 
division within the Office of Science and Technology Policy is to 
provide the Director of the Office of Science and Technology Policy, 
and others, with the best technical advice related to national security 
and international affairs policies and programs. This requires an 
awareness of ongoing research and development activities in science and 
technology, an understanding of the processes by which science, 
technology, and innovation are integrated into national security 
mission operations for maximum effect, and knowledge of programs and 
cultures in various government and private sector entities. I believe 
that my training and experience is well-matched to this mission.
    I have worked in increasingly responsible positions at one of our 
Nation's national security science and technology laboratories (the 
Sandia National Laboratories at its laboratory location in Livermore, 
California) since I completed my doctoral degree in mechanical 
engineering at Stanford University in 1981. With training focused on 
combustion and propulsion, I worked initially on programs related to 
advanced energy technologies including solar thermal electric power 
plants, advanced energy storage, and the application of aeroderivative 
gas turbines for distributed energy generation. Later, I have worked on 
spectroscopic signatures of high altitude rocket plumes and advanced 
detection technologies. More recently, I have been engaged in systems 
perspectives of new technologies both executing and leading programs 
aimed at defining technology requirements, technology forecasts, and 
operational concepts related to nuclear deterrence, homeland security, 
and other national security missions.
    As a result, I have had much experience in a diverse set of 
technical programs and have continued to develop a deep commitment to 
science and technology research and development carried out in support 
of national security missions. If confirmed, I would be honored to 
serve as the Associate Director for National Security and International 
Affairs in the Office of Science and Technology Policy. In the past two 
and a half years that I have worked at OSTP on loan from Sandia under 
the authority of the Intergovernmental Personnel Act (IPA), I have 
learned about working effectively within the OSTP context and would 
welcome the opportunity to step up to greater responsibilities.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    My responsibilities, if confirmed to serve as the Associate 
Director for National Security and International Affairs at the Office 
of Science and Technology Policy, will be to serve as a part of the 
management team at the Office of Science and Technology Policy in 
support of the President's Science Advisor and the President. OSTP 
responsibilities are often denoted as providing ``science and 
technology for policy, and policy for science and technology.'' OSTP 
has modest resources and does not execute programs on its own; rather, 
it works with departments and agencies to successfully accomplish 
national objectives in science and technology. Prior to coming to OSTP 
as an IPA, as a Senior Manager at Sandia I managed an organization 
several times larger than the National Security and International 
Affairs Division at OSTP. I served as the Senior Manager at Sandia for 
Systems Analysis and Engineering and managed an organization with a 
budget of tens of millions of dollars and had oversight of four 
technical groups with close to fifty technical staff.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe that as an overarching matter, the most critical issue 
facing OSTP is assuring a high quality science and technology 
capability that is well-matched with the Nation's resources, integrated 
with the global community, and operated in a manner that ensures 
effective support of national security priorities and precludes 
technological surprise.
    The top three specific challenges facing the National Security and 
International Affairs Division of the Office of Science and Technology 
Policy are:

  <bullet> Understanding the critical science and technology dimensions 
        of national security threats and effective defenses in domains 
        such as cybersecurity, biosecurity and biodefense, nuclear 
        security, nuclear deterrence, and explosives, via work with 
        agency partners and Administration and Congressional leaders, 
        as well as via purposeful international engagements.

  <bullet> Addressing the health of the U.S. national security science 
        and technology research enterprise by focusing on the work 
        carried out by the national security agencies (including the 
        Departments of Defense, Energy, and Homeland Security, as well 
        as portions of the intelligence community) on cross-agency 
        topics such as personnel hiring and retention practices, the 
        quality of scientific and test infrastructure, enhanced and 
        effective approaches for government, private sector, and global 
        engagement, and the governance of research institutions.

  <bullet> Ensuring effective engagement of national security programs, 
        agencies, and private sector partners with broad national 
        priorities and initiatives including science, technology, 
        engineering, and mathematics (STEM) education, international 
        scientific collaboration, advanced manufacturing, the health of 
        the defense industrial base, and energy efficiency.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have been employed by Sandia National Laboratories (a Department 
of Energy national security laboratory and a federally Funded Research 
and Development Center) since December 1980; my employment benefits 
include pension benefit accrual and an employer-matched 401K account. 
If confirmed by the Senate for this position, I plan to retire from 
Sandia and will receive a defined-benefit pension. Upon retirement, 
there will be no further contributions to the Sandia 401K.
    My husband and I, together, own stock (0.8 percent) in SRS, Inc., a 
maker of scientific and electronic instruments organized as an S-
Corporation and located in Sunnyvale, CA, from which we receive a 
portion of the profits each year.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Office of Science and 
Technology Policy's designated agency ethics official to identify 
potential conflicts of interest. Any potential conflicts of interest 
will be resolved in accordance with the terms of an ethics agreement 
that I have entered into with OSTP's designated agency ethics official.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Office of Science and 
Technology Policy's designated agency ethics official to identify 
potential conflicts of interest. Any potential conflicts of interest 
will be resolved in accordance with the terms of an ethics agreement 
that I have entered into with OSTP's designated agency ethics official.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Office of Science and 
Technology Policy's designated agency ethics official to identify 
potential conflicts of interest. Any potential conflicts of interest 
will be resolved in accordance with the terms of an ethics agreement 
that I have entered into with OSTP's designated agency ethics official.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: No additional information.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                     resume of patricia k. falcone
Professional Experience
    Sandia National Laboratories, Livermore, CA, 1981-present

    Assistant Director, National Security and Senior Policy Analyst, 
Office of Science and Technology Policy, Executive Office of the 
President
    On loan from Sandia to OSTP via the Intergovernmental Personnel Act 
(IPA), 2009-present

    Responsibilities include science and technology issues associated 
with nuclear security, nuclearweapons, monitoring and arms control, and 
the health and sufficiency of national security science andtechnology 
capabilities in federal and national laboratories, universities, and 
industry

    Senior Manager
    Systems Analysis and Engineering, 2003-2009

    Leadership and group management of systems analysis, enterprise 
modeling, exploratory engineering, and technology strategy development 
in support of the Department of Homeland Security, the Department of 
Energy I National Nuclear Security Administration, and the Department 
of Defense

  <bullet> Nuclear Deterrent Transformation Panel of the DOD Threat 
        Reduction Advisory Committee (2003-2009)

  <bullet> Advisory Committee, Mechanical and Aerospace Engineering 
        Department, Princeton University (2006-present)

  <bullet> Board on Army Science and Technology of the National 
        Academies (2007-2009)

    Manager
    Systems Studies Department, 1995-2003

    Staff and program management of national security studies

  <bullet> Nuclear Weapons Leadership Development Program (2002); 
        National Security Leadership Program (2001-2002); Fellow, MIT 
        Seminar XXI (1997-1998)

    Program Development Office, 1995
    Co-lead of laboratory initiative in advanced detection technologies

    Energy Systems Program Office, 1994
    Technical management of the DOE Integrated Energy Storage Program

    Government Relations Office, 1993

    Distinguished Member of the Technical Staff, 1989-1993

    Member of the Technical Staff, 1981-1989

    Energy Program Initiatives: loaned to Pacific Gas and Electric R&D; 
worked with California utilities and others on distributed power 
generation initiatives especially use of aeroderivative gas turbines
    High Altitude Rocket Plumes: spectroscopic signatures of plumes, 
their uncertainties, targeting algorithmsSolar Energy: authored A 
Handbook for Solar Central Receiver Design (1986)High Temperature 
Reacting Flows: experimental and analytical studies
Education
        Ph.D., Mechanical Engineering, Stanford University (1981)
        Absorption Spectroscopy of Combustion Gases using a Tunable 
        Diode Laser
        M.S., Mechanical Engineering, Stanford University (1975)
        B.S.E., Aerospace and Mechanical Sciences, Princeton University 
        (1974)

    The Chairman. Thank you very much, Dr. Falcone. It's 
actually inspiring to hear about, you know, not only the way 
you came up and did so well and you were a first, but that 
everybody in your family is brilliant.
    [Laughter.]
    The Chairman. Maybe we should be looking for other jobs in 
the Federal Government for them. Quite remarkable.
    Dr. Falcone. I've sent one.
    The Chairman. Ms. Robinson, please.

STATEMENT OF MARIETTA S. ROBINSON, NOMINEE TO BE A MEMBER, U.S. 
               CONSUMER PRODUCT SAFETY COMMISSION

    Ms. Robinson. Chairman Rockefeller, not to be completely 
outdone by Dr. Falcone, let me say that I have some roots in 
West Virginia myself.
    My grandmother. My father grew up there. My grandmother 
lived there in Morgantown for years. My uncle owned a music 
store there for many years.
    It's a pleasure to be here today. Ranking Member Hutchison 
and distinguished members of the Committee, thank you for the 
opportunity to appear before you today as a nominee for 
Commissioner of the Consumer Product Safety Commission and I 
certainly would like to thank Senator Levin, in his absence, 
for his gracious remarks.
    I'm extremely honored that President Obama has nominated me 
for this position. If confirmed, I look forward to working with 
Chairman Inez Tenenbaum and the other commissioners to continue 
the excellent bipartisan work that they have done to implement 
the Consumer Product Safety Improvement Act and keep consumers, 
particularly our children, safe.
    Before I begin my testimony, I would also like to take a 
brief moment to introduce my family who is here. Seated a 
couple rows back is my son, Steven Robinson, who is Executive 
Dean of Mott Community College in Flint, Michigan; my daughter-
in-law, Katherine; my two grandchildren, Owen and Julia; and my 
nephew, Kyle Clark.
    My daughter Renee is a vice president of a Swedish software 
company and is unable to be here today. She lives in Stockholm 
with her Swedish husband, Viktor, and my other three 
grandchildren, Hugo, Vera and Erik.
    While the Swedish part of my family and my father, Dr. 
Herbert Sebree, who lives in Seattle, are unable to attend 
today, I would just like to thank them and my family who is 
here for their wonderful support throughout this nomination 
process.
    I'm very sad that my incredible late husband, James 
Robinson, is unable to be here today. Jim and I both grew up in 
Michigan and were married for 28 years before his death in 
August of 2010.
    Jim was an inspiration to many and had a career that 
included many stints of public service, including AAG of the 
Criminal Division of the Justice Department. Jim was a tower of 
strength and support for me throughout my career, and he would 
have been so happy to be here today.
    I approach this position with more than 30 years of legal 
experience. I received my undergraduate degree from the 
University of Michigan, Flint, and my law degree from UCLA Law 
School. I've been a litigator since 1978. Before starting my 
law firm in 1989, I was voted into the partnerships of two of 
Michigan's most highly respected firms, one that, in 
litigation, primarily represented defendants, large 
corporations and small businesses, and one that primarily 
represented plaintiffs.
    During my career, I have represented corporations of every 
size, small businesses and injured individuals in just about 
every type of civil litigation. In addition to my law practice, 
as Senator Levin mentioned, I was a Dalkon Shield trustee from 
1989 to 1997. Judge Merhige of Virginia appointed me to this 
position and we were in charge of putting together a system for 
compensating victims of the defective intrauterine device, the 
Dalkon Shield.
    With my fellow trustees, we were able to come up with a 
system for compensating over 300,000 victims in 120 countries 
with $2.3 billion in the trust, and I'm very, very proud of 
having provided a leadership role in that very successful mass 
tort settlement facility.
    In 2010, I became the first woman president of the 
International Society of Barristers, which is an invitation-
only group of lawyers who pride themselves in trying jury 
cases, and it's pretty equally comprised of defense lawyers and 
plaintiffs' lawyers.
    If I'm confirmed, I believe I'll be able to bring a very 
diverse professional experience to make a number of substantive 
contributions to the Consumer Product Safety Commission.
    Specifically, I hope to focus on three areas. First, I look 
forward to working with Chairman Tenenbaum and the other 
commissioners to complete the final rules and requirements in 
Section 104 of the Consumer Product Safety Improvement Act.
    In doing so, I want to assure this committee that I will 
approach this task with an open door and listen to every 
stakeholder fairly and equally.
    If confirmed, I look forward to working with the Commission 
on rules that are both fair and highly protective of consumers 
of all ages.
    Second, I believe that one of the most important things 
that the Commission can and must focus on is enforcing the 
existing product safety requirements and making sure that 
violative products never enter this country in the first place.
    The Commission has recently enhanced its office of import 
surveillance, as I'm sure the members of this committee know, 
which puts CPSC boots on the ground in select U.S. ports of 
entry. This office also shares data with Customs and Border 
Protection to further target potentially dangerous products.
    If confirmed, I look forward to working with my fellow 
commissioners and the professional staff at the Commission to 
further strengthen this critical program.
    Third, I believe outreach and education are critical 
elements of the Commission's work. Rules and regulations are 
important, of course, but changing attitudes and behaviors is 
also a key element of preventing tragedies.
    If confirmed, I look forward to leveraging the Commission's 
existing resources as well as its social media tools to get the 
word out that prevention is better than reaction.
    And, finally, if confirmed, I very much look forward to 
working with the excellent professional staff at the 
Commission. They're a talented group of people and they are 
really the unsung heroes in the product safety world.
    Thank you again for the opportunity to appear here today, 
and I look forward to your questions.
    [The prepared statement and biographical information of Ms. 
Robinson follow:]

  Prepared Statement of Marietta S. Robinson, Nominee to be a Member, 
                U.S. Consumer Product Safety Commission
    Good morning Chairman Rockefeller, Ranking Member Hutchison, and 
distinguished Members of the Committee.
    Thank you for the opportunity to appear before you today as a 
nominee for Commissioner of the U.S. Consumer Product Safety Commission 
(CPSC). I am extremely honored that President Obama has nominated me 
for this position. If confirmed, I look forward to working with 
Chairman Inez Tenenbaum and Commissioners Nancy Nord, Robert Adler, and 
Ann Northup to continue the excellent bipartisan work they have carried 
out in the past few years to implement the Consumer Product Safety 
Improvement Act of 2008 (CPSIA) and keep consumers, and particularly 
children, safe from potentially hazardous consumer products.
    Before I begin my testimony I would like to take a brief moment to 
introduce my family. Sitting behind me is my son, Steven Robinson, who 
is Executive Dean of Planning, Research, and Quality at Mott Community 
College in Flint, Michigan; my daughter-in-law, Katherine; my 
grandchildren, Owen and Julia; and my nephew, Kyle Clark. My daughter, 
Renee, is Vice President of Marketing for a Swedish software company 
and lives in Stockholm, Sweden with my Swedish son-in-law, Viktor, and 
my other three grandchildren, Hugo, Vera and Erik. While the Swedish 
part of my family and my father, Dr. Herbert Sebree, who lives in 
Seattle, are unable to attend today, I want to thank them and my family 
who is here for their wonderful support throughout the nomination 
process.
    I am very sad that my incredible late husband, James K. Robinson, 
is not here with us today. Jim and I both grew up in Michigan and were 
married for 28 wonderful years until his death in August 2010. He was 
an inspiration to so many and had a career that included several stints 
of public service, including serving as Assistant Attorney General 
(AAG) of the Criminal Division of the Department of Justice in the 
Clinton Administration. Jim was a tower of strength and support for me 
throughout my career and would have been so proud to be here today.
    I approach this position with more than 30 years of legal 
experience. I received my undergraduate degree with High Distinction 
from The University of Michigan-Flint, my law degree from University of 
California Los Angeles School of Law, and have been a litigator since 
1978. Before starting my own firm in 1989, I was voted into the 
partnerships of two of Michigan's most highly respected law firms, one 
that, in litigation, primarily represents corporate defendants and one 
that primarily represents plaintiffs. During my career, I have 
represented businesses of every size and injured individuals in just 
about every type of civil litigation.
    In addition to my law practice, from 1989 to 1997, I served as a 
federally appointed Trustee of the Dalkon Shield Trust, which provided 
compensation to consumers injured through the use of a defective 
intrauterine device (IUD). Working with my fellow Trustees, we devised 
a system that distributed $2.3 billion in compensation to more than 
300,000 claimants in more than 120 countries. These claimants had 
injuries ranging from simple use of the IUD to infertility, death, and 
brain-injured children. At the conclusion, we were able to give a 
ninety percent pro rata distribution to the claimants, in addition to 
the settlement amounts already paid due to the responsible way in which 
we ran the Trust. I am very proud to have played a leadership role in 
what is generally regarded as one of the most successful mass-tort 
claim facilities to date.
    In 2010, I became the first woman President of the International 
Society of Barristers, an invitation-only group of approximately 650 
plaintiffs and defense trial attorneys, who share that they try jury 
cases, do so with honesty and integrity, and have achieved a very high 
level of respect from fellow lawyers and judges.
    If confirmed, I believe that I will be able to use my diverse 
professional experience to make a number of substantive contributions 
at the CPSC.
    Specifically, I hope to focus on three main areas.
    First, I look forward to working with Chairman Tenenbaum and my 
fellow Commissioners to complete the final rules and requirements of 
the CPSIA and a recently enacted package of amendments to that law, 
Public Law 112-28. In doing so, I want to assure the Committee that I 
will approach this task with an open door and listen carefully to all 
stakeholders. If confirmed, I look forward to working with the 
Commission on rules that are both fair and highly protective of 
consumers of all ages.
    Second, I believe one of the most important things the Commission 
can and must focus on doing is enforcing existing product safety 
requirements and making sure that violative products never enter this 
country in the first place. The Commission has recently enhanced its 
Office of Import Surveillance, which puts CPSC ``boots on the ground'' 
in select U.S. ports of entry. This office also shares data with U.S. 
Customs and Border Protection in order to further target potentially 
dangerous products. If confirmed, I look forward to working with my 
fellow Commissioners to further strengthen this critical program.
    Third, I believe outreach and education are critical elements of 
the Commission's work. Rules and regulations are important, but 
changing attitudes and behaviors are also key elements of preventing 
tragedies such as tip-over incidents, where a small child climbs on 
furniture and causes a television or other heavy object to fall off, 
often resulting in serious injury or death. If confirmed, I look 
forward to leveraging the Commission's existing resources, as well as 
its social media tools, to get the word out that prevention is better 
than reaction.
    Finally, if confirmed, I look forward to working with CPSC's 
talented professional staff. For a small agency, CPSC is privileged to 
have some of the Nation's best scientific and technical staff. They are 
unsung heroes in the product safety world, and it would be an honor to 
work with them.
    Thank you again for the opportunity to appear before you today. I 
look forward to answering any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Marietta Sebree Robinson

        Marti Robinson (nickname)

        Marietta Lunette Sebree (maiden name)

        Marietta Cooper (1971-1974)

        Marietta Jones (1977-1981)

    2. Position to which nominated: Commissioner, U.S. Consumer 
Products Safety Commission.
    3. Date of Nomination: January 24, 2012.
    4. Address (List current place of residence and office addresses):

        Residence: information not released to the public.

        Office: 436 S. Broadway, Suite C, Lake Orion, MI 48362.

    5 Date and Place of Birth: December 26, 1951; Platteville, 
Wisconsin.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        My spouse, James K. Robinson, died on August 6, 2010, and, at 
        the time of his death, was a partner at the law firm of 
        Cadwalader, Wickersham and Taft.

        I have no children. My stepson is Steven James Robinson, age 
        43. My stepdaughter is Renee Robinson Stromberg, age 41.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Juris Doctorate, 1978, UCLA School of Law.
        B.A. with High Distinction, 1973, The University of Michigan--
        Flint.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

------------------------------------------------------------------------
   Job Title(s)          Employer            Dates           Location
------------------------------------------------------------------------
Owner               Law Offices of        1989-Present   Lake Orion, MI
                     Marietta S.
                    Robinson
Trustee             Dalkon Shield            1989-1997   Richmond, VA
                     Claimants' Trust
Associate, then     Sommers Schwartz         1985-1989   Southfield, MI
 Partner
Associate, then     Dickinson Wright         1979-1984   Detroit, MI
 elected Partner     PLLC
Adjunct Professor   Wayne State              1983-1984   Detroit, MI
 of Law, Trial       University Law
 Practice            School
Adjunct Professor   University of            1982-1983   Detroit, MI
 of Law, Trial       Detroit Mercy
 Practice            School of Law
In-house legal      The Bank of              1978-1979   Hamilton,
 counsel             Bermuda Limited                      Bermuda
Research assistant  AIG                    Summer 1977   Hamilton,
 to Michael                                               Bermuda
 Murphy, in-house
 counsel
Law Clerk           Anderson, Patch        Summer 1976   Jackson, MI
                     Rosenfeld,
                    Potter and Grover
Part-time Waitress  Beachbum Bert's          1976-1978   Redondo Beach,
                                                          CA
Data Processing     IBM Corporation          1973-1975   Flint, MI;
 Marketing                                                Glendale, CA
 Representative
------------------------------------------------------------------------

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, film, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

------------------------------------------------------------------------
  Position/Affiliation         Organization/Company           Dates
------------------------------------------------------------------------
Owner                     Law Offices of Marietta S.       1989-Present
                           Robinson
Board of Directors        Life Raft Group                  2008-Present
Board of Directors        Michigan Women's Foundation         2003-2006
------------------------------------------------------------------------

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

------------------------------------------------------------------------
          Organization                Affiliation             Dates
------------------------------------------------------------------------
International Society of         President              2010-2011
 Barristers                      First Vice President   2009-2010
                                 Second Vice President  2008-2009
                                 Secretary Treasurer    2007-2008
                                 Board of Governors     2001-Present
                                 Fellow                 1994-Present
------------------------------------------------------------------------
American Bar Foundation          Life Fellow            2008-Present
                                 Fellow                 1999-Present
------------------------------------------------------------------------
Michigan State Bar Foundation    Fellow                 1993-Present
------------------------------------------------------------------------
International Women's Forum      Member                 2007-Present
------------------------------------------------------------------------
California Bar Association       Member                 1978-Present
------------------------------------------------------------------------
Michigan Bar Association         Member                 1979-Present
------------------------------------------------------------------------
Utah Bar Association             Member                 2010-Present
------------------------------------------------------------------------
U.S. Court of Appeals, Sixth     Life Member            1990-Present
 Circuit Judicial Conference
------------------------------------------------------------------------
U.S. District Court for the      Member                 1979-Present
 Eastern District of Michigan
------------------------------------------------------------------------
U.S. Supreme Court Historical    Member                 2005-Present
 Society
------------------------------------------------------------------------
Advisory Committee, appointed    Member                 2009
 by Senators Carl Levin and
 Debbie Stabenow to assist in
 the selection of the U.S.
 Attorney, U.S. Marshal and two
 U.S. District Court judges for
 the Eastern District of
 Michigan
------------------------------------------------------------------------
American Constitution Society    Member                 Approx. 2003-
                                                         Present
------------------------------------------------------------------------
Life Raft Group                  Member, Board of       2007-Present
                                  Directors
------------------------------------------------------------------------
Michigan Women's Foundation      Member, Board of       2003-2006
                                  Directors
------------------------------------------------------------------------
None of the above listed organizations discriminates based on sex, race,
  color, religion, national origin, age, or handicap.

    13. Have you ever been a candidate for and/or held a public office 
(elected, nonelected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.

        2002: I was a candidate for the Democratic nomination for 
        Michigan Attorney General, but withdrew my name before the 
        convention.

        2000: Nominee of the Michigan Democratic Party for the Michigan 
        Supreme Court to run against incumbent Chief Justice Clifford 
        Taylor. I was unsuccessful.

        1985-1989: Appointed by Governor James Blanchard to the State 
        of Michigan Building Authority. This is a committee of five 
        which issues bonds for funding of all building projects 
        financed by the State of Michigan.

        None of the above mentioned campaigns have any outstanding 
        debt.

    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    To the best of my knowledge, the following are all of the political 
contributions I have made of $500 or more in the past 10 years:

------------------------------------------------------------------------
  Political Candidate/Party/PAC         Contribution Amount        Date
------------------------------------------------------------------------
Stabenow for Senate                $2,400                          2011
------------------------------------------------------------------------
Obama Victory Fund                 $28,500 total                   2008
  --DNC                              --$26,200
  --Obama for America                --$2,300
------------------------------------------------------------------------
Friends of Senator Carl Levin      $1,000                          2007
------------------------------------------------------------------------
Obama for America                  $2,300                          2007
------------------------------------------------------------------------
Marcinkowski for Congress          $500                            2006
------------------------------------------------------------------------
John Kerry for President Inc       $2,000                          2004
------------------------------------------------------------------------
Edwards for President              $1,000                          2004
------------------------------------------------------------------------
Stabenow for Senate (General)      $2,000                          2003
------------------------------------------------------------------------
Stabenow for Senate (Primary)      $2,000                          2003
------------------------------------------------------------------------
Dean for America (Howard Dean)     $500                            2003
------------------------------------------------------------------------
EMILY's List                       $2,000                          2002
------------------------------------------------------------------------
Kevin Kelly for Congress           $500                            2002
------------------------------------------------------------------------
Friends of David Fink              $500                            2001
------------------------------------------------------------------------
EMILY's List                       $1,000                          2001
------------------------------------------------------------------------
Michigan Democratic Central        $1,000                          2001
 Committee
------------------------------------------------------------------------

    In 2002, I was briefly a candidate for Michigan Attorney General 
and contributed to my own campaign, however, I do not have records that 
would allow me to reconstruct the amount.
    In 2008, I was co-chair of Michigan Women for Obama, helped raise 
money for the Obama campaign, participated in both the Midwest and Mid-
Atlantic campaign committees and I went to New Hampshire to knock on 
doors for the campaign before the primary.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

------------------------------------------------------------------------
      Organization/Society            Affiliation             Dates
------------------------------------------------------------------------
International Society of         President              2010-2011
 Barristers                      First                  2009-2010
                                 Vice President         2008-2009
                                 Second Vice President  2007-2008
                                 Secretary Treasurer    2001-Present
                                 Board of Governors     1994-Present
                                 Fellow
------------------------------------------------------------------------
American Bar Foundation          Life Fellow            2008-Present
                                 Fellow                 1999-Present
------------------------------------------------------------------------
Michigan State Bar Foundation    Fellow                 1993-Present
------------------------------------------------------------------------
International Women's Forum      Member                 2007--Present
Michigan Lawyer's Weekly         Lawyer of The Year     2000
                                 (One of Ten)
------------------------------------------------------------------------
Who's Who In The World                                  2002-Present
------------------------------------------------------------------------
Who's Who In America                                    2001-Present
------------------------------------------------------------------------
The Best Lawyers In America                             1999-Present
------------------------------------------------------------------------
Who's Who In American Law                               1993-Present
------------------------------------------------------------------------
Who's Who Of American Women                             1990-Present
------------------------------------------------------------------------

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

------------------------------------------------------------------------
      Publication                    Title                    Date
------------------------------------------------------------------------
Wayne Law Review        Co-Author--Evidence, 1984       1985
                         Annual Survey of Michigan Law
------------------------------------------------------------------------
                        Contributing Author--Evidence   1987
                         in America, The Federal Rules
                         In The States
------------------------------------------------------------------------
                        Contributing Author--           1988
                         Introducing Evidence, A
                         Practical Guide For Michigan
                         Lawyers
------------------------------------------------------------------------
Michigan Institute of   Contributing Author--Torts:     1992-1999
 Continuing Education    Michigan Law and Practice:
                         ``Legal and Other
                         Professional Malpractice.''
------------------------------------------------------------------------
Holland Sentinel        Letter to the Editor            June 22, 2000
------------------------------------------------------------------------
The Detroit News        Letter to the Editor            July 26, 2000
------------------------------------------------------------------------
The Detroit News        Letter to the Editor            August 31, 2000
------------------------------------------------------------------------
The Macomb Daily        Letter to the Editor            October 30, 2000
------------------------------------------------------------------------

    The letters to the editor mentioned above were written during my 
candidacy for the Michigan Supreme Court.
    I do not believe that any of the speeches I have given have been on 
topics relevant to the position for which I have been nominated.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I would like to serve as a Commissioner because of my long-standing 
commitment to consumer protection and, specifically, my desire to 
ensure that all Americans--especially infants and children--are 
protected from dangerous consumer products.
    For 33 years, I have practiced as a trial attorney. During this 
time, I have handled a wide variety of complex litigation, including 
product liability and medical malpractice cases, and have represented 
both plaintiffs and defendants. I strongly believe that this range of 
experience, working with stakeholders on both sides, will allow me to 
effectively work toward consensus-based policies to protect consumers.
    I also believe my extensive managerial experience will be 
beneficial to the agency. From 1989 to 1997, I served as one of five 
federally appointed trustees of the Dalkon Shield Claimants' Trust. In 
that capacity, I worked with a large staff to fairly distribute over 
$2.4 billion to more than 300,000 claimants in over 120 countries with 
injuries ranging from minimal damages to brain-injured babies.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Under the Commission's organic statute, the Consumer Product Safety 
Act, the Chairman has the primary responsibility of managing the agency 
and ensuring proper management and accounting controls. If confirmed, I 
look forward to working with the Chairman on policies and management 
practices that ensure that agency funds are used prudently and that the 
Commission has strong and effective controls to prevent waste, fraud 
and abuse. As noted above, I believe my tenure as trustee of the Dalkon 
Shield Claimants' Trust provides experience that will be very helpful 
in this area. The trustees of this Trust so effectively managed the 
finances that, at the conclusion of the Trust, there was a pro rata 
distribution to the claimants of an additional 90 percent of their 
original settlement.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe the primary challenge facing the Commission is 
effectively monitoring the ever-increasing flow of consumer products 
entering the United States every year. The Commission now has 
jurisdiction over $637 billion in consumer product imports. From 1999 
to 2010, the value of all imports from China and Hong Kong alone 
quadrupled. There are 327 ports of entry into the United States and, 
with a small staff, the Commission must make critical decisions as to 
how to staff its import surveillance activities and manage the data 
flow from importers to target potentially dangerous shipments.
    A second challenge is the gathering and dissemination of lifesaving 
data. Continuing to find new, innovative ways of gathering information 
from around the world about unsafe products is the first part of this 
challenge. The second part is expanding the dissemination of CPSC's 
critical information to all consumers, regardless of their 
circumstances. Recall and education efforts are only effective if they 
reach all consumers, who then take advantage of the free remedies 
offered by recalling companies or heed CPSC's advice on how to make 
safety upgrades in the home. In recent years, the Commission has made 
great strides in using the Internet and social media to push out safety 
messages to consumers who may not have known about the agency 
previously. I look forward, if confirmed, to leveraging new 
technologies and applications to solidify gains in this area, while 
also ensuring that underserved consumers continue to be well-served by 
CPSC safety messages.
    Third, I believe emerging technologies in manufacturing present 
both challenges and opportunities for the Commission. Foreign 
manufacturers must demonstrate greater accountability for the chemicals 
and materials used in products intended for the U.S. marketplace. For 
example, nanomaterials are increasingly used in consumer products. The 
use of these nanomaterials has created an array of new and innovative 
consumer products. At the same time, however, I believe it is important 
for the Commission, in conjunction with other agencies and public 
health and industry stakeholders, to consider any areas of risk or 
impact resulting from these products.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    My late husband's law firm, Cadwalader, Wickersham and Taft, has a 
wealth-accumulation plan which pays an annuity to me until August 6, 
2020 of $8,144.75 monthly.
    In addition, I referred a case to Robinson, Calagnie and Robinson 
in Newport Beach, California, in which I expect a referral fee.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Consumer Product Safety 
Commission's Designated Agency Ethics Official to identify potential 
conflicts of interest. Any potential conflicts of interest will be 
resolved in accordance with the terms of an ethics agreement that I 
have entered into with the Commission's designated agency ethics 
official and that has been provided to this Committee. I am not aware 
of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Consumer Product Safety 
Commission's Designated Agency Ethics Official to identify potential 
conflicts of interest.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of an ethics agreement that I have entered into with the 
Commission's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Consumer Product Safety 
Commission's Designated Agency Ethics Official to identify potential 
conflicts of interest. Any potential conflicts of interest will be 
resolved in accordance with the terms of an ethics agreement that I 
have entered into with the Commission's designated agency ethics 
official and that has been provided to this Committee. I am not aware 
of any other potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    I have never been disciplined or cited for a breach of ethics.
    In 2004, a Request for Investigation was filed with the Michigan 
Attorney Grievance Commission by opposing counsel in then-pending 
litigation concerning conduct in a deposition which she viewed as 
discourteous. After several depositions in which opposing counsel had 
engaged in what I considered inappropriate, obstructive behavior, I 
filed a motion with the trial court, which was ultimately granted, 
asking for an order that opposing counsel follow the court rules during 
depositions or risk sanctions.
    One week after my motion was filed, opposing counsel filed a 
Request for Investigation based on events that she alleged had occurred 
in a deposition. After briefing by both sides, the Attorney Grievance 
commission closed the file without filing a complaint, although it 
issued a private admonishment for ``failing to treat with courtesy and 
respect all persons involved in the legal process.'' Under Michigan's 
ethics rules, this is not considered discipline; nevertheless, I have 
included this admonishment in the interest of full disclosure.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    Yes, I have been a party in six lawsuits:

        1. I was a Plaintiff in a no-fault divorce action in 1974 and a 
        judgment of no-fault divorce was entered.

        2. I was a Defendant in a no-fault divorce action in 1981 and a 
        judgment of no-fault divorce was entered.

        3. I was a Defendant in a fee dispute filed by an individual 
        shareholder in Sommers Schwartz, after I left the firm. A 
        Summary Judgment was entered in my favor in 1991.

        4. I was a Defendant and Counter-Plaintiff in a fee dispute 
        with Sommers Schwartz after my departure. A settlement was 
        reached in approximately 1991

        5. I was a Defendant several years ago in a case filed by a 
        lawn service. I hired the lawn service to clean up trees on my 
        property after a big storm. We agreed on a flat fee for the 
        work, and I paid that fee at the time the job was completed. 
        The lawn service then billed me for several thousand in 
        addition to the flat fee based on what I believed to be 
        fabricated hours worked. The case was filed in a small claims 
        court and I removed it to a circuit court. After removal to 
        circuit court, the plaintiffs dismissed the case.

        6. I was a Defendant in a malpractice action filed by former 
        clients. I had been the attorney for a minor plaintiff and his 
        parent's family in a medical malpractice action and obtained a 
        verdict in approximately 1988, which, with interest, was worth 
        $4.8 million. The case settled while on appeal for an amount 
        that included the judgment plus interest. As part of the 
        settlement, a portion of the proceeds was used to purchase an 
        annuity from New York Life to take care of minor child.

    After the minor child died, the family discovered that the 
insurance agent who purchased the annuity that was part of the 
settlement had manufactured the receipt from New York Life and had 
grossly inflated the cost of the annuity. Following that discovery, his 
family sued me for malpractice in approximately 1989. I filed a third-
party suit against the insurance agent for fraud and immediately 
volunteered to pay back to the family that portion of the fee which I 
had received on the higher amount.
    Ultimately, a settlement was reached with insurance agent paying my 
former clients and me. Accordingly, my third-party suit against the 
insurance agent was dismissed with prejudice. All malpractice claims 
against me were also dismissed.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                   resume of marietta sebree robinson
 Education
June, 1978                 UCLA School of Law
                           Juris Doctorate
June, 1973                 The University of Michigan
                           Bachelor of Arts, with High DistinctionEmploymentApril, 1989 to present     Owner
                           Law Offices of Marietta S. Robinson
                           Lake Orion, MI
                           Trial attorney primarily involved in medical
                            malpractice, products liability, and
                            personal injury litigation.
January, 1985 to April,    Partner, Associate
 1989                      Sommers, Schwartz, Silver & Schwartz, P.C.
                           Southfield, MI
                           Trial attorney primarily involved in medical
                            malpractice, products liability, and
                            personal injury litigation.
May, 1979 to December,     Partner, Associate
 1984                      Dickinson, Wright, Moon, Van Dusen & Freeman,
                            P.L.L.C.
                           Detroit, MI
                           Trial attorney primarily involved in general
                            commercial and products liability
                            litigation.
September, 1983 to June,   Adjunct Professor
 1984                      Wayne State University Law School
                           Detroit, MI
                           Course: Trial Practice
January, 1982 to June,     Adjunct Professor
 1983                      University of Detroit Mercy School of Law
                           Detroit, MI
                           Course: Trial Practice
August, 1978 to May, 1979  Attorney
                           The Bank of Bermuda Legal Department
                           Hamilton, Bermuda
                           In-house counsel primarily responsible for
                            several multinational litigation matters and
                            responsible for advice concerning many trust
                            and tax issues for international clients.
Summer, 1977               Research Assistant to Michael Murphy, In-
                            house Counsel
                           AIG
                           Hamilton, Bermuda
Summer, 1976               Law Clerk
                           Anderson, Patch, Rosenfeld, Potter and Grover
                           Jackson, MI
June, 1973 to September,   Data Processing Marketing Representative
 1975                      IBM Corporation
                           Flint, MI and Glendale, CAOther Teaching ActivitiesJanuary, 1982 to 1997      Faculty Member
                           Annual University of Virginia and University
                            of Michigan Trial
                           Advocacy Institutes
1985                       Chairman
                           Federal Bar Trial Advocacy Program for the
                            U.S. District Court for the Eastern District
                            of Michigan
1984 to present            Lecturer
                           National Institute of Trial Advocacy,
                           Michigan Institute of Continuing Legal
                            Education and American
                           Law Institute
                           Includes the following seminars: Building a
                            Successful Trial Practice; Handling the
                            Personal Injury Case; Handling the Liquor
                            Liability Case in Michigan; Trial Advocacy
                            Skills Workshop; Introducing Evidence: A
                            Practical Guide for Michigan Lawyers; Art of
                            Cross Examination; Effective Use of Experts;
                            Introducing Evidence in Court: Evidentiary
                            Foundations and Objections; Mock Jury
                            Trials; Deposition Skills Workshops.PublicationsCo-author, Evidence, 1984 Annual Survey of Michigan Law, Wayne Law
 Review (1985).
Contributing author, Evidence in America, The Federal Rules in the
 States (1987).
Contributing author, Introducing Evidence. A Practical Guide for
 Michigan Lawyers (1988).
Contributing author, Torts: Michigan Law and Practice (1992-1999).Appointed and Nominated
 Positions2009                       Appointed by U.S. Senators Carl Levin and
                            Deborah Stabenow to Advisory Committee to
                            assist in the selection of the U.S.
                            Attorney, U.S. Marshall, and two U.S.
                            District Court judges for the Eastern
                            District of Michigan.
2000                       Michigan Democratic Party nominee for the
                            Michigan Supreme Court (Michigan's highest
                            appellate court).
July, 1989 to 1997         Appointed one of five trustees of the Dalkon
                            Shield Claimants' Trust consisting of
                            approximately $2.4 billion dollars which was
                            disbursed amongst approximately 300,000
                            claimants from 120 countries.
1985 to 1989               Appointed by Governor James Blanchard to the
                            State of Michigan Building Authority, a
                            committee of five which issues bonds for
                            funding of all building projects financed by
                            the State of Michigan.Bar Admissions1978                       State Bar of California
1979                       State Bar of Michigan
1979                       U.S. District Court for the Eastern District
                            of Michigan
1983                       U.S. Sixth Circuit Court of Appeals
1989                       U.S. Supreme CourtProfessional Activities
 and Affiliations2011                       Special Legal Counsel to Chair
                           United Nations Peacebuilding Commission,
                            Liberia
 Honorary Organizations2010 to 2011               President
2009 to 2010               First Vice President
2008 to 2009               Second Vice President
2007 to 2008               Secretary Treasurer
2001 to present            Board of Governors
1994 to present            Fellow
                           International Society of Barristers
                           One of 26 Michigan Fellows; membership
                            limited to trial lawyers who ``shall, by
                            virtue of [their] resourcefulness, courage,
                            and other professional and personal
                            qualities, have distinguished [themselves]
                            as outstanding in the field of advocacy . .
                            .''
2008 to present            Life Fellow
1999 to present            Fellow
                           American Bar Foundation
                           Membership limited to one-third of one
                            percent of lawyers.
1993 to present            Fellow
                           Michigan State Bar Foundation
                           One of 585 members; membership limited to
                            lawyers of ``outstanding legal ability''--no
                            more than five percent of the active members
                            of the Michigan Bar may be elected.
1991                       Member, Conference Planning Committee
                           U.S. Court of Appeals--Sixth Circuit Judicial
                            ConferenceCommunity Activities2008 to present            Board of Directors
                           Life Raft Group
                           A cancer patient advocacy and research group
                            focusing on patients with gastrointestinal
                            stromal tumors.
2007 to present            Member
                           International Women's Forum
                           Membership by invitation only; ``[t]he
                            International Women's Forum is advancing
                            women's leadership across careers, cultures
                            and continents by connecting the world's
                            most preeminent women of significant and
                            diverse achievement.''
2003 to 2006               Board of Directors
                           Michigan Women's Foundation
                           A philanthropy organized to raise money and
                            fund programs that promote girls and women.
1997 to 2001               Board of Directors
                           Banbury Cross, Metamora, Michigan
                           A therapeutic equestrian center providing
                            activities for children with disabilities.Listings2002 to present            Who's Who in The World
2001 to present            Who's Who in America
2000                       Lawyer of The Year (one of 10), Michigan
                            Lawyer's Weekly
1999 to present            The Best Lawyers in America
1993 to present            Who's Who in American Law
1990 to present            Who's Who of American Women

    The Chairman. Thank you very much, Ms. Robinson. And, now, 
we go to Richard Lidinsky who is chairman and going for another 
one.
    Senator Lautenberg. Mr. Chairman, can I just ask one 
question. We'll keep the record open for questions that are 
submitted in writing? I'm called to another committee. Thank 
you.
    The Chairman. We always do.

     STATEMENT OF HON. RICHARD A. LIDINSKY, JR., CHAIRMAN, 
                  FEDERAL MARITIME COMMISSION

    Mr. Lidinsky. Good morning, and thank you, Mr. Chairman, 
Ranking Member Hutchison and other members of the Committee.
    My name is Richard A. Lidinsky, Jr., and it's a great honor 
to appear before you once again today, and I've been 
renominated by the President to continue to lead the Federal 
Maritime Commission.
    I want to thank Senator Mikulski for her kind introduction. 
In keeping with my other two nominees' statements, my West 
Virginia roots are these.
    The Senator told me many times that the Port of Baltimore 
is West Virginia's port, so that's my connection with West 
Virginia.
    [Laughter.]
    Mr. Lidinsky. So, Mr. Chairman, I said keeping with my 
nominees' comments about West Virginia roots, my connection is 
the Port of Baltimore is West Virginia's port. So Baltimore and 
West Virginia are united for maritime purposes.
    The Chairman. You are putting a lot of pressure on Ms. 
Robinson.
    Mr. Lidinsky. Well, I'll have a few minutes to think of a 
good connection.
    With me today is my wife Mary Duston Lidinsky of 40 years, 
and I want to thank her for her partnership and support that 
allows me to be here today.
    I will now summarize my statement for the record, and 
request that the total be made part of the record.
    My entire legal public service and business careers have 
revolved around the various areas regulated by the FMC. When I 
came before you for my first confirmation hearing in July of 
2009, the global maritime industry was still in the depths of 
the worst year since the age of containerization began.
    At that time, more than 575 massive container ships or 12 
percent of the world's capacity was laid up at anchor awaiting 
work. As a result, I told you that my top priority as a nominee 
for Commissioner was to support economic recovery and jobs for 
all sectors of the maritime community through regulatory 
relief.
    My additional priorities were monitoring foreign countries 
and ocean carriers to protect the U.S. businesses and consumers 
they serve and assisting ports and carriers with efficiency and 
sustainability so that concerns over environmental impacts 
would not constrain growth.
    After my Senate confirmation, I joined the Commission in 
August 2009 and 5 weeks later, the President designated me as 
Chairman. In the two and a half years since I became Chairman, 
I'm pleased to report to the Committee that we have worked in 
each area in a bipartisan manner to make progress on these 
priorities.
    First, we have given regulatory relief to support the 
economic recovery. One example is that in April of last year, a 
majority of the Commission broke a twenty-year deadlock and 
issued a final rule granting exemption to relieve 3,500 small 
business logistic companies from the costs and burdens of 
publishing their rates in antiquated tariffs.
    That's what Senator Mikulski referred to about using the 
ink well.
    Second, we have been vigilant in supporting American 
businesses and consumers to rely on international maritime 
industry. Back in the mid-2009, no one could have predicted 
that by the spring of 2010, we would be reporting to Congress 
that the demand for liner shipping had recovered so quickly 
that exporters were facing shortages in vessels and shortages 
of containers.
    The Commission responded by launching and quickly 
completing an investigation led by my colleague, Commissioner 
Rebecca Dye. We provided prompt solutions to the disputes 
between shipping lines and customers so that we kept cargo 
moving.
    In addition, we undertook several initiatives led by my 
other colleague, Commissioner Michael Khouri, to deter 
unlicensed, fly-by-night household good movers from defrauding 
consumers, and we established a direct dialogue with our 
Chinese counterpart who had been the subject of raised concerns 
of shipper logistic companies.
    Third, the Commission has served as a helpful partner to 
ocean carriers and ports working to grow in a sustainable 
manner. The Commission has expedited review and allowed ports 
and terminals to proceed with agreements to cooperate with 
efficiency on environmental issues.
    The most recent example concerns the Port of New York and 
New Jersey, with sustainable services agreement. We have 
allowed major ocean carriers to engage in a practice of slow 
steaming, which means slowing their engines down, saving fuel 
as they serve the world trade routes.
    And, last month, at the suggestion of Commissioner Mario 
Cardero, we hosted a forum of ports to highlight and discuss 
their environmental initiatives. And we received detailed 
presentations from the ports of Houston, Long Beach, Los 
Angeles, New York, New Jersey, Oakland and Virginia.
    So, if confirmed for another term at the Commission, my top 
priority will continue to be assisting our economic recovery 
for job growth both in the ocean transportation industry and 
among those exporting and the businesses they serve.
    If confirmed, I look forward to working with my Commission 
nominee Bill Doyle and each of my colleagues on these 
priorities which are not just my own, but they have been 
outlined by Congress and the President.
    If confirmed, I will work hard to translate this guidance 
into action, and I'm proud of the progress the Commission has 
made on these fronts during the last two and a half years.
    But I'm eager to help more U.S. exporters in the maritime 
industry continue to grow and create American jobs. Thank you 
very much, and I'm pleased to answer your questions.
    [The prepared statement and biographical information of Mr. 
Lidinsky follow:]

    Prepared Statement of Hon. Richard A. Lidinsky, Jr., Chairman, 
                      Federal Maritime Commission
    Mr. Chairman, Ranking Member Hutchison, and members of the 
Committee, my name is Richard A. Lidinsky, Jr. It is a great honor to 
appear before you today, and to have been renominated by the President 
to continue to lead the Federal Maritime Commission. I would like to 
introduce my wife of 40 years, Mary Duston, and thank her for the 
partnership and support that allow me to be here today.
    My entire legal, public service, and business careers have revolved 
around the various areas regulated by the FMC. After serving on the 
staff of the House Merchant Marine and Fisheries Committee, I worked as 
the FMC's Legislative Counsel during one of the Commission's most 
active and important regulatory periods. I served next as port counsel 
and director in my home port of Baltimore, and after a decade I moved 
to become Vice President of Sea Containers, a global marine equipment 
manufacturing, leasing, and trading company. During my twenty years in 
the private sector, I worked closely with the Pentagon to containerize 
supplies for our troops. I also had the privilege of serving as advisor 
to our NATO delegation on port and intermodal matters.
    When I stood before you for my first confirmation hearing in July 
2009, the global maritime industry was still in the depths of its worst 
year since the age of containerization began. At that time, more than 
575 massive containerships, or 12 percent of the world's capacity, were 
laid up or at anchor awaiting work. As a result, I told you that my top 
priority as a nominee for FMC Commissioner was to support economic 
recovery and jobs for all sectors of maritime commerce through 
regulatory relief. My additional priorities were monitoring foreign 
countries and ocean carriers to protect the U.S. businesses and 
consumers they serve, and assisting ports and carriers with efficiency 
and sustainability so that concerns over environmental impacts do not 
constrain growth.
    After Senate confirmation, I joined the Commission in August 2009, 
and 5 weeks later the President designated me as Chairman. In the two 
and a half years since I became Chairman of the Commission, I am 
pleased to report that we have worked in a bipartisan manner to make 
progress on each of these priorities.
    First, we have given regulatory relief to support the economic 
recovery. In April 2011, a majority of the Commission broke a twenty-
year deadlock and issued a final rule granting an exemption to relieve 
3,500 logistics businesses from the costs and burdens of publishing 
their rates in antiquated tariffs. Now, with a year of experience, we 
are looking at ways to improve the exemption and provide additional 
regulatory relief. Going forward, the Commission has announced plans to 
systematically review all areas of its rules and procedures to 
streamline, modernize, and continue to reduce regulatory burdens.
    Second, we have been vigilant in supporting American businesses and 
consumers that rely on the international maritime industry. Back in 
mid-2009, I could not have predicted that by the Spring of 2010, I 
would be reporting to Congress that demand for liner shipping had 
recovered so quickly that U.S. exporters were facing serious shortages 
in vessel capacity and intermodal containers. The Commission responded 
by launching and quickly completing an investigation, led by my 
colleague, Commissioner Rebecca Dye. We implemented her team's 
recommendations to more closely monitor carrier rate discussion 
agreements and receive advanced notice of ocean carrier alliances' 
capacity decisions. We also formed Rapid Response Teams to cut through 
red tape and provide prompt solutions to disputes between shipping 
lines and customers so that we can keep cargo moving. In addition, we 
have taken several initiatives, led by my colleague, Commissioner 
Michael Khouri, to deter unlicensed, fly by-night household goods 
movers from defrauding consumers when they try to ship their life's 
possessions overseas. And we established a direct dialogue with our 
counterparts in China to raise concerns of U.S. shippers and logistics 
companies.
    Third, the Commission has served as a helpful partner to ocean 
carriers and ports working to grow in a sustainable manner. The 
Commission has given expedited review and allowed ports and terminals 
to proceed with agreements to cooperate on efficiency and environmental 
issues, the most recent example being the Port of New York and New 
Jersey Sustainable Services Agreement. We have also allowed the major 
ocean carrier agreement in the Transpacific to discuss ``slow 
steaming'' and other ways to save fuel and reduce pollution. Last 
month, at the suggestion of Commissioner Mario Cordero, we hosted a 
forum for ports to highlight and discuss their environmental 
initiatives, and received presentations from the ports of Houston, Long 
Beach, Los Angeles, New York/New Jersey, Oakland, and Virginia.
    If confirmed for another term at the Commission, my top priority 
will continue to be assisting our economic recovery for job growth, 
both within our ocean transportation industry and among the exporting 
and importing businesses they serve. I believe that the two most 
important ways we can aid the economic recovery are: (1) working to 
ensure our maritime transportation system efficiently supports export 
growth; and (2) continuing to provide regulatory relief so that 
companies can hire American workers.
    If confirmed, I look forward to working with Commission nominee 
Bill Doyle and each of my colleagues on these priorities, which are not 
just my own: Congress and the President have also endorsed them. 
Congress said that a key purpose of the Shipping Act is to ``promote 
the growth and development of United States exports through competitive 
and efficient ocean transportation and by placing a greater reliance on 
the marketplace.'' President Obama has also issued Executive Orders 
urging agencies to use ``every effort'' to double exports and to review 
regulations to provide relief and flexibility. If confirmed, I will 
work hard to translate this guidance into action. I am proud of the 
progress the Commission has made on these fronts during the past two 
and half years, but I'm eager to do more to help U.S. exporters and the 
maritime industry continue to grow and create American jobs.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Richard 
Anthony Lidinsky, Jr. (Rick).
    2. Position to which nominated: Commissioner, Federal Maritime 
Commission.
    3. Date of Nomination: February 13, 2012.
    4. Address (List current place of residence and office addresses):

        Residence: information not released to the public.

        Office: 800 North Capitol Street, NW, Suite 1000, Washington, 
        DC 20573.

    5. Date and Place of Birth: September 21, 1946; Baltimore, MD.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Mary Duston Lidinsky, part-time teacher; Richard Anthony 
        Lidinsky III, 35; John Eric Lidinsky, 25.

    7. List all college and graduate degrees. Provide year and school 
attended.

        BA, American University, School of Government and Public 
        Administration, 1968.
        JD, University of Maryland School of Law, 1972.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        1969, Active duty U.S. Coast Guard (transferred to active 
        reserve in July 1969 and served until 1975 when I was honorably 
        discharged).

        1970-1973, U.S. House of Representatives Merchant Marine and 
        Fisheries Committee and Office of Edward A. Garmatz, MC (3rd, 
        MD).

        1973, Bill drafter, MD General Assembly.

        1973-1975, Office of General Counsel, Legislative Counsel, 
        Federal Maritime Commission.

        1975-1986, Maryland Port Administration, Port of Baltimore, 
        Counsel and Director of Tariffs and National Port Affairs.

        1986-2006, Vice President, Government Affairs, Sea Containers 
        America and Sea Containers Ltd., Washington, D.C., and London.

        2006-2009, Solo attorney practitioner (I used office space 
        within the Law Office of Frank G. Lidinsky).

        2009 to Present, Federal Maritime Commission, Commissioner and 
        Chairman.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        1995-2006, appointment by U.S. Department of the Army to serve 
        as a NATO High Level Expert (Top Secret clearance) for Ports 
        and Containers Transport Committee.

        City of Baltimore:
                2007, Vice Chairman of Compensation Commission for 
                Elected Officials.
                2004-2009, Member of Excellence in Public Service Award 
                Committee.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        1986-2006, Vice President, Government Affairs, Sea Containers 
        America.

        2000-2006, Board Member of the British American Business 
        Association.

        2007-2009, Director/Secretary of Theresa F. Truschel Charitable 
        Foundation, Inc.

        2009, Legal advisor to Maryland Bar High School Court 
        Competition Committee.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        National Defense Transportation Association (1986-2006) 
        (Sealift Transportation Committee Member from 1996-2006).

        British American Business Association (1986-2006).

        North Atlantic Ports Association (1975-2007).

        Gamma Eta Gamma Legal Fraternity (1971-2009).

        Bar Associations of Maryland and District of Columbia (1973 to 
        present).

        Maritime Administrative Bar Association (1976-2009).

        St. Thomas More Society (1986 to present).

        European Maritime Law Organization (1990 to present).

        The Maritime Law Association of the United States (2010 to 
        present).

    Gamma Eta Gamma Legal Fraternity restricts membership based on sex; 
otherwise, none of these organization restricts membership on the basis 
of sex, race, color, religion, national origin, age, or handicap.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    Unsuccessful Democratic candidate for Maryland House of Delegates, 
47th District, 1978, no outstanding debt.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        National Republican Congressional Committee--$500 (2001).

        Don Young for Congress--$1,000 (2001).

        Helen Bentley for Congress--$1,000 (2002).

        Don Young for Congress--$500 (2002).

        Howard Coble for Congress--$500 (2002).

        Ernest Hollings for Senate--$500 (2002).

        Barbara Mikulski for Senate--$500 (2004).

        Don Young for Congress--$500 (2004).

        Howard Coble for Congress--$500 (2004).

        O'Malley for Governor--$3,680 (2004-2006) (I also volunteered 
        as a maritime advisor).

        Don Young for Congress--$500 (2005).

        Ben Cardin for Senate--$500 (2006).

        Howard Coble for Congress--$500 (2006).

        Jack Reed for Senate--$500 (2006).

        Shelia Dixon for Mayor of Baltimore--$500 (2007).

        John Sarbanes for Congress--$500 (2008).

        Barack Obama for President--$500 (2008).

        James Rosapepe for Maryland Senate--$1,000 (2008).

        Elijah Cummings for Congress--$1,000 (2010).

        Barbara Mikulski for Senate--$1,000 (2010).

        Democratic Congressional Campaign Committee--$1,000 (2010).

        Barack Obama for America--$1,000 (2011).

        Stephanie Rawlings-Blake for Mayor of Baltimore--$500 (2011).

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Outstanding Service Award from U.S. Army for NATO service 
        (2000).
        North Atlantic Port Traffic Board award for legal service 
        (1986).

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        ``The Federal Regulation of American Port Activities,'' The 
        International Trade Law Journal, Fall-Winter 1981-1982.

        ``America-Canadian Cross Border Container Traffic: Innovation 
        or Cargo Diversion?'' Journal of Maritime Law and Commerce, 
        Spring 1984.

        Statement of Sea Containers America, Inc. to the Commission of 
        Merchant Marine and Defense, May 1988; NATO Alliance Intermodal 
        Handbook, January 2004.

    While I worked at the Port of Baltimore from 1975-1986, I 
occasionally spoke on conference panels about maritime matters, but I 
have not retained any notes or records of these remarks.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    While serving as Legislative Counsel to the Federal Maritime 
Commission from 1973 to 1975, I made several appearances before the 
House Merchant Marine and Fisheries Committee and the Senate Commerce 
Committee on legislation that would impact FMC authority in the areas 
of rate regulation, intermodalism, monitoring foreign ocean carrier 
commercial activity, general trade issues, energy matters, resolution 
of jurisdictional conflicts with other Federal agencies, and regular 
budgetary procedures.
    I also testified on a number of occasions before these same two 
committees and the Senate Foreign Relations and Armed Services 
Committees while working at the Port of Baltimore from 1975 to 1986. I 
testified on Federal agency/developmental legislation, as well as 
issues relating to dredging, trade and general port industry matters. 
During this same period, on behalf of the Port of Baltimore, and in 
conjunction with the North Atlantic Ports Association, and the American 
Association of Port Authorities, I testified on topics such as Canadian 
cargo diversion from U.S. ports, inland rate equalization, 
deregulation, the Panama Canal Implementing Legislation, and the 
Shipping Act of 1984.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have spent my entire 40-year career working on issues that are 
central to the Federal Maritime Commission's mission, beginning with my 
6 years of service in the U.S. Coast Guard on active and reserve duty, 
and my work as an aide to the House Merchant Marine and Fisheries 
Committee. My maritime service in the public and private sectors 
continued through my tenure as Legislative Counsel to the FMC itself, 
my time at the Maryland Port Administration, where I assisted in 
crafting the port-related sections of the Shipping Act of 1984, my 
service as Vice President for the ocean transportation equipment 
provider Sea Containers Ltd., and as a High-Level Expert for the United 
States' NATO Delegation on the Ports and Intermodal Transportation 
Committee.
    Since my appointment as Chairman of the FMC in 2009, I have worked 
to re-energize a Commission that had spent 3 years without a Chairman. 
My efforts have been focused on reorienting the Commission to 
facilitate exports, provide regulatory relief to support economic 
recovery, help the shipping industry become more efficient and 
sustainable, and protect American exporters, importers, and consumers.
    Recently, the influential shipping newspaper Lloyd's List described 
these efforts: ``Richard Lidinsky has transformed the Federal Maritime 
Commission since he took over as Chairman in 2009, re-establishing the 
Washington agency's position in the shipping world after several 
rudderless years. He has raised its profile both at home and abroad, 
and broadened the scope of activities in a determined effort to ensure 
the Commission is a force to be reckoned with once more. . . . Mr. 
Lidinsky has breathed fresh life into the FMC and ensured it has a 
voice on both the domestic and world stage.'' (Lloyds List, Dec. 15, 
2011) According to the Journal of Commerce, the FMC is now ``on an 
aggressive footing in seeking solutions to challenges as diverse as 
exporting and commercial disputes arising between shippers and 
carriers. An agency once seemingly left behind in the area of transport 
deregulation has moved to the center of debates over ocean carrier 
oversight.'' (Journal of Commerce, Mar. 7, 2011).
    If the Senate confirms my reappointment, I hope to continue these 
efforts to provide regulatory relief, support export growth and the 
economic recovery, and protect the American exporter, importer, and 
consumer.
    19.What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    During my tenure since September 2009 as Chairman of the agency, I 
have worked hard to ensure that the FMC has strong management and 
accounting controls. These efforts included a significant 
reorganization of the Commission's management structure in February 
2010, strong support for the agency's Inspector General and budget and 
accounting offices, and active leadership of the agency's major program 
offices. Before leading the Commission, I spent decades serving in 
senior management positions at the Port of Baltimore and in the private 
sector at Sea Containers Ltd. If confirmed, I intend to continue 
working hard to ensure strong management and accounting controls at the 
FMC.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        (1) I believe that the Commission's top priority must be to 
        work with the ocean transportation industry to ensure that it 
        can support the Nation's ambitious goals for significantly 
        increasing exports. This goal is both a statutory priority of 
        the Shipping Act and a top priority for the Administration. 
        Supporting a doubling in export cargo flow during the next 
        several years will require the Government and private sector to 
        work together to improve port and intermodal infrastructure, 
        increase availability of containers for inland agricultural and 
        manufacturing exporters, increase ports' and ocean carriers' 
        efficiency and sustainability so that concerns over 
        environmental impacts do not constrain growth, and engage with 
        our trading partners to remove foreign impediments to maritime 
        export cargo and services.

        (2) The Commission should also continue its work to provide 
        regulatory relief to support job growth and the economic 
        recovery. During my tenure as Chairman so far, the Commission 
        issued a new rule that relieved more than 3,400 logistics 
        businesses from the costs and burdens of publishing in tariffs 
        the rates they charge for cargo shipments. According to 
        comments filed with the Commission, this move can save many of 
        these important American supply chain businesses up to $200,000 
        per year. Going forward, the Commission has announced plans to 
        systematically review all areas of its rules and procedures to 
        streamline, modernize, and continue to reduce regulatory 
        burdens on the maritime industry. A key challenge will be 
        accomplishing this modernization in a budget-constrained 
        environment.

        (3) Finally, the Commission must continue its work to protect 
        the American exporter, importer, and consumer. Last year, the 
        Commission established Rapid Response Team to cut through red 
        tape, provide prompt solutions to disputes between shipping 
        lines and customers, and make sure cargo keeps moving. The 
        Commission also increased its scrutiny of shipping line 
        alliances and ``rate discussion agreements'' to make sure they 
        were not improperly restricting shipping capacity or 
        competition. In May 2011, the Commission concluded an 
        investigation into the longstanding problem of consumers 
        experiencing problems shipping their personal and household 
        goods overseas. The Commission is now working to implement the 
        investigation's recommended measures to prevent and better 
        respond to these consumer complaints. The Commission is also 
        working to finalize a proposed ruled to strengthen cruise 
        passenger financial protections, which have been eroded by 
        inflation and rapid cruise industry growth since they were last 
        updated in 1990.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    From previous employer (Sea Containers) I have an IRA retirement 
account at NorthStar Wealth Management, Columbia, MD and a State of 
Maryland and U.S. House of Representatives employee pensions.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the FMC's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Commission's 
designated agency ethics official and that has been provided to this 
Committee. I am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the FMC's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with the Commission's 
designated agency ethics official and that has been provided to this 
Committee. I am not aware of any other potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    As Vice President of Sea Containers I worked with colleagues to 
express the company's support, including through letters of Congress 
and the Administration, for various free trade agreements that would 
impact maritime commerce growth. As a member of the Sealift Committee 
of the National Defense Transportation Association, I worked with 
others to draft and support eventual legislation for the Maritime 
Security Program that provides vessels to the Pentagon in time of need.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the current and previous nomination process, I 
have consulted with the Office of Government Ethics and the FMC's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Commission's designated agency ethics official and that 
has been provided to this Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    While I was employed by Sea Containers, the company was involved in 
a handful of corporate civil litigation cases. I was never named as a 
party and none of my actions were ever at issue. Also, in my capacity 
as Vice President/Attorney as Sea Containers, I filed numerous Federal 
contract bids. On occasion, the company would protest a contract loss 
or allege a bid irregularity or, conversely, the company would win a 
contract and be the target of protest. All of these proceedings were 
reviewed and resolved at the agency administrative level.
    In December 1985, my wife and I adopted our second son. In 1986, 
the biological mother sought a court order to rescind the adoption. The 
court denied her claim and ruled in our favor.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                resume of richard a. lidinsky, jr., esq.
 2009-Present      Commissioner and Chairman, Federal Maritime
                   Commission, Washington, D.C.2006-2009         Private Practice, Office of Frank G. Lidinsky, Towson,
                   MD1986-2006         Vice President, Governmental Affairs, Sea Containers
                   America lnc./GE SEACO/Orient Express Hotels,
                   Washington, D.C. & Baltimore, MD
                  Responsible for representing entire corporate group in
                   London, New York and various international offices by
                   monitoring and lobbying for company interests in
                   regulatory, trade and customs matters before the U.S.
                   Congress and with federal departments and agencies;
                   negotiated contracts with Department of Defense for
                   container supply1995-2005         U.S. Delegation, NATO, Brussels, Belgium
                  Served as High Level Expert for Ports and Containers
                   Transportation Committee along with member countries
                   ocean shipping and intermodal activities; new member
                   transportation transition sub-committee service1975-1986         Director of Tariffs and National Port Affairs,
                   Maryland Port Administration, Baltimore, MD
                  Responsible for preparing and publishing port tariffs
                   and negotiating agreements with ocean carriers;
                   representing the port before the Maryland General
                   Assembly, U.S. Congress and federal departments and
                   agencies; and monitoring laws, regulations and
                   actions proposed and enacted in the U.S. and
                   internationally affecting the Port of Baltimore;
                   drafted port use agreements during foreign trade
                   missions1973-1975         Legislative Counsel, Office of General Counsel,
                   Federal Maritime Commission, Washington, D.C.
                  Drafted agency legislation, prepared agency testimony
                   for presentation to Congress and served as liaison
                   with the Office of Management and Budget and other
                   federal departments and agencies; general staff
                   attorney duties1973              Bill Drafter, Maryland General Assembly1970-1973         Staff, U.S. House of Representatives and House
                   Merchant Marine and Fisheries Committee1969-1975         U.S. Coast Guard Active Duty and Reserve ServiceOrganizations/Professional & Civic Activities Past & Current                  Member, Maryland, Washington, D.C. and Federal Bars  
 Publications                  Co-Author, ``American-Canadian Cross Border Container
                   Traffic: Innovation Or Cargo Diversion?'' Journal of
                   Maritime Law and Commerce Spring 1984 Education                  JD--University of Maryland School of Law, Baltimore,
                   MD, 1972 


    The Chairman. Thank you very much, Chairman Lidinsky.
    Mr. Doyle, you may have no relatives even within a thousand 
miles of West Virginia.
    [Laughter.]
    The Chairman. But it makes no difference. We absolutely 
welcome you here.

  STATEMENT OF WILLIAM P. DOYLE, NOMINEE TO BE COMMISSIONER, 
                  FEDERAL MARITIME COMMISSION

    Mr. Doyle. Thank you very much, Senator.
    Good morning, Chairman Rockefeller, Ranking Member 
Hutchison, and the members of the Committee.
    I am honored to have the opportunity to appear before you 
this morning as President Barack Obama's nominee to serve as 
Commissioner on the Federal Maritime Commission. And I thank 
Chairman Lidinsky for his support.
    If confirmed by the Senate, I look forward to supporting 
the mission of the Federal Maritime Commission to promote a 
fair, efficient and reliable international ocean transportation 
system, and to protect the public from unfair and deceptive 
practices.
    Before I proceed, I would like to introduce my wife, Amy 
Doyle, our kids Lillian, Billy and Katherine. I would also like 
to introduce my mother, Virginia, father, Dennis, my sister, 
Betsy, as well as other family members and friends from 
Massachusetts, Pennsylvania and Washington, D.C.
    Additionally, I would like to extend my gratitude to all 
the members of the maritime community, labor, management, 
government, for their support.
    I am a graduate of Massachusetts Maritime Academy where I 
received a Bachelor of Science in marine engineering, and I am 
a licensed U.S. Coast Guard officer, marine engineer.
    I have served aboard various ships as an officer in the 
United States Merchant Marine from 1992 to 2002. While in the 
Merchant Marine, I began law school at Widener University in 
Harrisburg, Pennsylvania. I spent my winter and summer breaks 
of law school as an engineer on tankships, delivering jet fuel 
to Israel, running liquid sulphur between U.S. Gulf ports and 
serving on U.S. Ready Reserve Force vessels in South Carolina.
    For the past year, I have served as Chief of Staff for the 
Marine Engineers' Beneficial Association. My experience as a 
merchant marine and at MEBA has allowed me to see personally 
how the United States relies on its maritime industry for both 
military and economic security.
    For more than 200 years, the U.S.-flagged merchant marine 
has contributed substantially to the U.S. economic vitality and 
independence, and helped to underpin America's position as a 
global power supporting trade and security.
    The maintenance of militarily useful vessels and skilled 
merchant mariners in peacetime provides an essential sealift 
capability that has been called upon frequently by U.S. armed 
forces in times of war and in times of national emergency.
    A strong merchant marine also generates tens of thousands 
of American jobs, and hundreds of millions of dollars in 
economic output for the Nation.
    This background has impressed upon me how important it is 
that the Commission remains vigilant in carrying out its 
statutory mandates to protect the U.S. maritime industry 
against any harmful foreign shipping practices.
    Prior to becoming Chief of Staff of MEBA, I served as 
Director of Permits, Scheduling & Compliance with the Office of 
Federal Coordinator for Alaska Natural Gas Transportation 
Projects, where I was a lead negotiator on behalf of the 
Federal Government in securing cost recovery agreements with 
private sector, national and multinational companies.
    I managed and directed coordination among approximately 24 
U.S. Federal agencies, numerous state agencies, and Federal and 
provisional Canadian entities for the permitting and 
construction process to build a large-diameter natural gas 
pipeline that would transport natural gas from Alaska's North 
Slope.
    In this role, I drafted the initial regulatory 
implementation plans for two separate multi-billion dollar 
natural gas pipeline projects.
    I am eager to put my experience to work on behalf of the 
Federal Maritime Commission if confirmed by the Senate. One of 
the Commission's top priorities is working with stakeholders to 
significantly increase the export of goods, the vast majority 
of which will move on ships. Significantly increasing exports 
will require continued coordination and cooperation between the 
government and private sector. That coordination may be focused 
on increasing the availability of shipping containers for mid-
continent agriculture and manufactured goods, and working with 
our overseas trading partners to rectify any limitations to 
waterborne export of goods and services.
    I believe another top priority for the Commission is 
providing regulatory relief to support job growth and the 
economic recovery.
    I would also emphasize the Commission's effort to reduce 
court litigation between parties through its newly established 
Rapid Response Teams in its Office of Consumer Affairs and 
Dispute Resolution Services.
    If confirmed, I will work with the Commission to find fast 
solutions to disputes between shipping lines and customers and 
ensure that cargo keeps moving. Each of these efforts support 
the Commission's role of protecting American exporters, 
importers, and consumers.
    In closing, I again thank President Obama for his 
nomination to serve on the Federal Maritime Commission and the 
Committee for allowing me to appear before you this morning. I 
welcome any questions you may have.
    Thank you.
    [The prepared statement and biographical information of Mr. 
Doyle follow:]

  Prepared Statement of William P. Doyle, Nominee to be Commissioner, 
                      Federal Maritime Commission
    Good morning Chairman Rockefeller, Ranking Member Hutchison, and 
members of the Committee.
    I am honored to have the opportunity to appear before you this 
morning as President Barack Obama's nominee to serve as Commissioner on 
the Federal Maritime Commission, and I thank Chairman Lidinsky for his 
support. If confirmed by the Senate, I look forward to supporting the 
mission of the Federal Maritime Commission to promote a fair, 
efficient, and reliable international ocean transportation system, and 
to protect the public from unfair and deceptive practices.
    Before I proceed, I would like to introduce my wife Amy Doyle, and 
our kids Lillian, Billy, and Katherine. I would also like to introduce 
my mother Virginia and father Dennis, as well as other family members 
and friends from Massachusetts, Pennsylvania, and Washington, D.C. 
Additionally, I would like to extend my gratitude to all of the members 
of maritime industry for their support.
    I am a graduate of Massachusetts Maritime Academy, where I received 
a Bachelor of Science in Marine Engineering, and I am licensed by the 
U.S. Coast Guard as a Marine Engineer. I served aboard various ships as 
an officer in the U.S. Merchant Marine from 1992 until 2002. While in 
the Merchant Marine, I began law school at Widener University in 
Pennsylvania. I spent my winter and summer breaks of law school as an 
engineer on tankships, delivering jet fuel to Israel, running liquid 
sulphur between U.S. Gulf Coast ports, and serving on U.S. Ready 
Reserve Force fleet vessels in South Carolina.
    For the past year I have served as the Chief of Staff for the 
Marine Engineers' Beneficial Association (MEBA). My experience as a 
Merchant Marine and at MEBA have allowed me to see personally how the 
United States relies on its maritime industry for both military and 
economic security. For more than 200 years, the US-flagged merchant 
marine has contributed substantially to U.S. economic vitality and 
independence, and helped to underpin America's position as a global 
power supporting trade and security. The maintenance of militarily 
useful vessels and skilled merchant mariners in peacetime provides an 
essential sealift capability that has been called on frequently by U.S. 
armed forces in times of war and in times of national emergency. A 
strong merchant marine also generates tens of thousands of American 
jobs and hundreds of millions of dollars in economic output for the 
Nation. This background has impressed upon me how important it is that 
the Commission remain vigilant in carrying out its statutory mandates 
to protect the U.S. maritime industry against any harmful foreign 
shipping practices.
    Prior to becoming Chief of Staff for MEBA, I served as Director of 
Permits, Scheduling & Compliance with the Office of the Federal 
Coordinator for Alaska Natural Gas Transportation Projects, where I was 
a lead negotiator on behalf of the Federal Government in securing cost 
recovery agreements with private sector national and multinational 
companies. I managed and directed coordination among approximately 24 
U.S. Federal agencies, numerous state agencies, and Federal and 
provincial Canadian entities for the permitting and construction 
processes to build a large-diameter natural gas pipeline that would 
transport natural gas from Alaska's North Slope. In this role, I 
drafted the initial regulatory implementation plans for two separate 
multibillion dollar natural gas pipeline projects.
    I am eager to put my experience to work on behalf of the Federal 
Maritime Commission if confirmed by the Senate. One of the Commission's 
top priorities is working with stakeholders to significantly increase 
the export of goods, the vast majority of which move on ships. 
Significantly increasing exports will require continued coordination 
and cooperation between the government and the private sector. That 
coordination may be focused on increasing the availability of shipping 
containers for mid-continent agriculture and manufactured goods, and 
working with our overseas trading partners to rectify any limitations 
to waterborne export of goods and services.
    I believe another top priority for the Commission is providing 
regulatory relief to support job growth and the economic recovery. I 
would also emphasize the Commission's effort to reduce court litigation 
between parties through its newly established Rapid Response Teams in 
its Office of Consumer Affairs and Dispute Resolution Services (CADRS). 
If confirmed, I will work with the Commission to find fast solutions to 
disputes between shipping lines and customers and ensure that cargo 
keeps moving. Each of these efforts support the Commission's role of 
protecting American exporters, importers, and consumers.
    In closing, I again thank President Obama for his nomination to 
serve on the Federal Maritime Commission and the Committee for allowing 
me to appear before you this morning. I welcome any questions you may 
have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): William Paul 
Doyle.
    2. Position to which nominated: Commissioner, Federal Maritime 
Commission.
    3. Date of Nomination: February 13, 2012.
    4. Address (List current place of residence and office addresses):

        Residence: information not released to the public.

        Office: 444 North Capitol St., NW, Suite 800, Washington, DC 
        20001.

    5. Date and Place of Birth: July 8, 1969; Boston, Massachusetts.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Amy F. Doyle, Doyle Legal Services, 11 East Market Street, 
        York, PA 17403; Lillian: 5; William, Jr.: 4; Katherine: 9 
        months.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Massachusetts Maritime Academy, BS Marine Engineering, 1992.
        Widener University School of Law, JD Law, 2000.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Chief of Staff: Marine Engineers' Beneficial Association 
        (managerial) (April 25, 2011 to present).

        Director of Permits, Scheduling & Compliance: Office of the 
        Federal Coordinator for Alaska Natural Gas Transportation 
        Projects (managerial) (April 7, 2008-April 22, 2011).

        Deputy General Counsel and Director of Government & Legislative 
        Affairs: Marine Engineers' Beneficial Association (managerial) 
        (January 1, 2002-February 18, 2008).

        Officer in U.S. Merchant Marine serving aboard U.S.-flag ocean 
        going vessels 1992-2001 (managerial).

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        June 2008 and December 2009: Represent the United States on the 
        bilateral trade delegation for the U.S.-Canada Energy 
        Consultative Mechanism meetings where both countries review 
        bilateral energy trade issues and explore mechanisms for 
        strengthening and deepening the largest bilateral energy 
        relationship in the world--under the Obama and Bush 
        Administrations.

        2008-2010: Represent the U.S. in the annual coordination 
        meetings between the U.S. Pipeline and Hazardous Materials 
        Safety Administration and Canada's National Energy Board--under 
        Obama and Bush Administrations.

        October 2006-January 2008: United Sates Trade Representative 
        Served as Liaison on the Labor Advisory Committee (LAC). The 
        advisory committee assists the President of the United States 
        in soliciting and obtaining advice from industry, agriculture, 
        environmental, labor and other non-governmental organizations 
        throughout the trade policy process.

        May 2004-January 2008: United States Department of Labor Served 
        as Representative on the Advisory Committee on Apprenticeship 
        (ACA). ACA is composed of individuals appointed by the U.S. 
        Secretary of Labor.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years: None.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Jewish Community Center of York, Pennsylvania (January 2008 to 
        present).

        MEBA, District No. 1-PCD (September 1992 to present).

        National Marine Engineers' Beneficial Association (Delegate 
        2004-2007) (Member, September 1992 to present)

        Country Club of York, Pennsylvania (June 2011 to present).

        St. Joseph Parish, York, Pennsylvania (January 2006 to 
        present).

        Propeller Club of the United States (2002-7; 2011 to present).

        National Defense Transportation Association (2002-2008).

    None of the aforementioned organizations restricts membership on 
the basis of sex, race, color, religion, national origin, age, or 
handicap.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        MEBA Political Action Fund (PAC Fund)
                2002: $454.30

                2003: $746.35

                2004: $746.35

                2005: $778.80

                2006: $713.90

                2007: $843.70

                2011: $1,000

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
    Outstanding Achievement in Advanced Contracts, May 2000, Widener 
University School of Law.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        Delivered Statement at Public Meeting on Existing Cargo 
        Preference Regulations, Docket Number MARAD 2001-012, before 
        the U.S. Maritime Administration (October 3, 2011).

        Provided Written Testimony to the Marcellus Shale Advisory 
        Commission, Efficient Use of Government Resources: Natural Gas 
        Exploration, Production & Transportation (April 19, 2011).

        First Phase Consolidated Implementation Plan specific to 
        Denali, a joint venture between ConocoPhillips and BP (author) 
        (June 2009).

        Summary of FERC's Order in Response to the State of Alaska's 
        Request on the Open Seasons (author) (August 2010).

        FERC Approves Denali Open Season Plan (author) (June 2010).

        APP filed field work update to FERC (author) (October 2010).

        Denali Files Open Season Plan With FERC (author) (April 2010).

        CERA Week 2010--An Overview (author) (March 2010).

        Alaska's Natural Gas Is Good (author) (February 2010).

        Natural Gas, the Place for Job Creation (author) (January 
        2010).

        LiDAR for Terrain Mapping on the Alaska Pipeline Corridor, A 
        White Paper (co-author) (August 2009).

        First Phase Consolidated Implementation Plan--Alaska Pipeline 
        Project, ExxonMobil/TransCanada (author) (May 2010).

        Summary of Shell Oil's Interest in Alaska: Beaufort Sea 
        Frontier Drilling, Armada Companies (June 2007).

        Rats and Wounds in Bruce Springsteen's Jungleland: A Prelude to 
        the Lawyer as Poet Advocate, 14 Widener L.J. 731 (2004-2005).

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        Delivered Testimony before the U.S. House of Representatives, 
        Committee on Transportation and Infrastructure, Subcommittee on 
        Coast Guard and Maritime, Hearing on the Challenges Facing the 
        Coast Guard's Marine Safety Program, August 2, 2007.

        Delivered Testimony before the U.S. House of Representatives, 
        Committee on Transportation and Infrastructure Subcommittee on 
        Coast Guard and Maritime Transportation, Hearing on the Safety 
        of LNG and the Impact on Port Operations, May 7, 2007.

        Delivered Testimony before the U.S. House of Representatives, 
        Committee on Transportation and Infrastructure, Subcommittee on 
        Coast Guard and Maritime Transportation, Hearing on the Safety 
        of LNG and the Impact on Port Operations, April 23, 2007.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have spent my entire professional career in the transportation 
area, most of which has been in the maritime sector. I am a licensed 
attorney and directly managed cases, disputes, arbitrations, and 
complex transactions in the maritime field of practice. I am a U.S. 
Coast Guard licensed engineer and officer in the U.S. Merchant Marine 
and sailed commercially on vessels in the domestic and international 
trades. In addition, I have served as a Director in the Office of 
Federal Coordinator for Alaska Natural Gas Transportation Projects (a 
Federal agency) with responsibilities that include troubleshooting 
regulatory matters, issues, and concerns among 20-plus state and 
Federal agencies as well as fostering good relations with government 
agencies in Canada.
    If confirmed, I hope to use my professional experience to support 
regulatory relief for the maritime industry, support the growth of U.S. 
exports, and protect the American exporter, importer, and consumer.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed, I will work to assist the Chairman, Inspector 
General, and senior staff in ensuring that the Federal Maritime has 
proper management and accounting controls in place. In this endeavor, I 
will draw on my years of experience as a manager and attorney who 
handled extensive contracting and management issues for governmental 
and private sector organizations. As Chief of Staff recently, I 
spearheaded or managed some 30 contract negotiations with entities 
spread throughout the United States. I made sure the appropriate 
internal personnel were assigned to contract negotiation groups there 
by limiting and reducing dependence on expensive outside professional 
services.
    I also served as a Director for a Federal agency where I managed 
coordinating the Federal permitting activities of over 20 Federal 
regulatory agencies and permitting agencies in the State of Alaska and 
agencies in Canada. In a 2-year period, the office published two 
comprehensive implementation plans that set the regulatory framework
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I plan to maintain a 401K retirement account, Money Purchase 
Benefit Plan (MPB) defined contribution plan, and a Pension Trust Plan 
defined benefit plan with MEBA, my current employer. If confirmed, I 
will resign from my current position of employment and no further 
contributions will be made to those plans by MEBA or me.
    In connection with the nomination process, I have consulted with 
the FMC's designated ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the FMC's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the FMC's designated ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the FMC's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the FMC's designated ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the FMC's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    From 2002-2007, my organization followed and participated in 
discussion groups, task force, and coalitions that pertained to Coast 
Guard Authorization Bills.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of an ethics agreement that I have entered into with the 
FMC's designated ethics official and that has been provided to this 
Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain.
    I was a signatory to a summer rental house in 1995 in Newport, 
Rhode Island. We received a summons for a noise violation. I was served 
with the noise violation and paid the fine.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain.
    I was a signatory to a summer rental house in 1995 in Newport, 
Rhode Island. We received a summons for a noise violation. I was served 
with the noise violation and paid the fine.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  resume of william p. doyle, esquire
Highlights
Chief of Staff--Marine Engineers' Beneficial Association

  <bullet> Troubleshooting

  <bullet> Manage maritime policy and strategy for creating jobs

Energy/Infrastructure--Alaska Natural Gas Transportation Projects

  <bullet> Manage and direct 24 federal agencies in the permitting and 
        construction processes for a large diameter natural gas 
        pipeline that will transport gas from Alaska's North Slope to 
        lower-48 markets

  <bullet> Drafted the initial Implementation Plans and then 
        consolidated and edited four rounds of comments from all 
        participating federal agencies. The Plans were reviewed by the 
        Executive Office of the President and published in June of 
        2009, and May 2010 respectively

  <bullet> At an estimated construction cost of $40 billion the 
        mainline is considered the largest private sector construction 
        project ever undertaken in North America and is expected to 
        create tens of thousands of jobs

LNG Deepwater Port Projects

  <bullet> Managed testimony and personnel advocating for the safe and 
        secure importation of Liquefied Natural Gas to deepwater port 
        terminals off the coast of Massachusetts (Maritime 
        Administration executed deepwater port importation license in 
        2007 on Northeast Gateway, Excelerate Energy). Construction of 
        the offshore $200 Million project and connection to Algonquin 
        pipe line was completed in 2008 and began receiving gas in 2009

Representative for U.S.-Canada Bilateral Energy Discussions

  <bullet> Selected to represent the United States on the bilateral 
        trade delegation for the U.S.-Canada Energy Consultative 
        Mechanism meetings where both countries review bilateral energy 
        trade issues and explore mechanisms for strengthening and 
        deepening the largest bilateral energy relationship in the 
        world--under the Obama and Bush Administrations

Representative, Annual Coordination Meeting U.S.-Canada

  <bullet> Represent the U.S. in the annual coordination meeting 
        between the U.S. Pipeline and Hazardous Materials Safety 
        Administration and Canada's National Energy Board--under the 
        Obama and Bush Administrations

International Shale Working Group--U.S. Department of State

  <bullet> Selected by U.S. Department of State to participate in the 
        Shale Gas Workshop to assess resources, supply options and 
        market conditions--under Obama Administration

Tax-International Trade

  <bullet> Worked directly with IRS and Treasury to comply with world 
        trade issues and international tax regulations between the 
        United States and European Union states such as Belgium so that 
        U.S. citizens do not have to pay double taxes. This effort 
        allowed taxes to be paid in the U.S. only and not in Belgium

Congressional Testimony

  <bullet> Testify before Congressional Committees on energy and 
        transportation matters

  <bullet> Prepare and deliver oral and/or written testimony before the 
        Senate Committee on Commerce & Transportation; Senate Committee 
        on Homeland Security & Government Affairs, House Transportation 
        & Infrastructure Committee, the House Homeland Security 
        Committee, and the House T&I Subcommittee on Coast Guard
Professional Experience
Marine Engineers' Beneficial Association
Washington, D.C.
April 2011-Present

Chief of Staff

  <bullet> Direct and Manage Internal and External Communications

  <bullet> Direct and manage all legislative and administrative 
        strategies

  <bullet> Direct and Manage Business Development

  <bullet> Mange Staff in 16 Branch Offices in United States

Office of the Federal Coordinator (OFC) for Alaska Natural Gas 
Transportation Projects
Washington, D.C. and Anchorage, Alaska
April, 2008-Present

Director of Permitting, Scheduling & Compliance
Responsibilities Include:

  <bullet> Lead negotiator for federal government on securing cost 
        recovery agreements and reimbursable service agreements with 
        private sector national and multinational energy companies such 
        as with ExxonMobil, BP and ConocoPhillips

  <bullet> Manage and resolve conflicts between the private sector and 
        all federal permitting agencies and conflicts that arise 
        between the federal agencies

  <bullet> Natural Gas Pipeline Federal Permits Matrix: Principal 
        developer and manager of a the first of its kind ``Permits 
        Matrix'' to help track and coordinate all federal agency 
        activities including the environmental impact statement process 
        and subsequent agency approvals of an Alaska natural gas 
        pipeline. Managed contracted staff from the U.S. Department of 
        Energy, Argonne National Laboratory and Los Alamos National 
        Laboratory

  <bullet> Developed and lead the Interagency Government Team that 
        meets monthly to discuss regulatory progress and developments 
        on the pipeline projects. The Interagency Government Team is 
        comprised of representatives from 24 federal agencies including 
        FERC, DOT-PHMSA, Department of Energy, EPA, U.S. Army Corps and 
        Department of Interior agencies. The applicants, state agencies 
        and Canada agencies attend the meetings upon invitation

  <bullet> Establish and manage relationships with Government of Canada 
        including within the Provinces

MEBA
Washington, D.C.
January, 2002-February, 2008

Director of Government and Legislative Affairs

Deputy General Counsel

Responsibilities Included:

  <bullet> Directing the day to day legal affairs of 16 branch offices 
        situated on the East Coast, Gulf Coast, West Coast and Great 
        Lakes. This included conducting collective bargaining 
        negotiations; grievances, arbitrations and drafting contracts

  <bullet> Manage and direct all public relations, internal and 
        external communications

  <bullet> Secure and manage teams of contractors and consultants

  <bullet> Drafting contracts between labor and the private sector in 
        response to requests for proposals to manage hundreds of 
        millions of dollars in assets owned by the federal government

  <bullet> Drafting and/or authorizing all official comments in 
        response to Federal Register notices Interacting with all 
        levels of the federal and state government

  <bullet> Providing testimony before the U.S. Congress

U.S. Coast Guard Licensed Marine Engineer
1992-2001

  <bullet> U.S. Coast Guard License for Gas Turbine, Steam and Internal 
        Combustion Engines

  <bullet> Officer in the United States Merchant Marine: Marine 
        Engineer

  <bullet> Serve as Marine Engineer on privately operated ocean-going 
        vessels transporting commercial, petroleum, chemical and 
        military cargo worldwide

  <bullet> Stationed in Diego Garcia, British Indian Ocean Territory 
        (BIOT) on ammunition ships that were prepositioned in the 
        region for support in the Somalia and Kosovo conflicts

  <bullet> Responsible for the safe and secure transportation of liquid 
        fuels, chemicals, U.S. military equipment, ammunition, dry 
        cargo and environmental compliance

  <bullet> During law school winter and summer breaks delivered jet 
        fuel on tankers to Haifa, Israel and served on U.S. government 
        owned Ready Reserve Fleet vessels in Charleston, South Carolina
Security Clearances
Top Secret Security Clearance, U.S. Office Personnel Management
Education
October, 2006: Graduate of Academy of WTO Law & Policy Institute of 
lnternational Economic Law, Georgetown University Law Center

May, 2000: Juris Doctor, Widener University School of Law, Harrisburg, 
Pennsylvania

May, 1992: Bachelor of Science, Marine Engineering, Massachusetts 
Maritime Academy; U.S. Coast Guard Licensed Marine Engineer
Licensed Attorney/Bar Associations
    Massachusetts and Pennsylvania

    The Chairman. Thank you very much.
    I want to point out that we're very fortunate on this 
committee to have two senators from Arkansas. And everybody 
wants to be in this Committee, so if you get selected for this 
Committee, you have got to be absolutely brilliant.
    And, so Senator Pryor and Senator Boozman fit that 
category, and they will be asking questions too. And I welcome 
them.
    Dr. Falcone, you're going to have a huge amount of time 
spent on cybersecurity, I do believe. And OSTP coordinates a 
lot of that, with research and development, with the other 
factors.
    Now, we have a situation in the Congress where we're really 
not making a whole lot of progress on cybersecurity, and it's a 
very distressing situation.
    And it comes down I think to whether or not some people who 
feel very strongly that we should cover critical infrastructure 
because that's sort of the heart and soul of what's at stake in 
this country through hacking.
    And others feel that we absolutely should not, and that it 
would be government reach of rules and regulations, things of 
this sort. But they're heartfelt positions.
    Putting you just a bit on the spot, but it's a very, very 
important question, because we're just not moving this bill. 
And there's no excuse for that. Do you have any thoughts on 
what I just said?
    Dr. Falcone. Thank you, Senator.
    Yes, of course, cybersecurity is a very important topic 
that has very critical, technical dimensions as well as a lot 
of unchartered policy space.
    And I think we can all acknowledge that what our objective 
is is a secure, open and innovative Internet, cyberspace, that 
preserves the freedoms of our citizens and protects their 
safety.
    OSTP's role and engagement has been in the research and 
development area. As you know, there was a strategic plan that 
OSTP was involved in, not me, personally. Let me say that this 
is not an area that I have been working on personally at OSTP 
in my assignment on loan from Sandia.
    But the trustworthy cyberspace strategic plan was released. 
It lays out a set of thrust for research and development. That 
work, and OSTP's role, has been in a couple of ways.
    One, participating in the discussions within the Executive 
Office of the President. Also participating through the 
National Science and Technology Council that prepared this plan 
and oversees some of the research activities that go on.
    And, third, as a part and engagement with the larger 
research community. So through research and development, I 
think we are going to be able to bring some tools to help meet 
those objectives that we all have.
    The Chairman. That was a skilled answer.
    I just want to ask one question of each, and go through 
them, and then I'll come back for further questions.
    Ms. Robinson, you've been focused on implementing the 
Consumer Product Safety Improvement Act. The Commission's been 
hard at work and has implemented almost all major provisions of 
the law.
    Now, you've hired, or there have been hired, over 100 
additional staff, probably because of the Act. This has 
significantly increased surveillance of unsafe products at the 
border.
    So a lot of progress has been made. My question to you is, 
what other priorities do you have for the Commission? And, in 
looking to the future, in what ways can the Commission improve 
consumer product safety?
    Ms. Robinson. Thank you, Senator.
    I agree with you that the progress that's been made under 
the Consumer Product Safety Improvement Act is so incredibly 
impressive.
    I do think that the focus, once the 104 rules are in place, 
is going to have to move to enforcement, and particularly with 
keeping products out of this country that shouldn't be here in 
the first place.
    So I think that's going to be the next challenge, and I 
know that the other commissioners and the staff share that 
concern and are working on it.
    We now, as you well know, are monitoring 15 of our ports. 
We have 300 plus. But I know that that enforcement and making 
sure that American manufacturers are on the same even playing 
field with foreign manufacturers is going to be a very big part 
of the effort going forward.
    And then, I guess, the second area I would say is in 
outreach and education. Because, obviously, social media tools 
and the website are a huge move forward in that regard. But 
there are other parts of our society, obviously, the poor, the 
rural, the elderly, whom we are not reaching through those 
efforts. And so, I think that is going to be very much a part 
of the thrust going forward.
    The Chairman. I thank you.
    Chairman Lidinsky, you provided professional and forward-
thinking leadership at the Commission, and we're all very aware 
of that, and proud of it.
    What do you see, frankly, is your, as the major things that 
you've been able to do, and what do you see are the major 
things that yet remain to be done that you have a chance of 
doing?
    Mr. Lidinsky. Thank you for the question, Mr. Chairman.
    I think the major thing that I am most proud of is the fact 
that after two and a half years of no leadership at the 
Commission, that we've got the ship sailing again.
    And we got some, and some might disagree what direction 
we're sailing on certain issues, but we're moving forward.
    Shortly after I was confirmed, the Journal of Commerce 
shipping paper in New York had an article where it said, the 
Commission was dead in the water, it was irrelevant, it didn't 
take up any issues.
    About 3 months later, they said we were on steroids, we 
were moving so fast. So I would think we've set a good agenda. 
I mentioned about getting rid of the antiquated tariffs.
    Another issue we have before us was for 20 years, the 
Commission had not revised the bonding requirement for cruise 
vessels. And cruise vessels were living with 1990 bond limits. 
We've doubled those limits. We have a proceeding underway, and 
we're looking at additional means of regulating the cruise 
lines.
    We have in the consumer affairs and safety office a lady 
who's a specialist in dealing with cruise complaints. So we 
tried to help the public in that regard as well.
    But I think the final big picture is in the years ahead, 
should I be confirmed, is reconciling our needs for water-borne 
commerce with the rest of the world.
    You know, 96 percent of our water-borne commerce is carried 
on foreign flag vessels. So we've got to make sure that our 
people are protected. We got to make sure that there is a very 
strong international maritime regime that we can be part of.
    The Chairman. Good. Thank you.
    Mr. Doyle, just to round it out. I've gone over my time a 
bit.
    You have repealed the antitrust exemption for ocean 
carriers in 2008. The major ocean carriers are no longer 
allowed to collude to set rates.
    Now antitrust and competition issues are important to me 
and to West Virginia, and I've made a 26-year career of not 
making any progress on that subject. But I try and will 
continue to.
    The FMC, this year, released a study on the effect of 
Europe's repeal of antitrust exemption on shipping rates with 
China. And interestingly, it found out that there was very 
little effect at all.
    There was some sort of variation. Rates could be volatile 
from time to time, but, basically, they sort of stayed the 
same. So, Mr. Doyle, why should the U.S. permit ocean carriers 
to collude on rates if collusion has a minimal effect on the 
price either way?
    And, second, if you're confirmed, do you recommend any 
further studies of actions on ocean carrier immunity from the 
Federal Maritime Commission?
    Mr. Doyle. Thank you, Senator.
    If confirmed, I would do everything that I could do to help 
with, you know, analyzing the facts that came back on the EU 
study. Now, I do know that the EU study came back and said that 
there were minimum impacts.
    But with respect to the United States, on the antitrust 
immunity, I think we're still going through the facts, or the 
office is still going through the facts that came back, and 
recommendations.
    Antitrust immunity is something that is left for Congress. 
And if Congress were to come up with some legislation that was 
enacted with respect to the antitrust immunity, the FMC would 
abide by what Congress states and enacts into law.
    As a regulator, when it comes to antitrust immunity, it's 
up to Congress to do it, and we will follow the direction of 
what Congress mandates.
    The Chairman. I respect your answer.
    Senator Hutchison?
    Senator Hutchison. Thank you. I'm not sure I'm going to be 
able to ask all the questions that I need in our short time. 
But I want to start with Ms. Robinson.
    Some of the earlier decisions on the Consumer Product 
Safety Improvement Act have been three to two decisions, and 
have avoided the cost-benefit analysis, on the grounds that the 
statutory language does not require the inquiry, and that 
conducting the analysis would be time consuming.
    Now, that is an important part of the gist of the Act 
because we all want safety regulations to be put in place that 
will be effective. But cost-benefit analysis is certainly an 
important part of that from my standpoint.
    How do you feel about the cost-benefit analysis 
requirement, and would you adhere to the spirit of the law that 
makes that a component of a regulation?
    Ms. Robinson. Thank you, Senator.
    I think that cost-benefit analysis is obviously very 
important where it's appropriate. And I do know that a lot of 
that has been dictated by Congress. And I very much will follow 
those dictates.
    But I do understand the spirit of your question, I think, 
as well. And while I think everyone in this room wants to make 
sure our products are safe, particularly for our children, it 
is critical that we make sure that America continues to be a 
country in which it's a good place to manufacture products.
    So I think that balance is an important one, and I 
certainly, if I'm confirmed, will very much follow the spirit 
of the law in that regard.
    Senator Hutchison. Thank you. I appreciate that.
    And, as I said in my opening statement, I think the 
Commission has taken a turn for the better in its coordination 
and trying to come to terms where it's not just 3-2 decisions. 
And I hope that you would pledge to be a part of that kind of 
working toward consensus where possible.
    Ms. Robinson. Absolutely, Senator. And I completely agree 
with you. I mean the unanimous decisions aren't the ones that 
end up in the newspaper.
    But I really view the Commission as a quasi-judicial forum. 
I think that politics should be left on the doorstep, and that 
we should all work toward safety in our products which is the 
mission of the Commission.
    Obviously, with five people who are smart and capable, 
you're going to have disagreements. I certainly think my 
experience on the Dalkon Shield Trust with working with four 
other very smart, capable people--there were strong 
disagreements. But we were able to reach consensus because we 
knew what our mission was. And I expect that to be the same at 
the Commission. And I have met three of the four commissioners. 
I'm extremely impressed with them.
    Anne Northrup and I have not met only because we haven't 
been in D.C. at the same time, but we will soon, and I very 
much look forward, if confirmed, to working with all four of 
them.
    Senator Hutchison. OK. Let me ask you one more question, 
and then I hope I can go to Dr. Falcone.
    The Consumer Product Safety Improvement Act established 
that the Commission would put together a publicly available 
database on safety of products, which I thought was very good.
    In fact, I will have to say that Mr. Pryor sitting here was 
the architect of this law, and we had a lot of back and forth, 
and I will say came up with a lot of compromises in this bill.
    One of those is this database that I think is very good if 
it is used correctly. My question to you is, sometimes there 
have been things put on it, or comments put on it, without any 
filtering for accuracy.
    How would you propose, as a commissioner, to assure that 
what is put on it does not have information that isn't accurate 
so that it can be a true picture for the consumer?
    Ms. Robinson. Well, my understanding, Senator, is that 
there are pretty strict constraints on what's going to be put 
on the website. And, certainly, with the amendments that were 
made, the companies are given even a larger time parameter 
within which to respond.
    I think it's very important. I agree with you, Senator, 
that the information on the website be accurate. I'm not 
certain exactly of what you're speaking, but certainly, if I'm 
confirmed, I will work very hard to make sure of the accuracy 
of the comments that are put on the website.
    Senator Hutchison. Well, what's happened is that there 
needs to be some way to show when it is a consumer that has a 
comment versus a competitor of the product, someone, another 
company that makes the product.
    And so, sometimes, things are going in that are suspected 
to be from a competitor as opposed to a real consumer, and it's 
hard I know to get the information out but also to assure that 
there's accuracy.
    And I would just ask that you look at that. Let me quickly 
see if I can talk to Dr. Falcone because I'm intrigued, 
intrigued of course, that you got the first mechanical 
engineering degree as a woman from Princeton.
    And I'm so pleased that you're going to take on encouraging 
other girls to come up and want to be engineers and 
mathematicians and scientists because that's something I have 
tried to do as well.
    But let me ask you from the Sandia experience and then 
where you're going into security. I'd like to know your 
priorities and also if nuclear testing safety is one of the 
things that you would be looking at from your Sandia 
experience, and what are the other priorities in defense, in 
national security for the science function.
    Dr. Falcone. Thank you, Senator.
    Let's see, with respect to priorities, I think overall the 
key priority I think is making sure that we've got science and 
technology, a set of capabilities in this country that are 
first class and well matched to the country's resources.
    And, specifically, the work at OSTP, our director often, 
John Holdren, often says that our business is the science and 
technology for policy and policy for science and technology.
    And with respect to national security and international 
affairs, in the policy domain, what I would seek to do, were I 
confirmed for this position, is to ensure that we have the very 
best technical information as a part of policy discussions in 
important areas like cybersecurity which we just talked about, 
defense against biological threats, nuclear security, aspects 
of our military and intelligence capabilities that we have.
    And also to work in this policy for science and technology 
to make sure that our policies related to the science and 
technology enterprises that supports national security. So our 
industries, so our small businesses, the universities that are 
engaged in supporting, and the dedicated Federal institutions 
which I have experience from in just one.
    That those are sorted out so that they, that many of the 
processes that we use were created post-World II, post-Sputnik, 
and so what we have to be sure of is that the processes and 
policies make that whole enterprise well-matched for the future 
challenges.
    So those are the two areas I would seek to work in.
    Senator Hutchison. Thank you. I hope that if I have time in 
the second round that I'll be able to ask you, Mr. Lidinsky, 
but thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Hutchison. Senator 
Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman.
    I'd like to ask Mr. Doyle and Mr. Lidinsky to follow up 
kind of on my statement. First of all, thank you for your 
willingness to serve in this capacity.
    Obviously, one of the big things that we face is 
competition. We have the Panama Canal expansion. We have lots 
of infrastructure improvement being made in the northern, in 
Canada.
    And so since the Harbor Maintenance Tax has been in place, 
we have used that money for dredging and various things, but 
the majority if the money goes unspent. In fact, in 2011, there 
was a surplus of $6.3 billion.
    So my question is, as we see the Canadian rail system make 
improvements, as we see these Panama Canal improvements, all of 
the competition for improving freight lines means that we have 
to continue to be competitive on the U.S. side.
    So, how do you think the ports can be more competitive in 
improving their infrastructure, using the Harbor Maintenance 
Tax or making some changes to it that would help us continue to 
be competitive in the future?
    Mr. Lidinsky. Well, as the Senator mentioned, ports are one 
of the most competitive systems in our country and the 
competition between U.S. ports is vicious.
    When you cross international borders, however, it adds 
another dimension to this issue. And that's why the Commission 
has voted 5 to nothing to take up the issue of Prince Rupert 
and the Canadian diversion that's taking place there.
    The Commission has been criticized for doing that, but 
we're moving full speed ahead. We've received nearly 100 
comments of detailed responses. We hope to finish the study by 
the end of spring, publish it early in the summer.
    But the Senator also has put her finger on one of the key 
issues, and that is the use of the harbor maintenance tax, 
particularly, as it could support infrastructure and intermodal 
facilities.
    A lot of people we are finding are using the Canadian 
alternative because they complain of port delays and complain 
of ancient infrastructure in our ports. That's why a bill like 
I think the Committee has S. 371 before it to fund these ports, 
use some of that harbor maintenance fund to help our ports 
streamline their handling of the cargo.
    And that will go a long way in the competitive realm.
    Senator Cantwell. Thank you. Mr. Doyle, did you want to 
comment on that?
    Mr. Doyle. If confirmed, to the extent that the FMC can 
provide objective facts and data with respect to the ports.
    One thing I would point out is that I believe that there's 
a bill, H.R. 104 which has strong bipartisan support in the 
House, and that's for the proper use of the harbor maintenance 
fund, using the harbor maintenance fund for its intended 
purpose.
    And, you know, if that were to get enacted into law to the 
extent that the Federal Maritime Commission could help out and 
provide objective facts and have some role in it, I would be 
bound by that law.
    Senator Cantwell. Well, I think the issue is that we have 
an existing fund that's being underutilized, and we have 
incredible competition coming at us.
    And so the question is will you two lead the charge in 
looking at ways to maintain the competitiveness of our ports 
and ways to innovate. Because, if we don't, I guarantee you, 
the infrastructure investment, I'll give you a different 
example.
    So the Port of Vancouver has the second largest grain 
elevator in the world there. When I asked him why do we have 
the second largest grain elevator in the world, and they said 
because the rising middle class in Asia wants to eat beef. And 
if they want to eat beef, they need our grain.
    Well, that's a positive story for us. Now, the dredging 
that was done there obviously allowed us to get larger ships 
in. But there are other examples of where if we're just 
approaching it from a dredging perspective, then we're only 
looking at one piece of the equation.
    That is not the number one or two ports in our state. It 
was a very important port. But all of these things, we have to 
realize with the global economy around the world, lots of other 
nations are going to cut down their transportation time.
    And then somebody's going to make a decision as it relates 
to the Asian market based on that. So the question is, are we 
going to innovate and continue to move forward.
    Mr. Lidinsky. Well, the Senator again is correct, and 
that's why the Commission's taken a leadership position in this 
matter.
    Two containers leave Shanghai, China headed for the United 
States for Akron, Ohio. One comes through Prince Rupert, Canada 
and pays no harbor maintenance tax because it crosses the 
border in Chicago or Great Falls, Minnesota.
    The other container comes through Seattle, or Oakland, and 
pays harbor maintenance tax. So in the competitive world again 
of shipping, shippers know costs, and this puts our country at 
a disadvantage.
    That's why we're taking a very strong look at this and will 
come to you with recommendations in that area.
    Senator Cantwell. Well, thank you, Mr. Lidinsky. So, Mr. 
Doyle, I detect a hesitancy on your part on this issue.
    Mr. Doyle. I don't have the benefit of seeing all the data 
that the Federal Maritime Commission has gathered at this 
point. But I would like to, you know, stay with the statement 
on Mr. Lidinsky.
    When the report comes out at the end of the summer, we 
could take a strong look at what is going on between the 
competitiveness, and whether or not that Harbor Maintenance Tax 
in the United States side as opposed to Prince Rupert is a 
significant problem.
    Senator Cantwell. Well, I think just as in the private 
sector, whether you're Boeing or Microsoft or Starbucks, you 
have to continue to innovate to stay competitive.
    On our government's side, we have to do the same thing. We 
have to have modernization if we're going to stay competitive 
in these markets. So I thank the Chairman, and I thank the 
witnesses.
    The Chairman. Thank you, Senator Cantwell. Senator Pryor.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman.
    And if I may, I'd like to start with you, Ms. Robinson. I'm 
delighted that you are interested in serving on the CPSC. I'd 
like to follow up with a couple of points that Senator 
Hutchison made a few moments ago.
    First, on the database. My understanding sounds like it's 
consistent with yours that we tried very hard with the 
parameters of the database to make sure that there weren't 
competitors going on there and, you know, a lot of false 
information on there.
    But I think maybe what we ought to do, if it's okay with 
Senator Hutchison, is maybe your staff, my staff and maybe CPSC 
database people can sit down and let's look at what they really 
have there. And I think we put the parameters on there, and I 
just hope that it's working as designed.
    Senator Hutchison. I agree.
    And I think what we should do is just ask her if she will 
also take this on as an area of interest because I think it's 
in everyone's interest for us to have that data base.
    Senator Pryor. Right.
    Senator Hutchison. It was your concept. I thought it was 
great.
    Senator Pryor. Thank you.
    Senator Hutchison. But you do need to make sure that you're 
not infiltrated with competitors that are not sincere.
    Senator Pryor. That has always been the concern.
    I think that, my understanding is, at least initially, the 
bigger problem was more consumers misidentifying products or 
getting the models wrong, or the manufacturers wrong, or 
something like that.
    But I would like to, I think it would be helpful if we sat 
down with CPSC folks and talked about that. So that would be 
great. Thank you.
    Senator Hutchison. Great.
    Senator Pryor. And we would love for you, once you get on 
the Commission, to monitor that and make sure that stays the 
way it should.
    Another thing that Senator Hutchison mentioned a few 
moments ago is the 3-2 decisions. And I do agree. I think that 
we should, that the CPSC should work very, very hard to avoid 
3-2 decisions if possible. Try to find consensus and get to 4-
1, or 5-0 decisions.
    I think that's just better all the way around. I will say 
this though that I was very disturbed and concerned with the 
headline I saw in the Washington Post back in November where it 
says that, the headline said, partisan gridlock threatens the 
CPSC.
    And it was basically a story about how there's a divide 
there. And I would hope that the CPSC and you would always 
remember that when that bill passed, CPSIA passed here in the 
Senate, it was a huge bipartisan vote. Same within the House.
    And I would hope that the CPSC would work in a bipartisan 
way. I would hope that the CPSC would reflect that 
bipartisanship that we had in the House and the Senate.
    And I will say that at least one member, one commissioner, 
maybe two, have blogs. I don't think that's appropriate.
    I don't think our CPSC Commissioner should have blogs. I 
know that one blog in particular had a political cartoon of a 
Congressman, featuring a Congressman. I don't think that's 
appropriate.
    I think that's a poor use of very limited government 
resources. I hope you will never have a blog. I just don't see 
how that's helping consumers.
    The mission of that agency is to make sure that we have 
safe consumer products and that we do it in a very fair and 
sensible way.
    And I think, I'm hoping with the CPSIA and even with this 
amendment that we recently passed, that we are accomplishing 
that.
    And one of the things that I think we all learned as we 
worked on this legislation a few years ago, is we heard from 
consumer groups. We heard from manufacturers. We heard from 
businesses.
    We just heard from everybody under the sun it seemed like, 
but one thing we learned is that no one is right 100 percent of 
the time. You know everybody sees things a little differently, 
and there are mistakes that are made. And there are ways to fix 
those.
    But that kind of leads back to you with your work on the 
Dalkon Shield cases. And I'm curious about you working together 
with, you mentioned a group, of what, four others I believe you 
said.
    How do you think that experience prepared you to serve on 
the Consumer Product Safety Commission?
    Ms. Robinson. Thank you for the question, Senator.
    I completely agree with you that the mission of this 
Commission is so critically important.
    And the idea of politics entering into it, I don't think is 
anything anybody in this room or in Congress has in mind.
    I think that my experience with working with the Dalkon 
Shield Trust and the completely transparent way in which that 
was run, with the Federal Judge overseeing it, we were able to 
run it in a way that was responsible enough that we not only 
compensated people who had injuries ranging from, ``I used it 
and I think I may have been hurt,'' to literally, deaths, 
infertility and brain-injured children.
    We were able to dispense that money very fairly, and at the 
end do a 90 percent pro rata distribution because of the 
responsible way in which we ran the trust.
    And I think that experience with working with four, I was 
the only practicing lawyer on the Trust, and we had four very 
distinct personalities and people with agendas, and we just 
worked it through.
    And we remained friendly as we did it, but I think there's 
something to be said for collective wisdom. I assume that 
Congress knew what it was doing when they put five 
commissioners in instead of one.
    And respecting the opinions of others and sharing those 
views and trying to come to consensus is what I would hope that 
the Commission would do. And if I'm confirmed, I very much will 
work toward that goal.
    Mr. Pryor. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Pryor. Senator Boozman.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you.
    Ms. Robinson, you mentioned that Section 104 rulemaking 
would be one of your priorities if confirmed.
    As you may be aware, one of the recent rulemaking rules 
under this section had to do with children's cribs. And, you 
know, the rulemaking wasn't perfect.
    Some members of the industry had concerns that the 
Commission's action did not adequately address their concerns 
about unsold inventory.
    I got involved a little bit in the sense that I know some 
of the daycare centers had bought mattresses and then, you 
know, had immediately to get rid of them. And I think 
subsequently then had to get rid of those.
    I guess, how do you deal with that? How do we make this 
process better so that in this particular case and I think I 
can mention others, we all could, where you had similar things.
    In this particular case, the safety of the children is the 
paramount issue. But how do you do that and yet make it such so 
that you don't have all of this adverse economic, adverse 
economic activity happen.
    And many times people are out there working so hard just to 
make a living and this and that, and then it so negatively 
impact them in this very difficult economy that we're in right 
now.
    Ms. Robinson. Thank you for that question, Senator.
    My understanding of the crib safety standards is that, 
first of all, everything with respect to that, both the 
standards and the deadlines and the extension of the deadline 
with respect to the public facilities were unanimous decisions 
which tells me something about the consideration that went into 
it.
    Obviously, nobody's going to disagree with the statement 
that if there's one place we should be able to make sure our 
youngest, most vulnerable citizens are safe is in their cribs.
    And those standards I think were very important and as I 
understand the standard, I think we can all be proud that we 
have the highest safety standards for cribs anywhere in the 
world.
    That having been said, your concern that you bring up is a 
very real one. And my understanding is that the people at the 
Commission very much took that into consideration in extending 
the deadline for the public facilities to comply with it, and 
are trying the best they can to get the word out through the 
various trade organizations and through various other sources 
to try to make sure that the word gets out there so that you 
don't end up with the situation that you described that I would 
have equal concern with the investments being made by these 
small businesses and then having to do away with the products. 
So I think my understanding is that the staff at the Commission 
and the commissioners have been working very hard to make sure 
that that problem is addressed, but at the same time have these 
safety standards that we're all so proud of.
    Mr. Boozman. Good.
    And, again, I think that we need to be mindful. I think 
sometimes we put commissions in a situation where, and they're 
following their procedures, that they have to do things 
sometimes that they don't necessarily want to do.
    You know, that there's not some common sense. So again, you 
know, hopefully we can help you, you know, find the flexibility 
that the Commission needs to be able----
    Ms. Robinson. And I appreciate that, Senator.
    My understanding is that if I'm confirmed, I can look 
forward to working very closely with the members of this 
committee to provide just that kind of flexibility. And, if we 
need it, that you are the people to come to.
    And I understand that's what happened with the amendments 
that were put through last year, is that those concerns were 
raised.
    Senator Boozman. Thank you, Mr. Chairman.
    The Chairman. I have other questions, but I'm going to 
submit them for the record, and that's just simply because of 
my schedule which seems to have been poorly attended to this 
morning.
    I think Senator Hutchison, however, has a question.
    Senator Hutchison. Well, I just want to say that it was 
Senator Cantwell who really brought up the question I was going 
to ask of our two Maritime Commission nominees.
    And it is on the Harbor Maintenance Tax, and I am the co-
sponsor with Senator Levin of the bill that would assure that 
the Harbor Maintenance Tax is used for harbor improvements and 
keeping us competitive.
    And it is my understanding that you have been investigating 
the diversions to Canada and Mexico because of problems in that 
area.
    And what I would just ask is if you would submit to us the 
results of your investigations, or anything that would help us 
in assuring that we can pass the legislation that directs that 
harbor maintenance fund to be used for the improvement of our 
ports and harbors.
    Mr. Lidinsky. We certainly will, Senator. And as I said, 
we're looking to finish the study late this spring and publish 
it early this summer.
    Senator Hutchison. Well, it's very important. All of us who 
have coastlines, including the Gulf of Mexico where I have one, 
and we feel that we are in a strong position to get business 
from the Panama Canal.
    So I want to make sure that we have the use of our funds 
that are collected from the users for those purposes. So we'll 
certainly look to that, and Senator Levin and I are working on 
trying to finalize that legislation for passage.
    Mr. Lidinsky. Thank you, Senator.
    Senator Hutchison. Thank you.
    The Chairman. Thank you, Senator Hutchison. Senator 
Boozman, do you have any further questions?
    Senator Boozman. No.
    The Chairman. All right. I did not say what others have 
said, which should always be said, and that is that working for 
the Federal Government is hard. You can do much better 
financially elsewhere.
    And the whole concept of public service I think is what 
drives us all here. But, nevertheless, that's easy to say. 
People have conflicts in their lives and children and financial 
problems and all kinds of things.
    So I really want to thank you for putting yourself up for 
nomination just as an act of loving your country, and the fact 
that Dr. Falcone you had two of your relatives who worked in 
the coal mines.
    With that I thank you all, and this hearing is adjourned.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]
                            A P P E N D I X

      Response to Written Question Submitted by Hon. Tom Udall to 
                          Patricia K. Falcone
OSTP role in bringing scientific perspective to policy
    Question. Dr. Falcone, could you share your thoughts on the proper 
role for the science advisors at OSTP in advising the President on 
national security matters? What perspectives can OSTP advisors add to 
help inform national security related decisions?
    Answer. At the Office of Science and Technology Policy (OSTP), we 
often speak of the role of OSTP and its staff relative to two 
fundamental responsibilities: first, providing science and technology 
for policy and, second, providing policy for science and technology
    The first role refers to the responsibility of OSTP to ensure that 
every issue presented to the President contains the best possible 
technical information. Many of the President's policy decisions, of 
course, will not turn exclusively on the technical data. The reality is 
that in the types of difficult national security issues that end up in 
front of the President, the facts are often very complicated as are the 
relevant technical systems. For these national-security-related 
decisions, we must distill the technical issue to its essentials, 
including its national security operational implications, and fully 
convey the degree of uncertainty or ambiguity associated with even the 
wisest technical judgment on the matter. In addition, OSTP must play a 
leadership role in making connections with experts inside and outside 
of the Federal Government to assure the best technical insights are 
available to support policymaking for both well-established issues and 
for those that suddenly emerge and demand access to new technical 
expertise and perspectives.
    The second role outlined above for OSTP and its staff is to provide 
``policy for science and technology.'' OSTP, working with the broader 
S&T community, catalyzes policy to assure that we nourish the highest 
quality of science and technology in the United States, for national 
security and other purposes.
                                 ______
                                 
Response to Written Question Submitted by Hon. Kay Bailey Hutchison to 
                          Patricia K. Falcone
    Question. This year, the President requested $400 billion in 
funding for Federal research and development (R&D), but deficit 
reduction may limit defense budgets in the near term. You mentioned in 
your testimony that priority areas in national security and 
international affairs include cybersecurity, defense against biological 
threats, nuclear security, and aspects of our military and intelligence 
capabilities. Can you elaborate more specifically on which programs 
within these areas are most important to for defense and security R&D?
    Answer. Science and technology activities in support of critical 
national security domains such as cybersecurity, defense against 
biological threats, nuclear security, and aspects of our military and 
intelligence capabilities are composed of many programs funded by 
multiple departments and agencies, and performed by technical experts 
inside the government, at universities, and in the private sector. 
Selection of specific programs within the large portfolio is via a 
prudent and iterative process involving deep understanding of the 
mission challenges, the behavior and capabilities of our adversaries, 
technical judgments, and quality of technical ideas and program 
execution. Within the Federal R&D portfolio of $140.8 billion proposed 
in the 2013 Budget, we must set priorities in order to identify the 
most important programs with the maximum potential to improve our 
national and homeland security. Interagency coordination, external 
review, collection of operator and other stakeholder input, and 
prioritization are the key tools for ensuring the Nation's resources 
effectively and efficiently yield the desired mission benefits from the 
specific programs carried out in the science and technology enterprise. 
OSTP works with Federal agencies to assess changing threats and to 
recalibrate national and homeland security R&D investments to respond 
to them and to available resources.
    Overall, the most important factor for defense and security R&D in 
this difficult budget climate is investment focused on keeping the 
national security research and development enterprise healthy, 
efficient, and responsive. Quality in the enterprise requires necessary 
resources; an experienced, highly capable, and high-performing 
workforce; and laboratory facilities that provide modern, state-of-the-
art experimental and computational capabilities focused on critical 
technology needs for the long term and with the ability to respond to 
urgent current needs. Our laboratory infrastructure is critical to 
staying at the technical forefront as well as attracting the best and 
brightest emerging from our next generation of scientists and 
engineers. National security threats are dynamic and capricious; to 
continue to meet the threats, we must be vigilant in maintaining the 
quality of the people, capabilities, and facilities in our national 
security research and development enterprise.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                          Patricia K. Falcone
Question 1. Cybersecurity
    Ms. Falcone, as you may know, the issue of cybersecurity has been 
bouncing around the halls of the Senate for a while now. We keep 
hearing that legislation to enhance cybersecurity will soon be on the 
Senate floor for debate. I understand OSTP's National Security office 
is responsible for promoting cybersecurity through a research program.

    Question. Could you provide a more in-depth description of OSTP's 
role with respect to cybersecurity? What does this research program 
entail? How should the program fit into comprehensive cybersecurity 
legislation?
    Answer. Continued investment in cybersecurity research and 
development is the key to ensuring that we are on track as a nation to 
develop innovative technical tools and capabilities to address cyber 
threats. Last December, based on the work of researchers across the 
nation, OSTP issued a comprehensive Federal cybersecurity research and 
development strategy entitled Trustworthy Cyberspace: Strategic Plan 
for the Federal Cybersecurity Research and Development Program which is 
available at the whitehouse.gov website. The strategy outlines four key 
cybersecurity R&D themes for our coordinated Federal R&D agenda 
including:

  <bullet> designed-in security--designing software systems that have 
        inherent resistance to cyber-attacks, and the self-awareness to 
        understand their own vulnerabilities

  <bullet> tailored trustworthy spaces--providing specific assurance 
        levels in cyber subspaces regarding identity or authentication

  <bullet> moving target--making attacks more difficult by making our 
        own systems more dynamic and less predictable

  <bullet> cyber economics and incentives--exploring ways to incent 
        secure cyber behaviors and developing performance metrics

    On the basis of this strategy, we are focusing the scientific 
community on a common set of problems, leveraging and targeting Federal 
R&D investments and, importantly, accelerating the pace of 
transitioning the results of our Federal R&D into operational use both 
for national security and commercial systems. Progress in this work 
will be tracked and reviewed, and the strategy updated as needed. 
Endorsement of a national research and development effort in the domain 
of the science and technology of cybersecurity should be a part of 
comprehensive cybersecurity legislation.
Question 2. Terrorism
    Ms. Falcone, I understand that OSTP's National Security office 
develops new advancements in science and technology that can be used to 
prevent, detect, and minimize the impacts of terrorist security risks 
involving biological weapons. Many experts on terrorism believe that 
the risk of an effective terrorist attack using biological weapons is 
relatively low, due to the extreme difficulty both in making such a 
weapon and deploying it.

    Question. Could you discuss the risk of a terrorist attack using 
biological weapons? Do you believe it is a relatively low risk?
    Answer. Economic, political, and religious forces have given rise 
to a form of fanaticism that seeks to harm free societies. We know that 
some of these fanatics have expressed interest in developing and using 
biological weapons against our Nation and our allies. Risk is generally 
viewed as a combination of the likelihood of an event and its 
consequence. While the likelihood of a biological attack is lower than 
more-commonly observed, terrorist-attack modes such as explosives, 
consequences of a biological attack may be much more serious and 
widespread than an attack with explosives. The Department of Homeland 
Security has prepared a Bioterrorism Risk Assessment. Its results are 
based on peer-reviewed input from across the interagency community of 
experts and includes intelligence about the terrorist as an adversary; 
the ease of acquiring, growing and refining various organisms; the 
variety of delivery mechanisms; the availability of medical 
countermeasures; our ability to leverage public health capabilities to 
mitigate the effects of a release; and other factors deemed key to 
answer the questions of the risk of a terrorist attack using biological 
weapons. There are a range of risks; not all organisms are the same; 
some pathogens are not effective as weapons, and other organisms have 
attributes that make them more dangerous and pose a much larger risk of 
effective misuse by terrorists. It is critical that we continue to 
promote new advances in science and technology to protect the American 
public from a biological attack and to work to prepare effective 
responses that save lives in the aftermath of such an attack.
Question 3. Nuclear Weapons
    Ms. Falcone, I understand that OSTP's National Security office is 
also involved with reducing the risk of nuclear proliferation. Among 
the goals listed on OSTP's website is the goal of ``making this a world 
without nuclear weapons.''

    Question. Many experts on deterrence point out that if the United 
States were to dramatically decrease or even eliminate its nuclear 
weapons, it would prompt even more large-scale and more dangerous 
proliferation, because nations would seek to take advantage of the 
opportunity to achieve nuclear superiority. It would simply be human 
nature to try to take advantage of the situation. Would you agree that 
the proliferation of nuclear weapons would increase if the U.S. were to 
get rid of its nuclear weapons?
    Answer. Preventing the proliferation of nuclear weapons is a 
critical national security priority. The Administration has emphasized 
the importance of U.S. leadership in taking concrete steps toward a 
world without nuclear weapons, but it has also noted that it does not 
support unilateral steps by the United States to achieve this vision 
without corresponding reductions from other states that possess nuclear 
weapons. Any process that leads to a world without nuclear weapons will 
be evolutionary in nature and will require some time to achieve. As 
outlined in the Nuclear Posture Review, so long as nuclear weapons 
exist, the United States will retain a safe, secure, and effective 
nuclear weapons arsenal that guarantees the defense of the United 
States and its allies. Science and technology are key tools in ensuring 
safe, secure, and effective weapons in our stockpile. Research and 
development are underway to ensure that we have monitoring technologies 
suitable for maintaining awareness of the nuclear activities of other 
nations both cooperatively and non-cooperatively.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                          Patricia K. Falcone
    Question 1. How would you leverage existing resources and external 
expertise to advance science and technology as they relate to national 
security policies?
    Answer. A key way to leverage existing resources in ongoing science 
and technology programs is via effective interagency coordination, the 
preparation of governmentwide research and development plans and 
priorities, and quality technical reviews. OSTP convenes the 
interagency via the National Science and Technology Council (NSTC) and 
by other means. Security and defense science and technology issues are 
handled within the NSTC Committee on Homeland and National Security and 
its topical sub-committees and working groups.
    We have found external expertise to be quite important in advancing 
national security science and technology polices, reviewing ongoing 
programs and program portfolios, highlighting broad mission frameworks, 
and considering implications of proposed national security policies. At 
OSTP, we have benefited from the insights of external expertise 
provided by the work of the National Academies of Science, Engineering, 
and Medicine, by the work of the Defense Science Board and by other 
Service science boards and advisory groups in the Department of Defense 
as well as, more broadly, in other national security departments and 
agencies, and from the work of the long-standing national security 
advisory group, the JASON. Engagement with external technical expertise 
in allied nations also has been valuable for our own programs.

    Question 2. What are your views regarding the importance of 
university research in areas of science and technology that have 
contributed significantly to national security policies?
    Answer. University research is critically important to our national 
security missions. The predominant portion of the basic research (named 
``6.1'') in the Department of Defense is carried out by universities 
and has a long track record of success. University research that is 
inspired by national security mission challenges is critical both for 
creating new knowledge and for its role in educating the next 
generation of scientists and engineers.

    Question 3. What are your views on the current state of 
cybersecurity with respect to the protection of our Nation's critical 
infrastructure? How could you address vulnerabilities by utilizing 
existing resources?
    Answer. Our nation faces a growing threat to our critical 
information systems from nation-states, criminal organizations, and 
malicious hackers. We rely on these critical information systems, among 
other things, to manage our financial transactions, run our air traffic 
control networks, supply our communities with power and water, and 
support our military and law enforcement missions. OSTP's largest role 
in the area of addressing cyber threats to critical infrastructure is 
to facilitate Federal research and development efforts in order to 
develop innovative technological tools that can thwart these cyber 
threats. Our country's historic commitment to basic research and 
development has contributed to the current technological tool set and 
other existing resources employed by both the Federal Government and 
industry to address current cybersecurity vulnerabilities. Our 
continued commitment to research and development is important to keep 
pace with evolving threats. Ongoing research ranges from investigation 
of the scientific bases for hardware, software, and system security to 
applied research in security technologies and methods, approaches to 
cyber defense and attack mitigation, and infrastructure for realistic 
experiments and testing.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                          Marietta S. Robinson
    Question 1a. As you know, the CPSIA ``fix'' legislation, which was 
signed into law by the President in August 2011, empowers the 
Commission to make regulatory changes to cut those costs for 
businesses. If confirmed to the Commission, what steps will you take to 
reduce the costs to businesses with respect to third-party testing and 
certification, particularly in those cases when it can be demonstrated 
that these costly requirements do not improve safety?
    Answer. It is my understanding that P.L. 112-28 clarified some of 
the provisions of CPSIA that caused concern, including certain 
provisions relating to third-party testing and certification. I am 
pleased that the law provides a means for the Commission to provide 
relief to ``small batch'' manufacturers on this front, and allows the 
Commission to look for possible ways to reduce the cost of third-party 
testing for all manufacturers.
    In addition, it is my understanding that P.L. 112-28 requests that 
the CPSC undertake a review of third-party testing requirements to 
determine where the cost of such testing may be reduced while still 
ensuring compliance with safety standards, and to consider revising 
existing regulations or make recommendations to Congress regarding 
possible legislative changes if such changes reduce cost while still 
ensuring compliance with Commission safety standards. If confirmed, I 
look forward to working with CPSC staff and the other Commissioners to 
expeditiously complete this review process.

    Question 1b. Do you believe exemptions to the lead and other 
requirements are appropriate when the safety risks to children are not 
an issue and alternative materials and alloys exist, but are harder to 
obtain and are more expensive?
    Answer. It is my understanding that P.L. 112-28 modified the CPSIA 
section 101 lead limits for certain products, including off-highway 
vehicles, bicycles and related products, ordinary books, and certain 
used children's products.
    In addition, P.L. 112-28 also contains a new ``functional purpose'' 
test that allows the Commission to exempt a ``specific product, class 
of product, material or component part'' from certain lead limit 
requirements where it is ``not practicable or not technologically 
feasible'' to remove lead beyond the section 101 limits and the product 
or component part presents ``no measurable adverse effect on public 
health.'' If confirmed, I would work with CPSC staff and other 
Commissioners to carry out this provision and provide functional 
purpose exemptions where necessary and appropriate.

    Question 2. As you are probably aware, Congress enacted the 
Virginia Graeme Baker Pool and Spa Safety Act (VGB Act) in 2007, to 
prevent suction entrapments by swimming pool and spa drains and child 
drowning deaths in swimming pools and spas. In April 2010, the 
Commission approved an interpretive rule defining what an ``unblockable 
drain'' should be. In September 2011, the Commission voted to revoke 
this rule. As a result, hundreds of pool operators, users, and pool and 
spa safety professionals submitted comments to the Commission that the 
revocation would require the installation of expensive backup systems 
that do not prevent entrapment and are unnecessary. The VGB Act says 
the Commission can designate new and improved entrapment technologies 
to satisfy the requirements of the law. Will you be open to new safety 
technologies that are cost efficient and will you commit to considering 
them in future rulemakings on this issue?
    Answer. Yes. If confirmed, I will consider new technologies as long 
as they comply with the requirements of the VGB Act.

    Question 3. You stated in your testimony your belief that the CPSC 
should incorporate cost-benefit analysis into its regulatory 
decisionmaking ``where it's appropriate.'' Under what circumstances 
would you consider it appropriate for the Commission to perform a cost-
benefit analysis to guide its rulemaking? Likewise, under what 
circumstances would cost-benefit analysis be inappropriate?
    Answer. I believe in following the statutorily established 
guidelines in implementing regulations. Congress has mandated varying 
degrees of cost-benefit analysis in the statues governing the 
Commission. If confirmed, I would look to the applicable statute for 
guidance in deciding which approach should be taken for a specific 
rulemaking proceeding.

    Question 4. What type of initiatives would you put in place to 
collaborate with American businesses to ensure that all product safety 
regulations are clear, concise, easy to implement, and protect American 
consumers from a substantial risk?
    Answer. I believe that education and outreach are critical elements 
of the Commission's work--and not simply outreach to consumers, but 
also to businesses. I commend the Commission for its work on this front 
with its establishment of the Office of Education, Global Outreach, and 
Small Business Ombudsman. It is my understanding that this office has 
been reaching out to businesses, particularly small businesses, with 
plain language guidance on statutory and regulatory requirements. If 
confirmed, I assure you that I will work with the staff of this office 
to continue these efforts.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                          Marietta S. Robinson
Influence of Practice as a Personal Injury Lawyer
    Question 1a. Ms. Robinson, you began your distinguished legal 
career practicing tax law at Dickinson, Wright, Moon, Van Dusen and 
Freeman, with a stint at a Federal prosecutor's office (1979-1984). You 
then became a partner at Sommers, Schwartz, Silver & Schwartz PC, a 
personal injury law firm, from 1985-1989, and have had your own 
practice since 1989. Is it accurate to say that for nearly thirty years 
(since leaving Dickinson in 1984) you have primarily done plaintiffs'-
side personal injury work?
    Answer. As an initial matter, please let me correct some 
misunderstandings about my legal work between 1979 and 1984. I have 
never worked in a Federal prosecutor's office or done any legal work in 
the criminal law area. Also, while I worked my first few months at 
Dickinson, Wright in the tax area, I changed my focus within my first 
year to litigation. The types of litigation on which I worked while at 
that firm included anti-trust, insurance defense, contract disputes, 
copyright, corporate bankruptcy, product liability, employment law 
(representing employers), and other general commercial litigation. My 
clients were insurance companies and businesses of every size.
    Since 1984, it is accurate to say that, although I have continued 
to do some defense litigation (including asbestos defense work), my 
practice has primarily been focused on representing individuals who 
have serious injuries due to the negligence, sometimes gross 
negligence, of another party. For 8 years, from 1989 to 1997, I served 
as a federally appointed Trustee of the Dalkon Shield Trust. I have 
also taught extensively over the years in several areas of trial 
practice and in several venues, including as an adjunct professor at 
two law schools.

    Question 1b. Have you also handled product liability cases?
    Answer. I have handled product liability cases primarily for 
defendants.

    Question 1c. Have you provided counsel to defendants in product 
liability cases or only plaintiffs?
    Answer. I have handled product liability cases primarily for 
defendants.

    Question 1d. Can you supply the Committee with information on the 
product liability cases on which you have worked?
    Answer. The information I am able to supply is very limited. 
Product liability has not been the focus of my practice; much of my 
work in that area was as an associate and did not involve courtroom 
appearances. I have not litigated a product liability case for many 
years and, to the best of my knowledge, almost all of the records 
concerning those cases have been destroyed.
    To the best of my recollection, I represented Whirlpool Corporation 
in a lawsuit in which the plaintiffs alleged that a defective furnace 
had caused death and serious injuries due to carbon monoxide emission; 
I worked on cases on behalf of Ford Motor Company in which the 
plaintiffs alleged various defects in automobiles; I represented an 
asbestos manufacturer in a class action brought by employees of 
Uniroyal Tire; and I was an associate on a case in which I represented 
an Air Force cadet who became a quadriplegic after his Jeep rolled 
over.
    I was able to find information about one case in which I 
represented Mr. Joseph Bailey against General Motors Corporation (GM) 
between 1989 and 1993. The case was filed in Genesee County Circuit 
Court in Flint, Michigan (Case #89 107489). Mr. Bailey was a truck 
driver and was driving a GM semi-truck when he hit a guard rail and the 
latch holding the cab of his truck in place snapped throwing the cab 
forward and the windshield popped out. Mr. Bailey was ejected from the 
cab and lost his leg.
    This was a product liability lawsuit based on a defective latch and 
a windshield that was not properly sealed to the vehicle. The case was 
settled after several weeks of trial.

    Question 1e. What other experiences have you had with respect to 
defective products?
    Answer. My other experience with defective products was primarily 
my 8 years as one of five federally appointed Dalkon Shield Trustees. 
The Trust was set up by the U.S. District Court for the Eastern 
District of Virginia as a result of class action litigation by 
individuals who used an admittedly defective intrauterine device (IUD) 
called the Dalkon Shield.
    The Trust involved a compensation fund of approximately $2.3 
billion and over 300,000 claimants in 120 countries with injuries 
ranging from use of the product to infertility, death, and brain-
injured babies. My duties as a Trustee included compensating individual 
victims fairly, but also maintaining the corpus of the Trust so that 
all claimants could be fairly compensated.
    The Trust settled most of the claims, but was the Defendant in many 
lawsuits filed after a settlement offer had been rejected. My role as a 
Trustee in those lawsuits was much more accurately described as 
representing a defendant rather than the plaintiffs. In the end, the 
Trust was managed so successfully that we were able to give a 90 
percent pro rata distribution to all claimants, in addition to the 
initial settlement amounts.

    Question 1f. How does your experience in product liability law 
impact your perspective of the CPSC and the role of a Commissioner?
    Answer. My experience in representing both sides in litigation, 
including product liability litigation, gives me a unique perspective 
in appreciating the concerns of consumers as well as regulated 
businesses. If confirmed, I believe this experience with both sides 
will allow me to make fair, objective, and unbiased contributions as a 
Member of the Commission.

    Question 1g. Can you assure this Committee that your experience as 
a plaintiffs' lawyer will not compromise your ability to be fair and 
objective on the CPSC?
    Answer. Yes. Neither my representation of plaintiffs nor defendants 
will in any way compromise my ability to be fair and objective on the 
CPSC. If confirmed, I assure you that I will serve as fair and 
objective Member of the Commission.
Role of the Commission/Consumer Product Safety Improvement Act (CPSIA)
    Question 2a. In 2008, Congress gave significant new powers to the 
CPSC through the CPSIA. Are you satisfied with the current powers of 
CPSC? Do you think there are areas where the CPSC's powers should be 
further expanded or more limited?
    Answer. I believe I would be better equipped to answer this 
question if I am confirmed and able to obtain a first-hand sense of the 
interworking of the agency and its statutory authority.

    Question 2b. How would you improve the public database system so 
that a company would not have an adverse view about its products posted 
when there was no reasonable basis for doing so?
    Answer. Overall, I think the public database of product safety 
incidents has been successful. However, I also realize that some 
concern remains over the publication of adverse views toward 
manufacturers.
    It is my understanding, that P.L. 112-28 added additional 
protections for manufacturers, including an additional 5 days for 
manufacturers to file comments or identify claims of material 
inaccuracy (for a total of 15 days), and requires the Commission to 
seek out model or serial numbers or even a photograph of the product, 
when possible. I believe this was a well-balanced modification to the 
database statute that balances the public's right to have access to 
product safety information with reasonable protections against 
inaccurate or misleading data.
    If confirmed and additional concerns arise, I would look forward to 
working with the Commission and Members of the Committee to find 
balanced solutions.
Delegation of Federal Authority to State Attorneys General
    Question 3a. The CPSIA gave state attorneys general authority to 
enforce certain aspects of the Consumer Product Safety Act. Do you 
think enforcement of CPSC rules, and determining whether there is a 
``substantial product hazard,'' should be delegated to state attorneys 
general?
    Answer. Section 24(b) of the Consumer Product Safety Act, as 
amended, provides a right of action for State Attorneys General (after 
they provide notice to the Commission) to enforce many of the 
Commission's statutes and rules. As this enforcement authority is set 
by statute, I respectfully defer to Congress as to whether the scope of 
that provision is appropriate.

    Question 3b. If so, do you think those state AGs should be subject 
to the same restrictions that the CPSC, DOJ, and other Federal officers 
are subject, such as a prohibition on the hiring of contingency fee 
lawyers? If not, do you believe that if contingency fees lawyers are 
employed, the process to hire them should take place in a transparent 
manner with competitive bidding?
    Answer. It is my understanding that section 24(b)(6) of the 
Consumer Product Safety Act, as amended, already contains certain 
statutory restrictions on the use of private counsel by State Attorneys 
General.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                          Marietta S. Robinson
Commission Processes
    Question 1. Once the Commission votes to establish an interpretive 
rule under an existing statute, and manufacturers and users invest 
based on that rule, and the public knows the rule is in effect, do you 
agree that the rule should not be reversed absent compelling evidence 
of a safety hazard?
    Answer. I agree that the Commission should make every effort 
possible to establish interpretative rules upon which all stakeholders 
may rely. If confirmed, I assure you that I will carefully consider 
each and every matter before the Commission before I come to a 
decision.

    Question 2. Would you agree that before the Commission reverses a 
vote or repeals a rule or interpretation that is relied upon by members 
of the affected industry or community of users that it should solicit 
and consider public comment?
    Answer. If confirmed, I assure you that I will carefully consider 
all comments, legal guidance, and technical factors before 
reconsidering or revoking any Commission rules or policy statements.

    Question 3. Do you believe the Commission should overturn or 
reverse a decision or rule or interpretation absent evidence that the 
benefits of such a reversal outweigh the costs?
    Answer. I agree that the Commission should make every effort 
possible to establish interpretative rules upon which all stakeholders 
may rely. If confirmed, I assure you that I will carefully consider all 
comments, legal guidance, and technical factors before reconsidering or 
revoking any Commission rules or policy statements.

    Question 4. Do you believe that it is in the best interest of the 
Commission and the public to follow the recommendations of the 
Commission's technical and legal staff?
    Answer. The CPSC is a science-based agency. If confirmed, I assure 
you that I will look to our scientific and technical staff as well as 
the Office of General Counsel and give great deference to their in-
depth knowledge and research to inform my decisions. As I stated in my 
opening remarks, I believe they are unsung heroes in the product safety 
world and it would be an honor to work with them.

    Question 5. Do you believe that the Commission should revoke a 
previously approved rule when doing so is contrary to the 
recommendation of the Commission's technical and legal staff?
    Answer. I certainly agree that the Commission should make every 
effort possible to establish interpretative rules upon which all 
stakeholders may rely. If confirmed, I would review every matter before 
the Commission with great attention, regardless of whether the matter 
is new or one previously decided, using all of the facts and 
stakeholder views to guide my decision.
Pool Drains
    Question 6. Following passage of the Virginia Graeme Baker Pool and 
Spa Safety Act, the Commission approved an interpretive rule defining 
what an unblockable drain should be in April 2010. In September, 2011, 
the Commission voted to revoke this rule, which caused a significant 
delay in the production of pool and spa covers that are fully compliant 
with the law. It is therefore possible had the Commission not reversed 
its decision that a sufficient number of compliant pool covers could 
have been produced to protect consumers against entrapment hazards in a 
large percentage of the public pools in this country had the Commission 
not reversed its decision. Would leaving the original interpretation in 
place have been a safer course of action?
    Answer. I am not privy to all of the information necessary to 
properly answer this question. However, based on my review of the 
decision and the statements of all the Commissioners, it is my 
understanding that the intent of the reinterpretation was to conform to 
the legal requirements of the VGB Act.

    Question 7. Do you agree with the Commission's vote to reverse its 
original 2010 rule on unblockable drains? Why or why not?
    Answer. While I am aware that the Commission revoked its 
interpretation of what constitutes an unblockable drain under the VGB 
Act, I am not privy to all of the facts that were presented to the 
Commissioners in informing their decisions. Therefore, I am unable to 
answer this question.
Toxic Drywall
    Question 8. As you are probably aware, toxic drywall is one issue 
that has plagued thousands of Floridians. My state ranks first in the 
number of toxic drywall cases. What can you do at the Commission to 
help the affected homeowners in my state?
    Answer. My sympathy goes out to the homeowners that have been 
impacted by problem drywall. I recognize the incredible hardship these 
families have faced through no fault of their own.
    I know CPSC staff has worked hard on this issue, and has put out a 
lot of materials--such as problem drywall identification guidance and 
remediation guidance--in an effort to help impacted homeowners. I also 
understand that the Multidistrict Drywall Litigation (MDL) in New 
Orleans has been able to provide financial assistance to some 
homeowners.
    If confirmed, I can assure you that I will work with Members of 
this Committee and impacted homeowners in an effort to find any 
additional ways to help families impacted by this problem.

    Question 9. What role do you believe the Commission should play in 
working with the Chinese government to hold manufacturers of toxic 
drywall accountable? Have you been satisfied with the Commission's 
efforts to date to hold these manufacturers accountable?
    Answer. Under current law (both CPSC and Customs statutes), 
foreign-based manufacturers do not have to register an agent for 
service of process. As a result, when the CPSC or impacted consumers 
seek redress against foreign manufacturers of dangerous or defective 
products, they generally have to either try to effect service of 
process via the Hague Convention (an onerous process) or pursue an U.S. 
retailer or importer in the domestic chain of commerce for redress. In 
the case of Chinese-manufactured problem drywall, it is my 
understanding that neither approach has yielded redress to date for the 
impacted homeowners.
    It is my further understanding that the Commission has leveraged 
all of its authority with respect to the Chinese government, and has 
continually engaged its counterpart agency in China to encourage 
bringing the responsible Chinese parties to the table. Unfortunately, 
thus far, these efforts have been unsuccessful.
    If confirmed, I will work with the Chairman and agency staff to 
continue to raise this issue with the Chinese government whenever 
possible.

    Question 10. Do you believe that the Commission should utilize 
peer-reviewed studies or have other agencies review the Commission's 
studies in the case of toxic drywall?
    Answer. It is my understanding that most of the Commission's 
drywall studies were peer reviewed. If confirmed, I would support 
efforts by CPSC staff to conduct peer review or inter-agency review for 
any future studies to the maximum extent possible.

    Question 11. One issue affecting victims of toxic drywall is the 
burden the drywall has caused on their personal finances. Many have had 
their personal credit ratings negatively impacted as a result of the 
financial strain they have encountered. What can the Commission do in 
terms of working with credit rating agencies to help affected 
homeowners?
    Answer. While the CPSC has no statutory authority to force lenders 
to provide forbearance or loan modifications, or mitigate the credit 
ratings of impacted homeowners, I believe the CPSC can and should 
continue to urge lenders and the government agencies with the 
appropriate jurisdiction to provide any and all assistance possible.
    It is my understanding CPSC has already engaged other Federal 
entities to do just this, specifically by working with the U.S. 
Department of Housing and Urban Development (HUD) and the Internal 
Revenue Service (IRS). If confirmed, I assure you that I will work with 
CPSC staff and my fellow Commissioners on these efforts.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                     Hon. Richard A. Lidinsky, Jr.
    Question. In his National Export Initiative, President Obama called 
for doubling U.S. exports by 2015. The Federal Maritime Commission--
under Chairman Lidinsky's leadership--has taken initial steps to 
increase exports. What additional actions must the Commission take to 
help meet the President's goal?
    Answer. The Commission's key role in the President's National 
Export Initiative is to use its full authority to encourage adequate 
vessel capacity and supplies of intermodal shipping containers. I have 
emphasized to ocean carriers that they should not just treat our 
country as an import drop zone and return to sailing origin with empty 
containers for another one-way run. What the ocean carriers call 
``backhaul,'' we call vital U.S. exports. The Commission must also work 
closely with other departments and agencies, like we did with the U.S. 
Department of Agriculture, in devising a system of letting farmers know 
where export containers are for their products. The Commission and 
other agencies can meet the President's goal of doubling exports, if we 
work together to stay our current committed course.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                     Hon. Richard A. Lidinsky, Jr.
Question 1. Freight Strategic Plan
    Chairman Lidinsky, I'm sure you'll agree that our ocean 
transportation system is a critical component of our nationwide freight 
network for imports and exports. Washington state exported sixty-four 
billion dollars worth of goods last year, and billions more imports 
passed through our ports on their way to the Midwest and further east.
    We're trying to help those goods move more smoothly on our 
nationwide freight network by mandating that the U.S. Department of 
Transportation come up with a nationwide freight strategic plan to help 
guide our investments and prioritize freight dollars. I worked with my 
colleagues Frank Lautenberg and Chairman Rockefeller to get those 
provisions included in the Senate's surface transportation bill and I 
will be fighting to preserve them through the Conference with the 
House.

    Question 1a. Do you believe that any nationwide freight strategic 
plan should include our ocean transportation system?
    Answer. I believe it absolutely essential that any nationwide 
freight strategic plan include our ocean transportation system, given 
the vital role ports play in the flow of our overseas commerce, 95 
percent of which arrives by ship. Too many ports--as well as the 
railways, highways, and bridges that connect them to the rest of the 
supply chain--are slowly decaying due to lack of investment and 
strategic long-term planning. A port's infrastructure is critical to 
its efficiency and competitiveness, which in turn support jobs and the 
economy of its city, state, and region. With today's system of 
international, intermodal supply chains, ports also have an important 
impact on the economies of inland areas that may be hundreds or 
thousands of miles away.

    Question 1b. What role does seaport connectivity to roads, rails, 
and other maritime shipping play in the success of our nationwide 
freight network and international competitiveness?
    Answer. I believe that efficient connectivity of ports to a 
national freight network is a key ingredient to our country's ability 
to increase exports and continue our economic recovery. All parts of 
our freight transportation system need to work together to reduce 
bottlenecks in our Nation's international supply chain system, and 
intermodal port connections should a be top priority for improvement.

    Question 1c. In your view, do you believe that existing Federal 
programs are adequate to help ports improve their connections to local, 
regional, and nationwide freight road, rail, and maritime networks? If 
not, what more could be done?
    Answer. As someone involved in ports and maritime cargo movement 
for more than 35 years, I know first-hand that our ports are in need of 
infrastructure investments to improve their intermodal connections. If 
confirmed, I would continue to lead the Commission in doing what we can 
under our statutory authority to help ports improve those connections 
and increase the efficient flow of commerce.
Question 2. Cost of Freight Bottlenecks
    Chairman Lidinsky, freight bottlenecks and other congestion costs 
this country more than two-hundred billion dollars a year. I'm not sure 
if you read the New York Times article \1\ on May 7, 2012 that 
mentioned that a load of freight can take only 48 hours to go from Los 
Angeles to Chicago by rail, but then can take 30 hours to travel across 
the city. These sorts of delays exist across our country--and are 
hindering economic growth.
---------------------------------------------------------------------------
    \1\ http://www.nytimes.com/2012/05/08/us/chicago-train-congestion-
slows-whole-country.html
?_r=1&pagewanted=all.
---------------------------------------------------------------------------
    In my own state, the Washington State Department of Transportation 
has found that more than 27,000 jobs and $3.3 billion in economic 
output at freight-dependent industries could be lost in if truck 
congestion within my state increases by just 20 percent. And we could 
be on our way, with freight movement in Washington expected to grow by 
up to 86 percent by 2040.
    While the Federal Maritime Commission doesn't regulate roads or 
rails, I'm sure you'll agree that congestion at our ports and in our 
freight network nationwide directly impacts shipping.

    Question 2a. Many products travel thousands of miles between their 
origin and final destination--whether agricultural products, 
manufactured goods, or bulk resources. How do freight rail and road 
delays in the American interior impact shippers on our coasts?
    Answer. With today's ``just-in-time'' supply chains, world shipping 
runs on tight schedules and any interior delay can harm shippers, 
particularly exporters who are competing in world markets, often with 
time-sensitive cargo such as agricultural products.

    Question 2b. In your view, how does congestion at seaports impact 
shipping imports and exports? Does congestion that prevents the rapid 
transfer of goods from ship to rail and truck hamper America's economic 
potential?
    Answer. I think that port congestion not only prevents rapid goods 
transfer, but also constrains our capacity to handle larger vessels in 
ports and constricts our growth potential.
Question 3. Panama Canal Expansion and Shipping
    Chairman Lidinsky, as you know, the Panama Canal expansion project 
is expected to be completed in 2014. As a result larger ships are able 
to sail directly from East Asia to East Coast and Gulf ports.

    Question 3a. In your view, how are ocean common carriers and marine 
terminal operators preparing for this new shipping option?
    Answer. I think most ports are doing a very good job of examining 
their current capabilities and future potential. The Federal Government 
should work as a helpful partner in this endeavor.

    Question 3b. Do you believe that the Panama Canal expansion will 
dramatically change international shipping traffic patterns to the 
U.S.?
    Answer. I think it will cause change, but not as dramatic as some 
are predicting.

    Question 3c. Do you believe that the Panama Canal expansion will 
lead to a significant change in ocean transportation costs for 
shippers?
    Answer. I think that rates will remain relatively stable and 
shippers will have a chance to negotiate fair contracts with carriers. 
Global supply and demand and fuel costs will continue to be the primary 
drivers of ocean transportation costs.

    Question 3d. Do you believe that the United States is adequately 
preparing for this expansion--on both a planning and infrastructure 
level?
    Answer. I think that some ports are preparing more than others on 
both levels, but all in all good progress is being made. Planning could 
be improved if Federal agencies dealing with various modes of 
transportation work to improve coordination on freight planning.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                     Hon. Richard A. Lidinsky, Jr.
    Question 1. Concerns regarding your leadership at the Commission 
have been raised in the May 9, 2012, letter to you from Congressman 
Issa, Chairman of the House Oversight and Government Reform Committee. 
As staff of our Committee continues to review these allegations, will 
you pledge to answer any additional questions and requests for 
information that are asked of you?
    Answer. I am willing to answer any questions you may have about the 
issues raised in the House Oversight and Government Reform Committee 
Chairman's request, or on any other subject concerning my tenure at the 
FMC.

    Question 2. The Partnership for Public Service along with American 
University's Institute for the Study of Public Policy Implementation 
compile rankings of the best places to work among Federal agencies, 
based on surveys conducted by the United Sates Office of Personnel 
Management. These surveys represent the views of Federal employees 
regarding satisfaction and commitment to government service. It 
concerns me that since 2009 when you took over as Chairman, the ranking 
of the Federal Maritime Commission has dropped dramatically from sixth 
to twenty-ninth in their survey of small agencies. Can you explain the 
reason for this change? Are you taking any steps to address this 
decline?
    Answer. The Office of Personnel Management Employee Viewpoint 
Survey provides valuable feedback, and we take that feedback seriously, 
while acknowledging that the small sample size of 68-88 employee 
responses each year can lead to fairly significant variability from 
year to year. Each year we review and adjust as necessary our Human 
Capital Plan, which includes a detailed workforce analysis and a 
solutions implementation plan that take the latest survey results into 
account.
    I believe that a few trends may explain some of the survey results 
we have seen recently. First, since I was named Chairman, the 
Commission has embarked on a very busy period that saw a significant 
increase in staff workloads. During that period, the Commission was 
working hard to respond to problems such as shortages in vessel 
capacity and containers that appeared in 2010, to complete its landmark 
study of the European Union's repeal of its competition law exemption 
for liner shipping, to more quickly resolve disputes between shippers 
and carriers, to modernize regulations, and to reduce regulatory 
burdens. This increased workload may explain some changes in responses 
regarding workload reasonableness, resources to complete jobs, and 
work/life balance.
    Second, we face challenges arising from the fact that we are a very 
small agency with a relatively large number of retirement-age senior 
managers with significant longevity. About 45 percent of the FMC's 
workforce will be eligible for voluntary retirement by September 2016. 
We value these long-tenured employees' accumulated skills and 
institutional knowledge. But at the same time, senior management and I 
are aware of frustration by more junior employees over the resulting 
slow progress in gaining promotions to higher grades and positions with 
increased responsibility. I believe that this trend may explain some 
changes in responses regarding use of employee talents, recognition for 
good work, opportunities to demonstrate leadership skills, and 
especially opportunities to get better jobs in the organization.
    The agency has been seeking ways to compensate for this challenge 
in other ways, subject to constraints such as recent budget uncertainty 
and limitations as well as governmentwide restrictions on pay increases 
and performance awards. Such constraints may also explain some changes 
in responses regarding pay raises or rewards reflecting job 
performance.
    Finally, I have tried to instill a culture that prioritizes the 
needs of the shipping public we serve. From my perspective, this 
renewed emphasis on serving the public and working for taxpayers has 
inspired most of our workforce. However, as with any institutional 
change, some employees may have been dissatisfied, and this was likely 
reflected in some survey responses.
    To address these issues within current constraints, a major fiscal-
year 2012 priority for the FMC's Managing Director and Human Resources 
Director--with my full support--has been working to implement a new and 
improved performance management and appraisal system. This system was 
designed by a team that reflected a cross-section of agency staff at 
all grade levels. It incorporates employee feedback from training 
sessions that were held agency-wide. Although the new system will be 
much improved over the current system, there remains some trepidation 
among staff as to how ratings will be made and whether it will be more 
difficult to obtain the highest ratings. This concern will likely 
linger until the first ratings under the new system are done later this 
summer. Since last fall, the Managing Director has also been sitting 
down regularly with each of the agency's offices and bureaus to receive 
feedback on these staff issues and concerns. One staff suggestion in 
those sessions was to implement an enhanced suggestion system and 
recognize employee performance by designating an employee of the month 
or employee of the quarter. These could be done without monetary 
expenditures and a team is working on accomplishing both of those 
suggestions. In addition, we have been looking for opportunities to 
recognize and reward employee achievements in non-monetary ways. We 
also look for opportunities to give more junior professionals 
opportunity for new responsibility and exposure, for example in inter-
office working groups I have established.
    While we are working to address these challenges, I was encouraged 
to see improvements in the 2011 survey on responses to issues such as 
whether employees like their work, are willing to put in extra effort, 
and receive supervisor feedback on performance. FMC employees continued 
to indicate a high level of commitment to achieving the FMC's mission; 
they indicated they are held accountable for achieving results; and 
they expressed positive views of their supervisors relative to other 
government respondents. In addition to the ten Best Place to Work 
``Best in Class'' rankings, the Partnership and the Hay Group conducted 
an analysis of the survey data to identify the most innovative Federal 
agencies and conditions that drive innovation in government. Their 
analysis showed that in 2011 the FMC ranked 5th among all small 
agencies; our results exceeded governmentwide results and closely 
matched results from NASA, which was ranked as the most innovative 
large Federal agency. This ranking demonstrates that FMC employees are 
constantly looking for ways to do their jobs better, they feel 
encouraged to come up with new and better ways of doing things, and 
creativity and innovation are rewarded.

    Question 3. You have been Chairman of the Federal Maritime 
Commission for almost 3 years. What have been the major issues the 
Commission has faced in your tenure?
    Answer. One of the major issues the Commission has faced in my 
tenure as Chairman was invigorating and modernizing the Commission 
following a period of several years without a Chairman. During the time 
period when I was nominated and confirmed, the Journal of Commerce and 
other observers were questioning the Commission's relevance, and 
whether the Commission was adrift. Beginning approximately 3 months 
after I assumed the chairmanship, those questions stopped, and 
observers began describing the Commission as active, reinvigorated, at 
the center of global maritime regulation. I believe we have been 
successful in getting the ship moving again.
    The second major issue the Commission faced was that in 2010, as 
demand for shipping rebounded quickly from the depths of 2009, vessel 
capacity and container shortages began causing supply chain disruptions 
such as canceled bookings, cargo rolled to the next sailing, and rapid 
increases in rates and surcharges. I asked my Republican colleague, 
Rebecca Dye, to lead a Fact Finding Investigation into these issues, 
and a few months later the Commission supported her findings and 
recommendations, which led to temporarily increased monitoring of 
carrier discussion agreements and permanent ``rapid response teams'' 
who resolve disputes quickly and efficiently to keep cargo moving.
    Finally, I believe that the Commission's most significant action 
during my tenure may have been developing and issuing proposed and 
final rules to exempt 3,500 Non-Vessel Operating Common Carrier (NVOCC) 
businesses across the country from the regulatory burden of having to 
publish their rates in antiquated tariffs. By joining with my 
Republican colleagues in this effort, we broke a logjam on an issue 
that had been a subject of Commission debate for the past twenty years, 
and were able to reduce costs for these important logistics businesses.

    Question 4. In your tenure as Chairman, has the Commission taken 
any actions to ease the regulatory burdens on the maritime shipping 
community?
    Answer. The Commission has made regulatory relief and modernization 
a top priority. During the past 2 years we have taken several steps to 
reduce regulatory burdens on the shipping industry and the customers 
they serve.
    The Commission issued a proposed rule in 2010 and a final rule in 
2011 granting an exemption to relieve 3,500 logistics businesses 
(NVOCCs) from the costs and burdens of publishing their rates in 
antiquated tariffs. In issuing this proposed and final rule, the 
Commission broke a twenty-year deadlock. The result has been, and will 
be, significant savings for these businesses and the importing and 
exporting businesses that are their customers.
    In December 2011, we issued a Notice of Inquiry seeking comments on 
ways to make the NVOCC tariff filing exemption more useful, including a 
possible extension of the exemption to include foreign unlicensed 
NVOCCs. In May, the Commission voted to issue an interim final rule to 
ease the conditions for claiming the exemption. That rule should be 
published in the coming weeks.
    In 2011, we also amended the Commission's rules to give flexibility 
and certainty to shippers and carriers that want to enter into 
contracts with rates that are adjusted based on an index. The 
Commission issued a final rule clarifying that the Commission allows 
service contracts with these adjustable rates based on container 
freight indices.
    We have also been working to reduce burdens on parties that bring 
administrative cases to the Commission. We have taken steps to 
modernize the Commission's procedural rules to improve clarity and 
efficiency. In February 2011, the Commission issued a rule that reduced 
filing burdens on parties and clarified its procedures for informal 
small claims proceedings. And in February 2012, the Commission issued a 
proposed rule to streamline and update its procedures for pleadings, 
motions, and discovery in administrative cases. The comment period 
ended on April 30th, and we are working to finalize the rule in the 
near future.

    Question 5. How would you assess the Commission's oversight over 
waterborne transportation of household goods? Please explain your 
partnership with the Federal Motor Carrier Safety Administration 
(FMCSA) in this area?
    Answer. The Commission's mission includes service and protection 
for members of the public. After receiving more than 2,500 complaints 
between 2005 and 2009 from individuals experiencing problems shipping 
their personal household goods, the Commission initiated a fact-finding 
investigation led by Commissioner Khouri. In May 2011, the Commission 
adopted the fact-finding investigations report. We are currently 
working to strengthen consumer education, working with the industry to 
develop best practices, model shipping forms, update Commission 
licensing requirements for household good shippers, and promote 
alternative dispute resolution services.
    The Commission and the Federal Motor Carrier Safety Administration 
(FMCSA) have committed to working together to provide enhanced 
protection and assistance to consumers shipping their household goods. 
The Commission and the FMCSA have agreed to share electronic 
information to help identify and address moving industry problems, 
refer cases to the appropriate agency, conduct joint investigations, 
and conduct joint training to enhance enforcement. The Commission and 
FMCSA are also committed to working together to coordinate education 
and outreach efforts for consumers, as well as enhancing consumer 
assistance by referring disputes involving international shipments to 
the FMC's office of Consumer Affairs & Dispute Resolution Services 
(CADRS).

    Question 6. One of the Federal Maritime Commission's major tasks is 
to monitor the laws and practices of foreign governments which could 
have a discriminatory or otherwise adverse impact on shipping 
conditions in the U.S. Are there any specific practices we should be 
concerned about right now?
    Answer. The Commission is currently monitoring the diversion of 
U.S.-bound cargo away from U.S. ports and to Canadian ports, and the 
impact this diversion is having on the U.S.'s West Coast ports. The 
Commission issued a Notice of Inquiry to gather information as to why 
this diversion is happening, and is currently preparing an analysis of 
the issue.
    The Commission has been working to open the lines of communication 
with China to encourage compliance with licensing, bonding, and filing 
rules for NVOCCs as well as addressing issues, such as confidentiality 
concerns, with the Shanghai Shipping Exchange. The Commission is also 
monitoring the developments in the Panama Canal to determine any impact 
it would have on the movement of cargo to the U.S. East Coast.

    Question 7. What steps do you feel the Commission can take to 
ensure security and improve infrastructure at our ports?
    Answer. The Commission actively works to detect and deter shippers 
who mislabel or misdescribe cargo entering or leaving the United 
States. Such misdescription of cargo violates the Shipping Act and can 
cause significant safety and security concerns. The Commission is also 
working to ensure compliance with its licensing requirements and is 
assisting both Customs and Border Protections and the FBI in 
enforcement and compliance proceedings. The Commission has also 
revamped, streamlined, and expanded its data collection processes for 
all license applications, and is receiving periodic updates from the 
Treasury Department's Office of Foreign Assets Control on its list of 
individuals and organizations whose financial transactions have been 
blocked for various reasons including terrorism, and cross referencing 
those with those in the FMC data bases and new applicants.

    Question 8. The Federal Maritime Commission has enormous amounts of 
information on nearly every aspect of marine transportation. How can 
the Commission use this information to assist other Federal agencies in 
securing our Nation's transportation network?
    Answer. The Federal Maritime Commission continues to make available 
to the public and other agencies much of the information it has on 
maritime issues. This includes cooperating on joint ventures with other 
agencies, and maintaining a transparent agency by use of the 
Commission's website, social networking channels, and through a 
diligent consumer affairs department. The Commission also works to 
share information and expertise with other agencies, such as Customs 
and Border Protection, to detect and prevent fraud or smuggling.

    Question 9. This Committee and its members have long enjoyed a 
close and productive working relationship with agencies under our 
jurisdiction. We often rely on the technical and legal expertise of 
agency staff when we are developing or reviewing proposed legislation. 
Can all members of this Committee, and their staff, count on this 
cooperative relationship continuing with the Federal Maritime 
Commission?
    Answer. The Federal Maritime Commission has indeed enjoyed a close 
and productive working relationship with this Committee. If confirmed, 
I will ensure that this cooperative relationship continues.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                     Hon. Richard A. Lidinsky, Jr.
    Question 1. What non-security related risks would you identify as 
posing the greatest detriment to the flow of commerce in and out of our 
Nation's ports located in the Gulf of Mexico?
    Answer. Many of the Gulf ports are in need of dredging and 
infrastructure improvements so that they can accommodate larger ships 
and increased flow of commerce that is likely to flow through the 
expanded Panama Canal.

    Question 2. How could the FMC highlight infrastructure investments 
in our Nation's seaports in light of the anticipated surge in imports 
and exports from the Panama Canal expansion?
    Answer. Although opinions differ on the magnitude of the likely 
impact of the Panama Canal expansion, you correctly identify 
infrastructure investments as critically important to support increased 
exports and imports. One of the purposes of the Shipping Act that we 
execute is to ``provide an efficient and economic transportation system 
in the ocean commerce of the United States,'' and smart infrastructure 
investment is a key ingredient to doing so. Although the Commission 
does not make transportation infrastructure spending decisions, we will 
work to share our expertise to assist those in Congress and at our 
fellow agencies who do so.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                            William P. Doyle
    Question. In his National Export Initiative, President Obama called 
for doubling U.S. exports by 2015. The Federal Maritime Commission--
under Chairman Lidinsky's leadership--has taken initial steps to 
increase exports. What additional actions must the Commission take to 
help meet the President's goal?
    Answer. If confirmed, I will assist the Commission to use its full 
authority to ensure that vessels, shippers, marine terminal operators, 
and other entities the Commission regulates support the President's 
National Export Initiative. If confirmed, I will also work with the 
Commission in its collaborative efforts to work with other agencies to 
advance that export initiative.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            William P. Doyle
Question 1. Freight Strategic Plan
    Mr. Doyle, I'm sure you'll agree that our ocean transportation 
system is a critical component of our nationwide freight network for 
imports and exports. Washington state exported sixty-four billion 
dollars worth of goods last year, and billions more imports passed 
through our ports on their way to the Midwest and further east.
    We're trying to help those goods move more smoothly on our 
nationwide freight network by mandating that the U.S. Department of 
Transportation come up with a nationwide freight strategic plan to help 
guide our investments and prioritize freight dollars. I worked with my 
colleagues Frank Lautenberg and Chairman Rockefeller to get those 
provisions included in the Senate's surface transportation bill and I 
will be fighting to preserve them through the Conference with the 
House.

    Question 1a. Do you believe that any nationwide freight strategic 
plan should include our ocean transportation system?
    Answer. I believe that any nationwide freight strategic plan should 
include the U.S. ocean transportation system since 95 percent of 
overseas cargo moves on ocean vessels and through ports.

    Question 1b. What role does seaport connectivity to roads, rails, 
and other maritime shipping play in the success of our nationwide 
freight network and international competitiveness?
    Answer. I believe that seaport connectivity to roads, rails, and 
other maritime shipping plays a vital role in the movement of cargo to 
and from the U.S. By way of example, the Columbia/Snake River provides 
a significant example of an inland waterway container operation and the 
challenges faced with sustainability of inland waterways in the U.S. 
The 465 mile corridor has served Oregon, Washington, and Idaho inland 
freight traffic since 1932 and container-on-barge since 1975, with 
Portland serving as the gateway port for all inbound and outbound 
cargo. The markets served are similar to the Mississippi River Valley 
in that the primary commodities for export are agricultural and food 
products. The producers of these products also are in close proximity 
to the inland terminals along the river system at the barge ports of 
Umatilla and Boardman in Oregon and Lewiston in Idaho. The startup of 
regular container on barge services began in 1975 and had grown from 
125 TEU to 45,000 loaded TEU in 2000 until a steady decline from 2000 
to 2010. According to the Pacific Northwest Waterways Association, 
three major factors contributed to the successful startup: cooperation, 
commodity mix and geography. According to officials at the Port of 
Portland, two major factors have contributed to the steady decline in 
barge activity since its 2000 peak: lack of full container loads in 
both the head-haul and export-haul legs and the ability of the gateway 
port to attract and keep ocean carrier services.
    If confirmed, I will work with the Commission to provide you with 
information as to what extent this plays into the success of our 
nationwide freight network and international competitiveness, including 
information from the Commission's study on the diversion of U.S.-bound 
cargo through ports in Canada and Mexico.

    Question 1c. In your view, do you believe that existing Federal 
programs are adequate to help ports improve their connections to local, 
regional, and nationwide freight road, rail, and maritime networks? If 
not, what more could be done?
    Answer. I understand that different ports and regions have 
different needs and uses for Federal programs. I also understand that 
the Harbor Maintenance Tax (HMT) mechanism represents Congressional 
determination on how to structure a Harbor Maintenance Trust Fund 
(HMTF) to pay for dredging in U.S. ports, but that several Members of 
Congress suggest improvements to the HMT and HMTF to recognize those 
differing needs in legislation they have introduced. If confirmed, I 
will work to provide Congress with the information it needs to improve 
port connections to our intermodal freight networks.
Question 2. Cost of Freight Bottlenecks
    Mr. Doyle, freight bottlenecks and other congestion costs this 
country more than two-hundred billion dollars a year. I'm not sure if 
you read the New York Times article \2\ on May 7, 2012 that mentioned 
that a load of freight can take only 48 hours to go from Los Angeles to 
Chicago by rail, but then can take 30 hours to travel across the city. 
These sorts of delays exist across our country--and are hindering 
economic growth.
---------------------------------------------------------------------------
    \2\ http://www.nytimes.com/2012/05/08/us/chicago-train-congestion-
slows-whole-country.html
?_r=1&pagewanted=all.
---------------------------------------------------------------------------
    In my own state, the Washington State Department of Transportation 
has found that more than 27,000 jobs and $3.3 billion in economic 
output at freight-dependent industries could be lost in if truck 
congestion within my state increases by just 20 percent. And we could 
be on our way, with freight movement in Washington expected to grow by 
up to 86 percent by 2040.
    While the Federal Maritime Commission doesn't regulate roads or 
rails, I'm sure you'll agree that congestion at our ports and in our 
freight network nationwide directly impacts shipping.

    Question 2a. Many products travel thousands of miles between their 
origin and final destination--whether agricultural products, 
manufactured goods, or bulk resources. How do freight rail and road 
delays in the American interior impact shippers on our coasts?
    Answer. Such bottlenecks seriously impact shippers on our coasts as 
well as at diverse inland locations. If confirmed, I will work with the 
Commission to share the Commission's information and expertise with 
Congress and our fellow agencies on the impact of freight rail and road 
delays in the American interior on shippers on U.S. coasts, including 
information from the Commission's study on the diversion of cargo to 
Canada and Mexico.

    Question 2b. In your view, how does congestion at seaports impact 
shipping imports and exports? Does congestion that prevents the rapid 
transfer of goods from ship to rail and truck hamper America's economic 
potential?
    Answer. I believe that congestion at seaports is a serious issue 
that can limit the Nation's ability to increase trade if not addressed. 
If confirmed, I will work with the Commission to share any information 
or Commission expertise with Congress and fellow agencies on the impact 
of freight rail and road delays in the American interior on shippers on 
U.S. coasts, including from the Commission's study on the diversion of 
cargo to Canada and Mexico.
Question 3. Panama Canal Expansion and Shipping
    Mr. Doyle, as you know, the Panama Canal expansion project is 
expected to be completed in 2014. As a result larger ships are able to 
sail directly from East Asia to East Coast and Gulf ports.

    Question 3a. In your view, how are ocean common carriers and marine 
terminal operators preparing for this new shipping option?
    Answer. It is my understanding that some of the deep water harbors 
and ports on the U.S. west coast can support the size of many post-
Panamax vessels. Some ports on the U.S. east coast are trying to dredge 
their harbors and make other changes to infrastructure (including 
bridge clearance and terminal handling equipment) to accommodate the 
larger post-Panamax generation of vessels that may transit the Panama 
Canal once the expansion project is completed. All ports in the U.S. 
are working to improve their infrastructure to address any increase in 
port activity. Finally, many Congressional members support legislative 
changes to the Harbor Maintenance Trust Fund.

    Question 3b. Do you believe that the Panama Canal expansion will 
dramatically change international shipping traffic patterns to the 
U.S.?
    Answer. I believe that the canal expansion will have an impact on 
international shipping to the United States, though there are varying 
estimates on how large the impact will be. If confirmed, I will monitor 
developments with the Panama Canal along with any impacts on cargo 
movement to U.S. coasts.

    Question 3c. Do you believe that the Panama Canal expansion will 
lead to a significant change in ocean transportation costs for 
shippers?
    Answer. I believe that after the Panama Canal expansion, the main 
drivers of ocean transportation costs will continue to be shipping 
supply, demand, and fuel costs. If confirmed, I will monitor 
developments with the Panama Canal along with any impacts on cargo 
movement to U.S. coasts.

    Question 3d. Do you believe that the United States is adequately 
preparing for this expansion--on both a planning and infrastructure 
level?
    Answer. I believe that the U.S. is working to improve its port, 
rail, and truck infrastructure to prepare for the Panama Canal 
expansion. I believe that the U.S. needs to do what is necessary to 
stay competitive in this increasingly interconnected world, and you 
have correctly identified that infrastructure planning and investment 
will be key parts of that effort.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                            William P. Doyle
    Question 1. You have Federal Government experience in both the 
maritime and energy sectors. How has your experience prepared you to be 
a Federal Maritime Commissioner? Are there specific changes you would 
recommend at the Commission?
    Answer. If confirmed, I will use the knowledge I have gained from 
my professional career in the maritime and transportation area to 
support regulatory relief for the maritime industry, support the growth 
of U.S. exports, and protect the American exporter, importer, and 
consumer. I believe that my experience in directly managing cases, 
disputes, arbitrations, and complex transactions in the maritime field 
of practice of law will help me in my role as a Commissioner at the 
Federal Maritime Commission, if confirmed.

    Question 2. You are currently Chief of Staff to the organized labor 
group, the Marine Engineers Beneficial Association (MEBA). Given this 
close association, can this committee be assured that your decisions 
will be even handed and not favor one stakeholder over another?
    Answer. If confirmed, my decisions will be impartial and will not 
favor one stakeholder over another.
    I have been impartial in my service on objective advisory boards 
during both the Bush and Obama Administrations. In 2004 I was tapped by 
the Secretary of Labor to serve as a board member on the Advisory 
Committee on Apprenticeship, where I served through 2007. I was also 
appointed as a Liaison on the Labor Advisory Committee to the United 
States Trade Representative from 2006 to 2008.
    I also sought consensus, and achieved the same, when I managed and 
directed coordination between approximately 24 U.S. Federal agencies, 
numerous state agencies and Federal and provincial entities in Canada 
for the permitting and construction processes for a large diameter 
natural gas pipeline that would transport natural gas from Alaska's 
North Slope.

    Question 3. If confirmed, what specific issues would you like to 
focus on during your time on the Commission?
    Answer. One of the Commission's top priorities must be to work with 
stakeholders in order to significantly increase the export of goods, 
the vast majority of which move on ships. Significantly increasing 
exports will require appropriate coordination and cooperation between 
the government and the private sector. Such cooperation and 
coordination may be focused on increasing the availability of shipping 
containers for mid-continent agriculture and manufactured goods, and 
working with our overseas trading partners to rectify any limitations 
to waterborne export of goods and services.
    If confirmed, I will work with the Commission to continue its 
priority and efforts to provide regulatory relief to support job growth 
and economic recovery. The Commission has announced plans to 
systematically review its rules and procedures to streamline, 
modernize, update, and reduce the regulatory burdens on the maritime 
industry. If confirmed, I look forward to helping the Commission 
succeed in this project.
    Another priority area is helping to cut down on court litigation 
between parties through the Commission's newly established Rapid 
Response Teams in its Office of Consumer Affairs and Dispute Resolution 
Services (CADRS). If confirmed, I will work with the Commission to find 
fast solutions to disputes between shipping lines and customers to make 
sure cargo keeps moving. This helps with the Commission's role of 
protecting American exporters, importers, and consumers.

    Question 4. One of the Federal Maritime Commission's major tasks is 
to monitor the laws and practices of foreign governments which could 
have a discriminatory or otherwise adverse impact on shipping 
conditions in the U.S. Are there any specific practices we should be 
concerned about right now?
    Answer. If confirmed, I will support the Commission's mandate to 
identify and address any unreasonable foreign practices that cause harm 
to shipping in the U.S. foreign trades. As well as investigations by 
its staff, the Commission relies upon other Federal agencies and the 
shipping public to bring to its attention any foreign practices that 
possibly have such effects. If confirmed, I would look forward to 
diligently pursuing any such allegations and make independent 
conclusions based on evidence the Commission collects.

    Question 5. What steps do you feel the Commission can take to 
ensure security and improve infrastructure at our ports?
    Answer. If confirmed, I will work with the Commission to strengthen 
efforts to share informational resources with other agencies to help 
ensure security and improve infrastructure at our ports.

    Question 6. The Federal Maritime Commission has enormous amounts of 
information on nearly every aspect of marine transportation. How can 
the Commission use this information to assist other Federal agencies in 
securing our Nation's transportation network?
    Answer. If confirmed, I will work with the Commission to coordinate 
opportunities to share informational resources with other agencies to 
help ensure security and improve infrastructure at our ports.
                                 ______
                                 
Response to Written Questions Submitted by the Hon. Roger F. Wicker to 
                            William P. Doyle
    Question 1. What non-security related risks would you identify as 
posing the greatest detriment to the flow of commerce in and out of our 
Nation's ports located in the Gulf of Mexico?
    Answer. Another major Hurricane could pose a detriment to the flow 
of commerce in and out of our Nation's ports in the Gulf of Mexico.
    Inefficient utilization of inland waterway transportation system 
for container services is another issue. The heavy reliance on ground 
transport has resulted in increased traffic congestion, worsened 
bottlenecks throughout the network, road deterioration, air pollution, 
highway accidents, and fuel consumption. The integration of the inland 
waterway network into our current intermodal transportation system 
could serve as an alternative to long-haul freight movements and 
alleviate some of these negative impacts.
    For instance, the Mississippi upriver ports are integral parts of 
two major inland transportation hubs: Memphis and St. Louis. These two 
metropolitan areas represent the largest transportation and 
distribution hubs located within the portion of the Mississippi river 
trade corridor unimpeded by the lock system. They also represent a 
diverse network of transportation systems that link to all major 
consumption markets east of the Mississippi River. These areas offer a 
unique set of diverse transportation assets including Class 1 
railroads, interstate highway networks, and inland port facilities.
    If confirmed, I would help provide objective facts to identify ways 
to ways to enhance ocean commerce to and from our Nation's ports in the 
Gulf of Mexico.

    Question 2. How could the FMC highlight infrastructure investments 
in our Nation's seaports in light of the anticipated surge in imports 
and exports from the Panama Canal expansion?
    Answer. If confirmed, I will monitor developments with the Panama 
Canal along with any impacts on cargo movement to U.S. coasts, and work 
to share any information, expertise, or insights the Commission or its 
staff may have in this area.

                                  <all>

</pre></body></html>
